<html>
<title> - BUILDING ON AMERICA'S BEST IDEA: THE NEXT CENTURY OF THE NATIONAL PARK SYSTEM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
BUILDING ON AMERICA'S BEST IDEA: THE NEXT CENTURY OF THE NATIONAL PARK 
                                SYSTEM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, May 25, 2010

                               __________

                           Serial No. 111-53

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
56-648                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97f0e7f8d7f4e2e4e3fff2fbe7b9f4f8fab9">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
Ben Ray Lujan, New Mexico            Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Grace F. Napolitano, California      Elton Gallegly, California
Rush D. Holt, New Jersey             John J. Duncan, Jr., Tennessee
Madeleine Z. Bordallo, Guam          Jeff Flake, Arizona
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
Martin T. Heinrich, New Mexico           Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Donna M. Christensen, Virgin         Robert J. Wittman, Virginia
    Islands                          Paul C. Broun, Georgia
Diana DeGette, Colorado              Mike Coffman, Colorado
Ron Kind, Wisconsin                  Cynthia M. Lummis, Wyoming
Lois Capps, California               Tom McClintock, California
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Stephanie Herseth Sandlin, South         officio
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Ben Ray Lujan, New Mexico
Nick J. Rahall, II, West Virginia, 
    ex officio

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 25, 2010............................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Fazio, Hon. Vic, Commissioner, National Parks Second Century 
      Commission; and Senior Advisor, Akin, Gump, Strauss, Hauer 
      & Feld, LLP, Washington, D.C...............................    38
        Prepared statement of....................................    40
    Galvin, Denis P., Former Deputy Director, National Park 
      Service, McLean, Virginia..................................    41
        Prepared statement of....................................    42
    Jarvis, Jonathan B., Director, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................     3
        Prepared statement of....................................     5
    Lockhart, Stephen H., M.D., Ph.D., Chairman of the Board, 
      NatureBridge, San Francisco, California....................    32
        Prepared statement of....................................    34
    Long, Gretchen, National Parks Second Century Commission, 
      Wilson, Wyoming............................................    36
        Prepared statement of....................................    37
    Ortega, Armand, President, Ortega Family Enterprises, Santa 
      Fe, New Mexico.............................................    51
        Prepared statement of....................................    52
    Pierpont, Ruth L., President, National Conference of State 
      Historic Preservation Officers, and Director, Division for 
      Historic Preservation, New York State Office of Parks 
      Recreation and Historic Preservation, Waterford, New York..    57
        Prepared statement of....................................    58
    Rife, Holly, Association of National Park Rangers, 
      Sabillasville, Maryland....................................    64
        Prepared statement of....................................    65
    Rogers, Jerry L., Chair, Cultural Resource & Historic 
      Preservation Committee, National Parks Second Century 
      Commission; and Member, Coalition of National Park Service 
      Retirees,Santa Fe, New Mexico..............................    69
        Prepared statement of....................................    71
    Wanner, Raymond E., Ph.D., Senior Advisor on UNESCO Issues, 
      United Nations Foundation, Silver Spring, Maryland.........    75
        Prepared statement of....................................    77

                                     



   OVERSIGHT HEARING ON ``BUILDING ON AMERICA'S BEST IDEA: THE NEXT 
                 CENTURY OF THE NATIONAL PARK SYSTEM.''

                              ----------                              


                         Tuesday, May 25, 2010

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:06 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Kildee, Napolitano, 
Holt, Christensen, Kind, Capps, Inslee, Herseth Sandlin, 
Sarbanes, Tsongas, Lujan, Bishop, Gohmert, Lummis, and 
Hastings.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. Let me call the 
Subcommittee on National Parks, Forests, and Public Lands to 
order. The hearing today is ``Building on America's Best Idea: 
The Next Century of the National Park System.'' I want to thank 
all the panelists that we are going to have with us today and 
thank all of you for your attendance, and my colleagues for 
their attendance. I believe this is the first hearing in 
beginning to shape what our response is going to be to the 
upcoming centennial, which is a great achievement for the 
Nation and also a great opportunity to deal with some of the 
challenges that our park system is facing and will face in the 
future.
    Before I go into the statement, let me welcome to the 
Subcommittee a new member and also a member of the full 
Committee as well, Mr. Lujan from the Third District of New 
Mexico, the Land of Enchantment. Sir, welcome, and good to have 
you with us.
    On August 25th, 1916, President Woodrow Wilson signed into 
law the National Park Service Act, known today as the NPS 
Organic Act. The Act directed the newly created agency to 
conserve the scenery and the natural and historic objects and 
the wildlife in the parks and to provide for the enjoyment of 
the same by such a manner and by such means as will leave them 
unimpaired for the enjoyment of future generations. In just six 
years we will celebrate the centennial of the signing of this 
Act, and this hundredth anniversary is an important opportunity 
to review the agency's past and explore the possibilities for 
the future.
    The challenges posed by managing a system, which includes a 
burial site for African slaves in Manhattan, a Cold War missile 
silo in South Dakota, the trails that brought European settlers 
to the frontiers, and other sites from American Samoa to Alaska 
are significant and continue to grow. Our hearing today brings 
together a distinguished group of witnesses who will share with 
us their ideas regarding what lies ahead for our national 
parks.
    The last hundred years have set a course and built a 
tremendous foundation, but as we move into the second century, 
we are moving into a different world, and our national parks 
and the National Park Service will be tested as never before. 
We are grateful to our witnesses for their time and effort to 
be here today. In particular I am pleased to welcome National 
Park Service Director John Jarvis to our hearing for his first 
visit before the Subcommittee.
    Director Jarvis' years of service to the national parks as 
a ranger, superintendent, and regional director are well known 
and greatly appreciated. And for those who do not know, 
Director Jarvis has been serving as the Interior Department's 
Incident Commander down in the Gulf for the last three weeks 
helping to coordinate the government's response to the oil 
spill. Director Jarvis, we realize how difficult it was for you 
to get away from those duties and we very much appreciate your 
presence here today and the time that you have afforded us.
    The stewardship of this world class National Park System 
handed to us by truly visionary pioneers is a daunting task. We 
welcome our witnesses today to help us rise to that occasion 
and to meet that challenge. Let me at this point welcome all of 
you. And, Mr. Jarvis, the time is yours, sir.
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee will now come to order. Thank you.
    On August 25, 1916, President Woodrow Wilson signed into law the 
National Park Service Act, known today as the NPS Organic Act. The Act 
directed the newly created agency to ``conserve the scenery and the 
natural and historic objects and the wild life [in parks], and to 
provide for the enjoyment of the same, in such manner and by such means 
as will leave them unimpaired for the enjoyment of future 
generations.''
    In just six years, we will celebrate the centennial of the signing 
of that Act and this 100th anniversary is an important opportunity to 
review the agency's past and explore the possibilities of its future.
    The challenges posed by managing a system, which includes a burial 
site for African slaves in Manhattan, a Cold War missile silo in South 
Dakota, the trails that brought European settlers to the frontier and 
other sites from America Samoa to Alaska, are significant and growing. 
Our hearing today brings together a distinguished group of witnesses 
who will share with us their ideas regarding what lies ahead for our 
national parks. The last hundred years have set the course and built a 
tremendous foundation, but as we move into the second century, we are 
moving into a different world, and our national parks and the National 
Park service will be tested as never before.
    We are grateful to our witnesses for their time and effort to be 
here today. In particular, I am pleased to welcome National Park 
Service Director Jon Jarvis to our hearing for his first visit before 
the subcommittee. Director Jarvis' years of service to the nation's 
parks as a ranger, superintendent, and regional director are well known 
and greatly appreciated.
    And for those who do not know, Director Jarvis has been serving as 
the Interior Department's incident commander down in the Gulf for the 
last three weeks, helping to coordinate the government's response to 
the oil spill. Director Jarvis, I realize how difficult it was for you 
to get away from those duties, and we very much appreciate your 
presence here today. Thank you.
    The stewardship of a world-class national park system, handed into 
our keeping by truly visionary pioneers, is a daunting task. We welcome 
our witnesses today to help us rise to the occasion.
    I will now turn to the Ranking Member, Mr. Bishop, and invite him 
to make any opening remarks.
                                 ______
                                 

          STATEMENT OF JONATHAN B. JARVIS, DIRECTOR, 
                     NATIONAL PARK SERVICE

    Mr. Jarvis. Thank you, Mr. Chairman. Thank you for this 
opportunity to appear before the Subcommittee to discuss the 
second century of the National Park System. If I may, I would 
like to submit my full written testimony for the record and 
just summarize in the time I have allotted.
    On August 25th, 1916, President Wilson signed into law the 
National Park Service Organic Act, which gave our national 
parks a fundamental statement of purpose and created a body of 
dedicated professionals to care for them. Since then, the 
National Park System has grown from an initial 36 parks, 
monuments, and reservations to 392 units. From a handful of 
park wardens, our workforce has grown to 22,000. Our annual 
visitation has grown from 350,000 to 285 million, so it is 
fitting that we consider the National Park Service for the next 
century. Our core responsibilities will remain the stewardship 
and care of our national parks, service to our visitors, and 
attention to our community programs, and I believe the National 
Park Service can become a more adaptive and innovative 
organization to better respond to the challenges of the second 
century.
    As Director, my priorities are: (1) to provide our 
employees with the resources they need to do their jobs; (2) 
assure continued relevancy of our parks by connecting all 
Americans to them; (3) rededicate the Service to the 
stewardship of our natural and cultural resources; and (4) use 
education to help people understand and appreciate the 
complexities of the natural world and our history. My 
priorities dovetail very well with the recommendations of the 
National Parks Second Century Commission led by former Senators 
Howard Baker and Bennett Johnston.
    Over the course of 2008 and 2009, the Commission gave 
serious consideration to what the National Park Service needs 
to do and came up with four broad recommendations. One, to 
advance a 21st Century national park idea. Two, strengthen 
stewardship of our nation's resources and broaden citizen 
service. Three, build an effective, responsive, and accountable 
21st Century Park Service. And four, ensure permanent 
sustainable funding for the work of the Service.
    I would like to just touch on a few of those 
recommendations under these broad categories. One suggestion of 
the Commission is for Congress to require the National Park 
System to develop a National Park System plan, which would 
identify natural and historic themes of the United States from 
which additions to the system are needed. It would also 
identify those places where the Service can best play the role 
of partner by assisting the efforts of others. The plan would 
provide a strategic approach to building a cohesive, connected, 
and relevant system for the next century.
    The Commission also recommends the Service reduce the 
number of more than two dozen different park titles currently 
used for units of the National Park System. We feel strongly 
that a nomenclature with fewer titles would go a great way to 
making the public more aware of the National Park System as a 
whole. The Commission calls upon the NPS to invite all 
Americans to build connections with parks and to place a high 
priority on engaging diverse audiences. This ties directly to 
one of my four priorities, making sure that the parks remain 
relevant.
    Our nation is undergoing tremendous demographic change, and 
if the parks are to remain important to our changing populace 
we must include new areas that tell the missing pieces of our 
American story. We must ensure that our interpretive and 
education programs are relevant, insightful, and of the highest 
quality so that we attract diverse audiences and can provide 
them with meaningful experiences. We also should hire employees 
who reflect our country's demographics.
    The National Park Service supports locally driven efforts 
to protect large landscapes and preserve our nation's stories 
by means of national heritage programs. There are 49 such areas 
in 39 states but there is no clearly defined program. We 
support the recommendation of creating a system of national 
heritage areas. The Commission's report emphasizes the 
centrality of education to the National Park Service's mission, 
and we agree completely. Parks have a critical role to play in 
helping people understand and appreciate the complexities of 
the natural world and the historic events that have shaped our 
lives.
    Starting in the 1960s Congress gave the National Park 
Service responsibility for a number of community assistance 
programs, and the Commission recommends that the Service make 
full use of them, and we agree. We will continue to assist 
communities in conserving rivers, preserving open space, and 
developing trails and greenways and working in partnership with 
state and local governments in the acquisition and development 
of public outdoor recreation areas. We will continue to support 
historic preservation efforts throughout the country.
    The Commission calls on Congress to reauthorize the 
National Park System Advisory Board, which has responsibility 
for national historic landmarks, natural landmarks, and 
national historic trails. A longer extension of that Board 
would help action in pending landmark and trail proposals. The 
Commission calls for substantial new efforts to support 
leadership development, and we agree the National Park Service 
must create a workplace that continues to attract the best and 
the brightest.
    We are discussing with the National Park Service how to 
accomplish another of the Commission's recommendations, 
creating a center for innovation where lessons can be shared 
quickly throughout the organization. This center is not 
actually a physical place, but we hope it will generate 
creative thinking at all levels in the NPS. And finally, the 
Commission's report states there is a need for international 
engagement by the National Park Service that has never been 
more urgent.
    We will continue to be called upon to work with foreign 
governments, other Federal agencies, and other public 
educational and nonprofit entities to promote the development, 
management, and protection of national parks and other 
protected areas around the world. Mr. Chairman, that concludes 
my statement, I would be pleased to answer any questions you 
may have.
    [The prepared statement of Mr. Jarvis follows:]

   Statement of Jonathan B. Jarvis, Director, National Park Service, 
                    U.S. Department of the Interior

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to discuss the approaching 
second century of the national park system.
    Nearly 100 years ago--on August 25, 1916--President Woodrow Wilson 
signed into law the National Park Service Organic Act. The Organic Act 
brought to fruition years of hard work by such visionary men as 
President Theodore Roosevelt, John Muir, Frederick Law Olmsted, Stephen 
Mather and others who realized that our national parks--the best idea 
America ever had--needed a fundamental statement of purpose, and a body 
of dedicated professionals to care for them.
    Since that time, the national park system has grown from 36 parks, 
monuments, and reservations to 392 units in 49 states. The National 
Park Service today has a workforce of roughly 22,000 employees. Last 
year, we had 285 million visits, with a visitor satisfaction rate of 96 
percent. As we prepare to enter our second century, it is highly 
appropriate to take a step back, to reflect, and to consider where the 
Service should be headed in the next hundred years, and the steps we 
should be taking now to get us there.
    When I was sworn in as director of the National Park Service, I 
told our employees that with their help, we could build a more adaptive 
and innovative organization that could better respond to the challenges 
we would face in our second century. I reiterated that my core 
responsibilities were the stewardship and care of our national parks, 
service to our visitors, and attention to our community programs found 
throughout the country. I also mentioned the four areas I wished to 
address first: providing our employees the resources they need to help 
them do their jobs and to succeed, assuring the continued relevancy of 
our parks by connecting the American people to them, rededicating 
ourselves to the stewardship of our natural and cultural resources, and 
using education to help people to understand and appreciate the 
complexities of the natural world and of the historic events that have 
shaped it and our lives.

National Parks Second Century Commission Report
    The areas I identified as priorities, while focused on immediate 
needs, dovetail with the recommendations of the National Parks Second 
Century Commission--a very distinguished group of business leaders, 
conservationists, public servants, scholars, and statesmen, led by 
former Senators Howard Baker and J. Bennett Johnston. This panel was 
convened by the National Parks Conservation Association in 2008-2009 to 
give serious consideration to what the National Park Service needs to 
do in its next century. There is much in the commission's report, 
Advancing the National Park Idea, that is helpful. In very broad 
outline, the commission's four recommendations are to:
        <bullet>  Create a 21st-century national park idea, one that 
        will meet the needs of the time.
        <bullet>  Strengthen stewardship of our Nation's resources, and 
        broaden citizen service to the agency's mission.
        <bullet>  Build a 21st-century National Park Service, one that 
        is effective, responsive, and accountable.
        <bullet>  Ensure permanent and sustainable funding for the work 
        of the National Park Service.
    Each of the four general recommendations has a number of specifics 
associated with it. I would like to take this opportunity to address a 
few of the specific recommendations.

21st-Century National Park Idea
A National Park Service Plan
    One of the specific recommendations for creating a 21st-century 
national park idea is for Congress to require the National Park Service 
to develop a National Park System Plan. The plan would strategically 
identify natural and historic themes of the United States that are non-
existent or underrepresented within the system from which additions to 
the system would be identified. It would also identify those places 
where the Service can best play the role of partner, assisting and 
advancing the efforts of others. Such a plan would provide a strategic 
approach to building a cohesive, connected, and relevant system. It 
would entail restoring the requirement of the plan that was in law from 
1980 to 1996. The strategic vision the plan would provide is perhaps 
more necessary now than ever. There are several proposals pending in 
Congress to authorize the NPS to study areas as possible additions to 
the national park system, or as new national heritage areas, wild and 
scenic rivers, or national trails. A National Park System Plan would 
help guide Congress and the National Park Service in determining which 
areas would help fill the gaps in the system and which would be more 
appropriately managed by others.

Heightening Awareness of the National Park System
    In addition to filling any gaps in the system, we should also 
consider steps to heighten awareness of existing units, and of the 
system as a whole. People do not have a problem identifying Yosemite 
National Park or Yellowstone National Park as parts of the national 
park system. But many people would be surprised to learn that the 
Appalachian National Scenic Trail, Sleeping Bear Dunes National 
Lakeshore, and Saint Croix National Scenic Riverway are also parts of 
the system. One of the recommendations of the Second Century Commission 
that we believe has merit is to substantially reduce the more than two 
dozen different park titles currently used for units of the national 
park system. We feel strongly that a nomenclature with fewer titles 
would make the public more aware of the national park system as a 
whole.

Engaging Diverse Audiences
    Another of the commission's specific recommendations is that the 
National Park Service invite all Americans to build a personal 
connection with the parks, and place a high priority on engaging 
diverse audiences. The National Park Service wholeheartedly agrees. Our 
parks tell our story, the story of the American people. The National 
Park Service has begun to tell more of that story in recent years, 
parts that have been neglected or under-emphasized. Newer sites like 
Manzanar National Historic Site and Minidoka National Historic Site 
tell of the internment of Japanese-Americans during World War II, and 
Little Rock Central High School National Historic Site and Martin 
Luther King, Jr., National Historic Site tell of the long struggle for 
African-American civil rights. Similarly, our civil war parks now seek 
to explain the causes of that terrible conflict, instead of focusing 
just on the battles that were fought. As such, our parks are forging 
connections with segments of our rich and varied populace whose stories 
have not always been heard.
    It is vitally important that our parks continue engaging all 
Americans, particularly given the changing demographics of our country. 
America is much larger and more diverse today than it was in 1916. In 
1916, our population was roughly 100 million; today it is 309 million. 
In 2003, for the first time, there were more Hispanic-Americans than 
African-Americans. Hispanic-Americans currently make up nearly 16% of 
the population and will make up about 25% of the population in 2050. 
And nearly one out of four Americans under the age of 18 has at least 
one immigrant parent. This goes directly to one of my four priorities, 
namely, keeping the national parks relevant.
    It is clear that the Service needs a three-part strategy to ensure 
relevancy in our changing society. First, we should look to the 
inclusion of new areas or use existing areas to tell the missing pieces 
of our American story. Second, we should take positive steps to ensure 
that the interpretive and educational programs offered at our parks are 
relevant, insightful, and of the highest quality, so that we not only 
attract diverse audiences, but ensure that the parks provide meaningful 
experiences to all Americans. Third, we should hire NPS employees who 
reflect the demographics of this country.

Creating a National Heritage Area System
    As we look to the future on how to develop strategies to preserve 
our natural areas and cultural history, we recognize that protecting 
critical resources does not necessarily mean ownership by the Federal 
Government. Consistent with the President's America's Great Outdoors 
Initiative, we will continue to support locally driven efforts to 
protect large landscapes. For NPS, this means preserving the collective 
stories of our Nation by means of national heritage areas. Currently, 
there are 49 such areas, across 32 states, yet there is no clearly 
defined program. The Second Century Commission recommends the enactment 
of program legislation creating a system of national heritage areas, 
and establishing a process for studying and designating them in a 
uniform manner. The National Park Service agrees with this 
recommendation, and believes that it would strengthen the ability of 
the Service to provide assistance to local efforts where appropriate.

Making Education Central
    The commission's report repeatedly emphasizes the centrality of 
education to the National Park Service's mission. We agree completely, 
and education is one of my four priorities. There can be no doubt that 
education is a primary responsibility of the National Park Service. 
Parks truly are classrooms that help people understand and appreciate 
the complexities of the natural world and of the historic events that 
have shaped our lives. Service learning opportunities must be enhanced. 
There are many partners in the educational community who welcome the 
National Park Service, and we will continue to reach out to them. To 
elevate this function, I have created an Associate Director for 
Education and Interpretation.

Strengthening Stewardship
Make Full Use of Community Assistance Programs
    Under the broad heading of strengthening stewardship, the 
commission also recommends that the National Park Service make full use 
of its extensive portfolio of community assistance programs. Congress 
gave the National Park Service these responsibilities in a series of 
legislative enactments dating back to the early 1960s. Again, the 
Service is in complete agreement with the commission. We will continue 
to assist communities in conserving rivers, preserving open space, and 
developing trails and greenways through the Rivers, Trails, and 
Conservation Assistance Program. We will continue to work in 
partnership with State and local governments in the acquisition and 
development of public outdoor recreation areas and facilities through 
the Land and Water Conservation Fund State Assistance Program. We will 
continue to staff and provide technical support for both the National 
Historic Landmark and National Natural Landmark programs. Through the 
National Register of Historic Places, the Service will help coordinate 
and support public and private efforts to identify, evaluate, and 
protect America's historic and archeological resources. In partnership 
with the State Historic Preservation Offices, we will continue to 
administer the Federal Historic Preservation Tax Incentives program in 
conjunction with the Internal Revenue Service, to encourage private 
sector rehabilitation of historic buildings and thus spur community 
revitalization. Working with our State and local partners through these 
external programs, we can continue to bolster stewardship of our 
natural and cultural resources, another of my four priorities.

Building a 21st-century National Park Service
Reauthorize the National Park System Advisory Board
    The commission calls on Congress to reauthorize the National Park 
System Advisory Board. This body of citizen advisors was first 
established in the 1935 Historic Sites, Buildings and Antiquities Act. 
Among other duties, the board makes recommendations regarding 
designation of both National Historic and National Natural Landmarks, 
and as to the national historic significance of proposed national 
historic trails. In recent years, Congress has extended the life of the 
board in one-year increments only. This unduly complicates the 
appointment of members, and impedes the work of the board. A longer 
extension of the board would help with its continuity and work with the 
leadership of the National Park Service. It would also assure action on 
pending landmark and trail proposals.

Support Leadership Development
    The commission calls for ``substantial new efforts to support 
leadership development.'' We agree that the National Park Service must 
create a workplace that continues to attract the brightest and best, 
one that values and learns from its employees. Consistently in OPM's 
annual surveys of Federal employees, a large majority of our National 
Park Service workforce says that it likes the work it does, feels that 
the work is important, and derives a sense of personal accomplishment 
from such work. But, as with any organization, continued improvements 
must and will be made, and I have placed workforce at the top of my 
four priorities. Some recent positive steps the Service has taken 
include:
        <bullet>  Creating a new superintendents' academy, one that 
        allows superintendents to tailor the 18-month program to meet 
        their individual developmental needs.
        <bullet>  Completing a year-long, comprehensive review of 
        training and development, and implementing its recommendations 
        across the Service.
        <bullet>  Establishing an institutionalized effort with 
        partnering universities to enhance our leadership development 
        opportunities.
        <bullet>  Improving our applicant pool by implementing OPM's 
        on-line USAStaffing system, making the application process 
        easier and allowing the Service to fill vacancies more quickly.
    The National Park Service is committed to becoming a model employer 
for the 21st-century.

Create a Center for Innovation
    The commission recommends that the Service ``establish a Center for 
Innovation to gather and share lessons learned quickly throughout the 
organization.'' I am pleased to be able to report that the National 
Park Service is already working to accomplish this. We have begun 
discussing how we might set up a clearinghouse for new ideas, best 
practices, and systematic ways to address organizational challenges. It 
is our hope that such a center would enable creative thinking at all 
levels of the National Park Service.

International Partnerships
    Finally, the Second Century Commission report states that ``the 
need for international engagement by the Park Service has never been 
more urgent.'' The National Park Service encourages, facilitates, and 
coordinates interactions with foreign counterparts to share expertise. 
This helps to ensure that National Park Service resources are protected 
from global threats including invasive species and loss of habitat.
    The National Park Service has learned invaluable lessons on 
managing resources in our parks from other countries. To take an 
example from the Service's earliest years, the concept of a ``ranger 
naturalist'' dates back to the 1910s, when a few Americans visited 
Switzerland and were impressed with the example of alpine guides 
bringing schoolchildren into the mountains to teach them about local 
flora and fauna. More recently, National Park Service employees have 
learned about invasive species management in South Africa, the 
preservation of adobe buildings in Mexico, and island restoration 
efforts in New Zealand. The National Park Service will continue to be 
called upon to work with foreign governments, other Federal agencies, 
other public entities, educational institutions, and private nonprofit 
organizations to promote the development, management, and protection of 
national parks, natural and cultural resource heritage sites, and other 
protected areas around the world.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you and the other members of the 
subcommittee may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Director. Before we get on the 
clock and get into the question-and-answer session, if you 
could please give the Committee an update on the situation in 
the Gulf, having the responsibility that you have, at this 
point?
    Mr. Jarvis. Thank you, Mr. Chairman, I would be glad to. As 
you mentioned, I have been serving for the last three weeks as 
an Incident Commander for the Department of the Interior, 
stationed in Mobile, Alabama, which is the Mobile sector of the 
Gulf response. My responsibilities are to serve with the U.S. 
Coast Guard, BP, EPA, and the state representatives for 
appropriate shoreline response and preparedness for the Gulf 
oil spill. My area of responsibilities stretch from the states 
of Mississippi, Alabama, and the panhandle of Florida, but I 
work in coordination with our other DOI representatives down 
there.
    Let me just say that the Department of the Interior, the 
National Park Service, the U.S. Fish and Wildlife Service, 
principally have been instrumental in preparing for this 
unprecedented oil spill in the Gulf. One of our primary 
responsibilities is to get out in front of the oil spill and 
document the current conditions of wildlife, of wetlands, of 
sea grass, of water quality, and others so that we can 
understand what the impacts will be when the oil makes shore. 
And we are deeply concerned, of course, about those impacts, 
and it is essential that we get precondition assessments 
completed along the entire Gulf Coast.
    This is an unprecedented oil spill in that most of our 
incident responses were designed to deal with essentially a 
tanker running aground, sort of a point and upon which and a 
defined amount of oil. None of our systems were designed to 
deal with the response that is continuous and which oil is 
continually pumped into the environment, particularly over a 
scale as large as the Gulf of Mexico. And so we are reinventing 
the Incidence Command system as we speak by engaging these 
multiple sectors in deploying boom, in deploying vessels of 
opportunity to assist in boom deployment and collecting 
information.
    As you I am sure know, all efforts at this point from the 
engineering standpoint are on the top-kill, which we are all 
hoping will suspend the flow to the Gulf, and then we will 
essentially have a defined end to this, at least in terms of 
the oil cleanup. At this point we do not have a defined end, 
and we are monitoring this extensively. Let me just say also, 
the Department of the Interior has been a significant 
contributor in the fields of science to better understand what 
this oil is doing both on the surface and subsurface, how it is 
breaking up subsurface, how the dispersants may be playing also 
in the environment, and the long-term effects both ecologically 
and economically and socially in the Gulf.
    Mr. Grijalva. Thank you very much, and let me extend the 
thanks of the Subcommittee for the work that the National Park 
Service and yourself are doing in that very troublesome, to say 
the least, crisis that is being confronted, thank you for that. 
Part of the recommendations, Mr. Director, have to do with 
education, and it is our understanding that you are planning to 
appoint a permanent senior NPS manager to oversee educational 
initiatives. And maybe if you could elaborate a little bit on 
that plan as well as the fact that there is some consensus that 
we are not on the cutting edge technologically in order to be 
able to implement initiatives and outreach programs that are 
going to be vital to the education component. Could you speak 
to both those points?
    Mr. Jarvis. Yes, Mr. Chairman, I would be glad to. I have 
created the first Associate Director for Education and 
Interpretation, it is a senior executive position in Washington 
that will lead the National Park Service in the field of 
education and interpretation. For many years, essentially from 
Stephen Mather's time, we have had field naturalists, 
interpreters as we call them, that provide great programs for 
the public and help explain the natural history and the 
cultural history of these extraordinary places that are in our 
stewardship.
    And, over time, educational institutions such as the public 
schools have learned that these are great opportunities--I 
mean, where better to learn about American history than to go 
to those places like Gettysburg or the Statue of Liberty or any 
of these places when you are talking about the experiences of 
all Americans? But we have never really formalized that 
relationship. We have helped build curriculum, we do field 
trips, we are beginning to use technology in ways that we have 
never done before to bring kids from the classroom without 
necessarily physically transporting them and connecting them to 
our interpreters.
    What we need is high standards, we need evaluation just 
like any education institution to ensure that we are meeting 
education objectives, that we are closely linked with testing 
and standards throughout the education institutions. So having 
a senior position in the National Park Service that can work 
with the Department of Education, with schools, to ensure that 
these institutions come together, I think is essential.
    The use of technology to bring our interpreters into the 
classroom is essential to this. There are millions of kids out 
there using the Internet to access Park Service information, 
but we believe there are opportunities to even go beyond that. 
We do a program called the Electronic Field Trip, which can 
reach up to 3 million kids from our parks to really get them 
engaged at a deeper level. There are some challenges with 
technology, with IT, information technology security, ensuring 
that this sort of open framework that you have in the network, 
have in the Internet, really does not work in government very 
well. So, we need partnerships with education institutions, 
with nonprofits, in order to make those kinds of linkages with 
technology to reach kids.
    Mr. Grijalva. Thank you. What are the important tools that 
you feel are needed to increase diversity in NPS, both in the 
employee base and in the constituency visitor base?
    Mr. Jarvis. Mr. Chairman, I think we have a lot of existing 
tools within the National Park System to reach diverse 
audiences, we just have never thought of them in terms of a 
strategic deployment. For instance, our community assistance 
programs, the Rivers and Trails Conservation Assistance 
Program, the tax credit programs that we have for historic 
preservation, are incredibly wonderful programs that help 
within communities to preserve their own history as well as 
their own riverfronts and long distance trails.
    But we have never thought about it from a strategic 
deployment standpoint. Same thing with the state side of the 
Land and Water Conservation Fund, which helps create and 
protect urban park lands. And urban parks are a threshold 
experience for so many families that may not have the 
transportation or the economic status to get out and see the 
big classic national parks, so these urban parks are essential, 
and we have proven this over and over again at places like 
Golden Gate, Santa Monica Mountains, Lowell, where we can 
engage individuals at the local level and perhaps attract and 
inspire them to explore the National Park Service and the 
National Park System at a broader level.
    Mr. Grijalva. Thank you very much. And if there is time for 
a second go, there will be additional questions. If not, Mr. 
Director, I will submit those in writing to you for response. 
Let me now turn to our Ranking Member of the full Committee, 
Mr. Hastings, for any comments, questions he may have.
    Mr. Hastings. Thank you, Mr. Chairman, and once again 
thanks for your courtesy of allowing me to be here. And, 
Director Jarvis, I just want to be very, very parochial in my 
remarks to you and question. And specifically I want to talk 
about the B reactor at Hanford, which is part of the Manhattan 
Project National Park Service unit. Now there are some concerns 
I know that Interior had with this as far as governing because 
it is on the Department of Energy land, I recognize that, but 
Under Secretary for EM, Environmental Management, in DOE, sent 
you a letter on May 13th and encouraged you to work with her, 
Dr. Ines Triay is her name.
    The B reactor is a very unique piece of equipment if you 
want to put it that way, because it helped us win the Second 
World War and the Cold War. And they have had tours now the 
last several years there, and these tours are sold out 
literally within hours because going on the Hanford reservation 
has some security issues. So, I am just simply saying I want to 
encourage you to work with Secretary Triay on this issue 
because there are legitimate concerns, I do not think they are 
insurmountable. But the interest in the B reactor specifically 
is extremely high, not only in my area but in other parts of 
the country. So, I just want to encourage you to work with her 
on that.
    Mr. Jarvis. I will do that, I will follow up.
    Mr. Hastings. Thank you very much. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. And let me ask Dr. Christensen for 
any questions or comments that she may have.
    Ms. Christensen. Thank you, Mr. Chairman. Good morning, 
Director.
    Mr. Jarvis. Good morning.
    Ms. Christensen. And welcome. As you may know, St. Croix 
and my district looks forward to becoming a part of the 
National Heritage System that you envision having in the parks. 
If that system is not in place, would that preclude any new 
sites from being designated as National Heritage Areas? Because 
we anticipate introducing legislation for that probably next 
year.
    Mr. Jarvis. No, actually it would provide a very logical 
process for new additions to the heritage area program to come 
into the system.
    Ms. Christensen. But if the system is not in place and 
there is legislation pending, someone from the Park Service 
will have to come and testify in favor or against the 
designation, and if the system is not in place that would not 
necessarily preclude new National Heritage Areas?
    Mr. Jarvis. No. The current system, well there really is no 
system right now.
    Ms. Christensen. Right.
    Mr. Jarvis. But there are basically new heritage areas that 
come up through Congress and are proposed and created. What our 
concern has been is that they are sustainable and that there is 
appropriate infrastructure in place and governance at the local 
level, that they will actually be successful, and that is all 
we are looking for is to create that system.
    Ms. Christensen. OK. I wanted to ask some questions also 
about diversifying not only the workforce but also the 
visitation. Has there ever been any outreach to historically 
black colleges and universities or other minority serving 
institutions either to bring employees in or specifically maybe 
to reach out to those institutions for that conservation core 
of students, I do not remember the exact name of it, that work 
in the parks during the summers?
    Mr. Jarvis. Yes there has. We have actually had a 
partnership with historic American black colleges and the 
Hispanic colleges as well for some time. And honestly I think 
it has been with mixed success, and we are reevaluating that 
and to see how we can boost that program up to really attract 
young people to careers in this organization.
    Ms. Christensen. And there was a hearing on a bill H.R. 
1612, the Public Lands Service Corps which, of course, seeks to 
help restore and preserve the parks while employing youth and 
promoting a culture of service. Do you think that an initiative 
like this could be helpful in helping to diversify the NPS 
workforce?
    Mr. Jarvis. I think public lands service corps are an 
essential component to connecting young people to the out-of-
doors. I am not familiar with specific language in that, I do 
not think I was here for that testimony, I think I was in the 
Gulf.
    Ms. Christensen. But the concept?
    Mr. Jarvis. But conceptually, absolutely.
    Ms. Christensen. And on the community assistance, which is 
stressed throughout the next panel, there is a gateway 
community program. Has that been working effectively? I mean we 
have tried to employ some of the principles as I remember them 
in St. John, where two thirds of the island is a national park, 
and while it is very helpful to the economy it does create some 
friction. Have gateway community efforts been successful in 
your eyes or do they have to be also taken another look at?
    Mr. Jarvis. I think that the Gateways Community Program has 
lost some emphasis in recent years, and it is an area that I am 
very strongly interested in reemphasizing. In the audience here 
is my Deputy Director for Community Assistance and 
Communications, Mickey Fern. Mickey has worked in the urban 
parks for three to four decades, systems, and he brings to the 
National Park Service that kind of gateway community approach 
to parks. So, we are very interested in building our program in 
terms of gateway relationships.
    I think it has been, in the past my experience has been 
dependent upon the superintendent's interest at the local level 
and how much they reach out and engage the local communities in 
promotion, in tourism, in economics, in terms of lifestyle 
sustainability, all of those things. And I think that is really 
what the Second Century Commission report in a way is all 
about, is reaching outside of the park boundaries and working 
with communities for mutual goals.
    Ms. Christensen. Thank you. Thank you, Mr. Chairman.
    Mr. Grijalva. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Jarvis, for being here, I 
appreciate it. I have a whole bunch of questions, so hopefully 
there will be a couple of rounds to get through them all. Mr. 
Jarvis, let me understand, specifically as far as the report 
that you have all sent to us, was this funded by the Park 
Service or by NPCA, or by a combination?
    Mr. Jarvis. The funding came from a private philanthropy 
organization, and it was facilitated through NPCA. The Park 
Service did not put any money into it.
    Mr. Bishop. Did NPCA then choose the commissioners who came 
up with the report or worked on the report?
    Mr. Jarvis. The individual commissioners were chosen by the 
Executive Director of that Commission, Loran Fraser, who is a 
retired NPS, and in consultation with the National Park 
Service.
    Mr. Bishop. You did not pick the commissioners at all nor 
are you the chief funder. Who actually put pen to paper, who 
wrote the report itself?
    Mr. Jarvis. The commissioners divided up individual 
sections, and so there are individual commissioners that 
drafted significant components of the report, and then there 
were consultants that were used as a part of that within each 
category, and I think the final writing, the final editing, 
well the final editing was done by National Geographic Society 
and their professional editors, but the final content was 
predominantly written by Mr. Loran Fraser.
    Mr. Bishop. OK, so it is not coming from your office?
    Mr. Jarvis. That is correct
    Mr. Bishop. Because we will talk about the pros in a 
minute, and I do not know if you could use any more cue words 
possible in some of the document here than was used here, but 
you have a whole lot of them that are in there. Mr. Jarvis, the 
inspector general has recently issued two reports that are 
highly criticized by two different groups, one is the NLCS and 
the other is the MMS, for failing to maintain an arm's length 
relationship with special interest groups.
    With this report you seem to be walking right into the face 
of that as dealing specifically with special interest groups to 
come up with a report with all sorts of recommendations that 
are in this. Do you see yourself having a difficult time of 
aligning yourself with such a strong, politically ideological 
group as this, especially in light of the criticisms of doing 
that exact same activity, both with NLCS and with MMS?
    Mr. Jarvis. I cannot speak to NLCS or MMS, but in this 
particular case I do not see the National Park Service aligning 
itself with the organization that produced the report, but more 
so with the recommendations. I think the recommendations are 
the product of years of analysis of where the next century of 
the National Park System should go. In many ways they are very 
consistent with the centennial report that----
    Mr. Bishop. So, you don't think that arm's length 
requirement that was specifically recommended for NLCS and MMS 
should apply in this situation?
    Mr. Jarvis. I think that is a different situation.
    Mr. Bishop. Does not apply. Let me talk to you about a 
couple of things that are in here. You talk about, the report 
says the annual operating deficit is $750 million. Do you agree 
with that assessment or do you support the Administration's 
current budget request?
    Mr. Jarvis. I support the Administration's current budget.
    Mr. Bishop. So, do you have any problems with the document 
saying it is $750 million operating deficit?
    Mr. Jarvis. There are great needs in the National Park 
System. We have a large maintenance backlog, and we have great 
operating needs. But we are also in tough economic times, so I 
support the President's budget.
    Mr. Bishop. I am assuming that was a yes then.
    Mr. Jarvis. Yes.
    Mr. Bishop. OK. Let me also talk about the Core Operations 
analysis. You asked that that be discontinued last fall, but 
the Comptroller said that Core Operations ensures that funds 
are spent in an efficient manner, that a park request for 
funding is credible, and that there are adequate funds and 
staff to preserve and protect the resources for which parks are 
responsible. In this report it attempts to criticize efficiency 
that it says has been stifled by the trend to centralize 
government functions. Doesn't eliminating the Core Ops process 
exacerbate that problem and once again take you steps away from 
efficiency into centralization?
    Mr. Jarvis. Some of our programs are most efficient when 
they are centralized and some of our programs are most 
efficient when they are decentralized. The Core Operations 
program really was not a very good tool in making those 
determinations.
    Mr. Bishop. I understand you were the only Director of a 
region that did not use that program?
    Mr. Jarvis. Actually we did use it but we adjusted it from 
the way it was being deployed.
    Mr. Bishop. All right, sir, I appreciate that. I am only on 
page 2 of a whole bunch of questions that I have here, we have 
a whole bunch of other people who are waiting in line. I will 
yield back and come back to you.
    Mr. Grijalva. Mr. Lujan, questions, comments?
    Mr. Lujan. Mr. Chairman, thank you very much, and to all 
the Committee Members, it is an honor to be part of this 
Committee, I look forward to getting to know everyone better 
and working with them closely. Quickly, I want to jump into the 
importance of consultation as planning is put together, the 
importance of making sure and getting your views of including 
consultation with tribes of locally impacted people. In 
beautiful places like New Mexico, where I call home, there has 
been traditional uses of the land that date back before the 
establishment of many of the Federal agencies, and, Mr. Jarvis, 
if you could just talk about the importance of that and the 
critical nature of making sure that a diverse group of people 
are at the table when these plans are being put together or 
looked at for amending?
    Mr. Jarvis. Yes, sir. One of the things that I did just in 
the last couple of weeks is I created a new Assistant Director 
for American Indian Relations and asked Gerard Baker, who is a 
35-year career National Park Service employee but he is also 
Mandan-Hidatsa and is highly respected in First American 
communities around the country, to serve exactly in that role, 
to reach out to First Americans early and work with elders in 
terms of traditional uses, traditional activities within 
National Park Service areas. So, I think I am absolutely deeply 
committed to working very cooperatively with early consultation 
on all of these kinds of activities that may or may not affect 
traditional activities within park lands.
    Mr. Lujan. And, Mr. Chairman, that is something that I am 
very interested in and making sure that as we look at 
broadening the diversity of the national narrative, sometimes 
preserving access and maintaining historical, cultural, and 
traditional activities helps do that on its own by making sure 
that the communities are included and have the ability to do 
that, engaging diverse audiences along the same lines. And, Mr. 
Chairman, I will close with this final question as to, can you 
just briefly talk about the importance of relationships between 
concessionaires and national park managers as we talk about the 
establishment of that competitive environment recognizing in 
some areas where NPS has not been able to gain the ownership of 
those interests, but in areas outside of that, if you can talk 
about the importance of those relationships and what we are 
doing to promote competition with some of the small businesses?
    Mr. Jarvis. The role of our concession program is 
absolutely essential in providing quality visitor experiences 
around the system. They are 80 plus private businesses that 
operate from very large to small mom-and-pop operations. They 
produce over $1 billion gross, they provide a revenue stream 
into the National Park System from franchise fees. But I view 
them as a partner, not just as a separate sort of private 
entity.
    They are an essential component of providing services to 
the public, and I think that they are doing a great deal of 
good work in terms of the quality of their facilities, the 
sustainability of their facilities, in terms of sort of the 
green footprint that we are seeing some of our concessionaires 
really step up and do great things because that is, we need to 
be sort of the standard bearer in that regard. As always they 
are contractual concession relationships that we struggle with 
at times, and we have a large backlog in dealing with some of 
that, but nevertheless they are a great partner.
    Mr. Lujan. Thank you, Mr. Chairman. I yield back my time.
    Mr. Grijalva. Thank you. Ms. Lummis, any questions, 
comments?
    Ms. Lummis. Thank you, Mr. Chairman. Director Jarvis, I 
note that the Commission has talked a lot about education and 
about connecting people to the parks, but I do not see a real 
commitment to the widest possible access to the parks, and 
access is a big issue in my State of Wyoming where we are proud 
to have the first national park, first national monument in the 
country and, of course, Grand Teton and just great national 
treasures. And we want to make sure that people have access to 
our parks. Access was not one of the top four priorities on the 
top four priorities list. So, how would you characterize the 
Park Service's commitment to ensure that every American has 
access to the parks?
    Mr. Jarvis. I think, well one of the keys to access to our 
National Park System is our partnership with the Federal 
Highways Administration, and recently we also achieved $170 
million in the Recovery Act to provide for road improvement to 
provide safe and quality experiences in terms of road access to 
the national parks. We also recently entered into an agreement 
with the International Mountain Biking Association to provide 
opportunities for mountain biking in our national parks as 
well.
    Also built in with our Recovery Act, as well as our Line 
Item Construction program and our Repair-Rehab program, 
significant investment in our trail systems throughout the 
parks, as well as a significant investment in our improvements 
in overall accessibility--meeting not only the letter but the 
intent of the Americans With Disabilities Act to ensure that we 
have access for all Americans.
    Ms. Lummis. Thank you. Question about your strategic plan 
idea. I notice that the Park Service supports creation of a 
strategic plan, and I think strategic plans are great, but my 
concern is that they should consider the desires and needs of 
local communities. So, who do you envision would undertake the 
development of the plan? And then I am interested also in what 
role you think gateway communities should have in developing 
the plan.
    Mr. Jarvis. The development of a National Park System plan 
I believe is inherently a National Park Service responsibility, 
it is not something to be handed off to anyone else. And we 
have built over years I think a very good capability of working 
with communities and taking community input. This is not 
something that we should or could ever do without active 
engagement with the American public, both at the national scale 
but probably more importantly at the local scale, working with 
communities to hear what they have to say, what is important to 
them that should be protected that helps preserve their 
economy, their local life ways, their history. I think those 
are an essential component of any type of strategic approach.
    Ms. Lummis. OK. Well, and I would comment on that, I have a 
bill that asks you to look at the possible designation of Heart 
Mountain in Wyoming. This was a bottom-up effort. It came from 
a community that wanted to preserve the history of the 
internment camps during World War II that held so many Japanese 
Americans and how that history should be recognized and what a 
great example that is. I do not know that if you are doing 
strategic planning without those kinds of grass roots organic 
efforts that you would even know that those types of facilities 
have been preserved so well by local community organizations 
that now want to work with the Park Service to have those units 
considered.
    So, I understand your desire to develop a strategic plan 
through the National Park Service, but I would also encourage 
you to find ways to engage in some of these grass roots efforts 
to identify possible units that you may not even be aware of 
have the kind of local support that Heart Mountain does. 
Another quick question, Mr. Chairman. How does the designation 
of a national heritage area differ from other national park 
units? And if you establish a uniform process, is your goal to 
ensure that heritage areas are not Federally owned? And thank 
you, Mr. Chairman.
    Mr. Jarvis. The difference right now is that national 
heritage areas are established by an act of Congress without 
any study or recommendation by the National Park Service of 
whether or not they are sustainable. The concept behind the 
heritage areas is that there is no Federal ownership and that 
any Federal investment is over a term and then it is to end. 
Well, these heritage areas really do not end when the Federal 
investment terminates.
    They really should be for the long term, and so, in order 
for that to be sustainable, we want to make sure that there is 
a local governance, a local structure, a revenue stream in 
order for these things to be maintained and to achieve their 
ultimate goals. So, we are asking, via the recommendation, that 
some legislation go forward that tasks the National Park 
Service with going in and working with the community that is 
proposing a heritage area. Let us evaluate and make a 
recommendation in terms of how that local governance would be 
established.
    We are not interested in any Federal ownership in this 
process. We think the heritage area program is a great program 
because it really is locally driven, locally sustainable. But 
we have seen some experience in the 40 plus that are there, 
those that have struggled to be successful. And we want them to 
be successful and all we are asking is that in order to create 
a program that is different is to give us a chance to study 
them first and then recommend to you how that structure would 
go forward.
    Ms. Lummis. OK. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Ms. Tsongas?
    Ms. Tsongas. Thank you, Mr. Chairman. And it is nice to see 
you, Director Jarvis. As you know, we have had our discussion, 
I am from the Fifth District of Massachusetts, and I am 
fortunate to represent two really remarkable historical parks, 
the Minuteman National Park, which protects the historic legacy 
of the beginnings of the American Revolution, and the Lowell 
National Historical Park, which protects and commemorates the 
beginnings of the Industrial Revolution in our country.
    The Lowell Park was created in 1978, and it has had a 
remarkable impact on the city. As you might know, it was the 
city that, when the textile industry began to decline and go 
south, went into steep decline. It was only when the National 
Park Service made a decision to come there and protect the 
great cultural and economic legacy of the city that it created 
a steady stream of funding that the Federal funding spawned, 
increased state and local funding, increased funding in the 
growth of the nonprofit sector, the educational sector, and now 
to date very significant private sector investment.
    And it is a park that is part of the city, it has 
boundaries but they are invisible. So, in a sense, it serves 
some of the purposes the National Park is looking at today, it 
is very much integrated into the everyday life of our citizens, 
we are a very diverse community so just by living in this city 
you have access and get to experience a national park. So, on 
many fronts, it has been very important, obviously played a 
pivotal role in the rebirth of this city as it now stands 
today, but I think very relevant to what the National Park is 
doing as it looks forward. So, my question really is, given the 
importance of an urban historic park, what the plans are for 
funding, continued funding, and how do you see it, or do you 
see it as a model going forward?
    Mr. Jarvis. Thank you for that question. I had the 
opportunity to visit Lowell with the Commission, as a matter of 
fact. It was fascinating to watch the commissioners, and me as 
well, just really fall in love with what has occurred in Lowell 
in partnership with the private sector, the city, and the 
National Park Service. I think it is absolutely a model of how 
a city that was struggling economically and socially; and the 
investment of the National Park Service coming in and restoring 
local pride in their own history and in their own story, and 
investing economically in the city has really turned things 
around.
    And there is no way we could have done it alone. And in 
each of these cases, Lowell being a great example but there are 
others, but not enough of them frankly, of these models where 
the National Park Service brings something to the table to 
restore a piece of history, but to integrate it--not in a sort 
of stilted and dusty kind of history way but absolutely alive. 
And we saw that in Lowell and I think that Lowell stands up 
there with the top few around the country. Golden Gate National 
Recreation Area is another perfect one that is totally 
integrated into the city. And we are testing this model, for 
example at Rosie the Riveter World War II Home Front National 
Historical Park in Richmond, California, where again we are 
integrating the historical context with the city as well.
    Ms. Tsongas. Well, I think it is important to remember as 
you pursue this as a model the ways in which the National Park, 
really representing the Federal Government, really plays a 
catalytic role in that it really does incite expanded 
investment as we said through the state and local governments, 
through the private sector, and the growth of the nonprofit 
sector. So it has a multiplier effect, not by itself, as you 
said it could not do it, but it does spawn all this additional 
investment from many, many resources. And urban contexts really 
lend themselves to that very readily, and so I hope to see 
continued robust funding for this particular park obviously, 
but I do think there is a model there that is relevant and 
worth encouraging.
    I cannot see the time so I do not know if I have. Another 
question, this is a little more down in the weeds, but in 
recent years the National Park has begun to consolidate local 
offices and centralize many functions. At the same time the 
Park has increased levels of bureaucracy and changed many of 
the processes for officials at the park level. What were your 
goals in doing this? Are these changes having a positive impact 
at the park level? And how are you measuring the effects that 
these changes are having?
    Mr. Jarvis. Very good question. There are times when 
consolidation of offices make a lot of sense. The National Park 
Service is seeking, and I am as the Director, as much 
efficiency as I can possibly wring out of our appropriated 
funds. In many cases we pay rents for office space, and all of 
our funds, there are many demands for that. So, we are seeking 
efficiencies where we can find in terms of consolidation of 
offices, consolidation of programs. But we are also evaluating 
those against service to the public and service to the 
resources as well.
    In the Pacific, where I was the Regional Director for seven 
years, we found some great synergies in consolidation of 
certain functions, such as contracting, where they were 
virtually consolidated rather than physically consolidated, and 
where individuals could work for a central office but be field 
located. So, we are testing a variety of models right now 
throughout the system against some evaluation criteria to make 
sure that they are effective as well. Because at times there is 
the perception that perhaps services will be reduced when in 
reality perhaps services are actually going to be enhanced by 
this process. But we need to obviously work with our 
constituencies to ensure that they are still getting the 
services they expect.
    Ms. Tsongas. And are you reaching back to the 
superintendents to just get a feel for how these changes are 
working?
    Mr. Jarvis. We are.
    Ms. Tsongas. So you get some sense of the reality of it 
all?
    Mr. Jarvis. Yes.
    Ms. Tsongas. Thank you. I yield back.
    Mr. Grijalva. Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman. And thank you for 
being here, Director Jarvis. With regard to the Oregon Pipe 
area under you supervision in Arizona, that is considered 
wilderness area, correct
    Mr. Jarvis. Portions of the park, yes, sir.
    Mr. Gohmert. Right. Bordering Mexico, and yet because 
portions, as you say, are wilderness area, vehicles, including 
Border Patrol vehicles, are not allowed in there, correct?
    Mr. Jarvis. That is correct, at certain times under certain 
circumstances.
    Mr. Gohmert. But for normal patrol ensuring that our border 
is observed, since we know there are terrorists wanting to come 
in and trying to destroy our way of life and kill people, when 
are those times when someone can come in and patrol our border 
through those wilderness areas?
    Mr. Jarvis. I had the opportunity to go down there recently 
and spend time with both Border Patrol and the National Park 
Service in Oregon Pipe to better understand exactly that 
question, because I know that that has been a significant 
concern, it is a concern of mine as well.
    Mr. Gohmert. Well, it is only for those who are worried 
about people that want to blow us up. But go ahead.
    Mr. Jarvis. I have that concern as well. So, the bottom 
line is that the Border Patrol has the right to use those 
vehicles when they determine that there are exigent 
circumstances. And they can unilaterally make that decision.
    Mr. Gohmert. But the problem, in order to make those 
decisions about exigent circumstances they have to be in areas 
where they can see the exigent circumstances exist, and if they 
cannot get a vehicle into where people are streaming in then it 
is difficult to make those calls as to what exigent 
circumstances are, and so that is my concern. You know, we hear 
from people who say, we have to protect those wilderness areas 
from vehicles coming in and yet they do nothing about the roads 
that have formed through there from people illegally coming 
into the country.
    And so it just seems like we are completely at cross 
purposes. We will not allow people in there who could preserve 
not only the integrity of our borders in this country but also 
could protect those wilderness areas from people streaming 
through there and destroying this amazing landscape. So, I am 
quite concerned that because of the restrictions on the use of 
any kind of vehicles, as I understand helicopters can go across 
but they cannot land. You are saying if it is exigent 
circumstances they can land, correct
    Mr. Jarvis. Absolutely.
    Mr. Gohmert. But that just seems to be a real problem, and 
since time is limited, and I would urge you to please look at 
that more carefully and try to work out some agreement. Because 
what is happening is the utter destruction of these wilderness 
areas. But we have the Mojave Desert situation where there was 
a cross that was taken down, and now we saw in the news that 
someone had put up a replica because of the position that is so 
anti-God by the Park Service. It seems that not only did the 
Park Service have a problem with the cross, but I had World War 
II veterans up here last week and they were really grieving 
over the fact that a World War II memorial would not mention 
God.
    And when we look at the incredible memorials from the 
Washington Monument, Lincoln Memorial, Jefferson Memorial, all 
these great old memorials that talk about our Creator and God 
and Providence and Laus Deo, Praise be to God, on top of the 
Washington Monument, these veterans were bemoaning the fact 
that new memorials over the last ten or twenty years completely 
have hostility toward the mention of God, completely stripped 
of it. Have you found anything out at all about the taking of 
that cross? Was that the Park Service that took down the 
replica or do you know who did?
    Mr. Jarvis. I do not have current information, but I would 
be absolutely glad to get back to you. I honestly just came in 
from the Gulf last night and was not briefed on the current 
situation at Mojave. But I know we are treating the stealing of 
the cross as a crime, and we are pursuing that from a law 
enforcement investigation standpoint.
    Mr. Gohmert. What about the taking down of the replica?
    Mr. Jarvis. Now, again I do not know the exact situation on 
that and I will be glad to get back to you on what----
    Mr. Gohmert. Well, do you understand that if the Park 
Service said, well we will treat it as a crime, but you do not 
allow the replacement, then it appears the Park Service would 
unwittingly, or perhaps wittingly but hopefully unwittingly, be 
complicit in the accomplishment of the effort of the thieves. 
But I see my time is up, I yield back.
    Mr. Grijalva. Thank you. Ms. Capps?
    Ms. Capps. Thank you, Mr. Chairman. And thank you, Director 
Jarvis for your good work, which I can personally speak to in 
my relationship with you in your previous position. I represent 
the Channel Islands National Park in the Pacific off the 
central coast of California. I have some questions about first 
two really quick questions. Per the court-ordered settlement 
agreement, whose responsibility is it for the removal of the 
deer and elk on Santa Rosa Island?
    Mr. Jarvis. It is the responsibility of Vail & Vickers.
    Ms. Capps. Thank you. And what has the Park Service done to 
ensure that the terms of the court-ordered settlement agreement 
are met?
    Mr. Jarvis. We have instituted our own survey of the 
animals. We wanted to be sure they are in their court-ordered, 
25-percent-reduction phase now per year, and we wanted to 
ensure that the actual numbers resulted in a 25 percent 
reduction. We have also recommended to Vale & Vickers that they 
take specific actions to reduce the population as well.
    Ms. Capps. Thank you. And so the Park Service has been 
providing guidance to Vale & Vickers?
    Mr. Jarvis. Yes we have.
    Ms. Capps. Thank you, I wanted to put that on the record, 
and I want to put in a good word for your excellent 
superintendent of that park, Russell Galipeau. He has gone 
really out of his way to address this particular situation with 
the people involved.
    Mr. Jarvis. Thank you.
    Ms. Capps. Last year the Park Service used Recovery funds 
to install solar panels at Channel Island's headquarters to 
reduce its carbon emissions and energy bills. As you know, the 
Second Century Commission report calls for Park Service 
operations to be carbon neutral by 2016, followed by visitor 
services to be carbon neutral by 2020. That is a big challenge. 
Are you committed to meeting these deadlines? And what actions 
is NPS taking to meet some of these goals?
    Mr. Jarvis. We are absolutely committed to getting as close 
as we can to being carbon neutral. There are many challenges to 
that. But for instance, I believe the National Park Service and 
the units of the National Park System and the facilities that 
we manage, develop, and construct should be an exemplar in 
terms of sustainability. So, we are building facilities that 
meet or exceed the very highest standards in sustainability.
    For instance, the new visitor center at Lassen Volcanic is 
LEED Platinum, and where you not only can learn about the 
volcano itself but you can also learn about the sustainability 
of the physical facility. I have set the standard within our 
Development Advisory Board, which reviews all constructions, 
that they will not accept any project that does not meet LEED 
standards. We are also working cooperatively with our 
utilities, such as Southern California Edison from your part of 
the world, to develop large solar arrays in parks in 
partnership.
    For instance, at Joshua Tree National Park, with the 
assistance of the utility we developed a very large solar array 
that provides shade structure to our maintenance facility and 
produces about 65 percent of the power demands for the 
headquarters area as well. So, we are looking for all of those 
kinds of opportunities. I think the big challenge for us is 
historic structures where it is not really yet, and we are 
working with the National Trust and the Advisory Council to 
develop standards for sustainability around historic buildings 
as well.
    Ms. Capps. Thank you very much. As you know, the Channel 
Islands National Park is finishing up its management plan. One 
of the goals highlighted thus far is to continue monitoring and 
protecting kelp forests off all the islands, a project it 
shares with the adjacent National Marine Sanctuary. And I have 
been very supportive of this partnership and I thank you for 
it. My question has to do, even though this is quite a 
different scenario than the one my colleague Ms. Tsongas asked 
you about, but what are some of the additional ways that the 
Park Service can work with other Federal agencies to 
anticipate, to mitigate, to protect resources? And I am 
thinking particularly in our area of the strong connection 
between the Park Service and NOAA with respect to the Sanctuary 
which it has responsibility for. And I mentioned the kelp 
forests, are there some other areas you want to highlight 
either in this region or in some other regions of this kind of 
synergy that can come between Federal agencies in enhancing, 
multiplying the effect, if you will, of goals that are shared?
    Mr. Jarvis. I think the Channel Islands is a perfect 
example of that kind of collaborative relationship within a 
system, and absolutely the relationship we have there with NOAA 
and the Marine Sanctuary system is a great model. I also want 
to mention the State of California has been a great partner 
there as well in terms of both the protection and monitoring of 
the Marine Sanctuary and the kelp forests around Channel 
Islands.
    There are other examples where we work very cooperatively 
with adjacent land managers on the island of Maui in Hawaii, we 
are working very cooperatively with the state in protection and 
to control the expansion of exotic species like miconia, which 
is a very invasive tree, to keep them out of the park. And so 
the work is very cooperative, all external to the park as well. 
And there are other great examples, in the Dakotas working 
closely with the tribes and the state in preserving waterfowl 
nesting areas, connectivity, and areas for bison that move in 
and out of the park. So, there are a number of those kinds of 
examples, and I really think that working collaboratively 
across these boundaries is the future.
    Ms. Capps. Thank you very much. And I yield back, Mr. 
Chairman.
    Mr. Grijalva. Thank you. Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman, and welcome, 
Director Jarvis, and thank you for taking some time recently to 
talk with me and listen patiently to my obsession with Fort 
McHenry in my district, lifelong obsession. And, of course, we 
are working hard to get that ready for the bicentennial 
celebration that is coming up in 2012. I wanted to ask two 
questions. One is, on the issue of the backlog, the maintenance 
backlog and so forth, I imagine that given how sizable that is 
that you must have some kind of a triage approach to it, and I 
was wondering if you could describe that a little bit.
    Does it consist of sort of triaging at each national park 
site to determine what gets done and what does not get done? 
Are there decisions made that there are certain sites where you 
want to make sure all of the backlog is addressed even if that 
means other sites maybe do not get any attention? How do you 
manage and balance what I imagine is a very difficult set of 
choices with respect to the backlog?
    Mr. Jarvis. One of the great things that occurred over the 
last eight years, particularly with the focus of the last 
Administration, was a quantitative analysis of our maintenance 
backlog. A great deal of investment was placed in terms of both 
setting priorities on our assets, sort of ranking where they 
fit--so ``critical systems'' versus sort of ``nice to have''--
on a very quantitative scale. And then their current condition, 
and then what it would take in order to get them up to a good 
condition.
    This has been done at the asset level, then at the park 
level, then at the regional level, and then at the national 
level. We are in the process of producing what are called Park 
Asset Management Plans, or PAMPs. These are essentially a 
ranking of both condition and asset priority for the entire 
National Park System, so they are developed at the park level 
and then they roll up into a larger system. We have great 
analytical capability now to look at the critical systems in 
the National Park System--things like wastewater, water 
treatment, roads that provide key access, just really the core 
components--that are necessary to keep parks functional, and 
then other assets that sort of fall at the lower end of the 
chart, and there are some assets that, frankly, we need to get 
rid of.
    And so we are focusing also on removal of facilities or 
replacement of those facilities that would eliminate some of 
our maintenance backlog. So we are, this is actually, and I am 
kind of an analytical kind of person, I find this very 
interesting, and so we are trying to focus on where the best 
investment is going to be of our limited dollars in these key 
assets. So, I think we have very much the analytical capability 
of really focusing in sort of a triage way on our most critical 
assets.
    Mr. Sarbanes. The second question I had is, I think I 
mentioned to you when we met previously my interest in 
environmental education, getting kids outdoors. I have authored 
something called the No Child Left Inside Act, which is to try 
to promote outdoor education and integrate that more fully into 
our instructional program across the country. We have a lot of 
folks that are part of a coalition that support that. You 
mentioned the new position of Associate Director for Education 
and Interpretation. And I imagine that that would be kind of 
the point person, the contact person, for our efforts with No 
Child Left Inside and similar kinds of initiatives, and I just 
wanted to confirm that with you?
    Mr. Jarvis. Yes, sir.
    Mr. Sarbanes. OK, thanks very much. I yield back.
    Mr. Grijalva. Thank you. Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman. Director Jarvis, thank 
you so much for being here and for your testimony today. I just 
had a couple of issues I was hoping since we have such an 
abbreviated time to follow up. Maybe we can arrange a meeting 
at some point, but one is dealing with the expiration of the 
Memorandum of Understanding between the Park Service and Peace 
Corps as far as international park units, and what is happening 
there.
    I have always believed that two of our great national 
treasures that we have, one is the Library of Congress, one is 
the public lands, the park system itself. Dr. Billington has 
been doing a wonderful job reaching out to other countries as 
far as the preservation of their founding documents and 
archives and providing assistance. I know we have had a 
wonderful program as far as helping other countries establish 
their own park system, but I know the Memorandum of 
Understanding expired, I am wondering what needs to be done if 
anything to bring that up to speed.
    Second, one of the best things that my wife, Tawni, and I 
decided to do when our children were at a very early age is we 
vowed that during the August break we were going to take them 
backpacking in a different national park for one week, and we 
have done that for the last six years. It has been just a 
wonderful opportunity. But kids today, and obviously we have a 
nature deficit with the younger generation, that is something 
we all should be concerned about, are learning differently, 
they are absorbing differently, they are being stimulated 
differently than maybe what you and I were when we were growing 
up at that age.
    And you had mentioned about the technology programs now 
trying to connect our kids and get them excited and that. And I 
was hoping to be able to pursue in a little more detail what 
partnerships are being established for getting our children 
more interested in the parks by using the technology that they 
seem to be addicted to today and respond to very well. But the 
one issue I wanted you to address today before the Committee is 
in regards the park personnel morale. I mean we were very 
concerned about some of the surveys and studies coming out 
showing the low level of morale with Park Service employees, 
and yet they are one of the most important resources that we 
have going for us in the park system. Why is that, and what 
steps are being done to try to turn that around? If you could 
address that for us?
    Mr. Jarvis. We are concerned about the survey work that was 
done by the Best Places to Work that did indicate that there 
are a number of factors in National Park Service employees that 
raised concern. In order to address that, we have created a 
Workplace Enrichment Committee headed up by a former 
superintendent from San Francisco Maritime, and staffed it up 
to begin to take a deeper dive into the organization to 
understand what these issues are and then, under my direction, 
to invest in fixing those kinds of things.
    We have also, one of the Second Century Commissioners was 
Margaret Wheatley, who is an organizational consultant and 
author on these kinds of issues. And Meg has offered her 
assistance to the National Park Service to help us better 
understand these issues as well. The issues are complex with 
the National Park Service. Most employees love their jobs, they 
love what they do, they dedicate way beyond the normal paid 
hours, they volunteer, they travel to parks on their days off. 
Many of them are back in the park on their days off doing work, 
and it is a way of life, as it was this me, I have been in this 
Service for 34 years.
    But I think they also have high aspirations for the agency, 
and to a certain degree the Second Century Commission report 
calls upon those high aspirations, and they want the park 
system to achieve these broader goals. And they have felt 
perhaps for a while we have not been achieving that for a 
variety of reasons. And so we are going to invest in a lot of 
that over the coming years.
    Mr. Kind. So, do you think it is dealing with aspirational 
objectives with the personnel--and not salary, living 
conditions, work conditions, things of that nature?
    Mr. Jarvis. It is a mixed. I think some of it is workplace. 
I recently saw some of the worst park housing I have ever seen 
in my life, and appalling living conditions for our employees, 
and we are trying to fix that as well. They tend not to 
complain about these things and just go for it anyway. But we 
are going to be looking at that. So, I think it is a 
combination of aspirational and local issues.
    Mr. Kind. Well, I tell you from personal experience having 
contact with a lot of the park personnel throughout the years, 
they are tremendous, they are great resources, great advocates 
for the park system, helpful with the people visiting. And 
anything we can do as far as the Committee is concerned to help 
as far as turning those surveys around so it is heading in a 
positive direction again we are interested in engaging you on. 
And then hopefully we will have an opportunity to follow up as 
far as the Memorandum of Understanding and also some of the 
youth activities, youth programs specifically targeting the 
children of our country to get them excited, as my friend from 
Maryland said, being outdoors again and exploring the wonders 
of our public lands. They truly are national treasures. Thank 
you again, Director Jarvis. Thank you, Mr. Chairman.
    Mr. Jarvis. I would be glad to come by and talk to you of 
that detail.
    Mr. Kind. Great, thanks.
    Mr. Grijalva. Thank you. Ms. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. And, Director 
Jarvis, I think most of the points have been covered except I 
have a few of my own that I thought I would bring to actually 
dovetailing in Ms. Christensen's questions regarding the 
diversity of your workforce. And on that, dovetailing the 
outreach to the areas where there are more minorities that 
might be interested or beginning to get interested in making 
the Park Service a future job career, if you will.
    Have you or are you or will you do outreach to the Members 
of Congress in the areas where you know that you have a high 
concentration of minorities, could be Asian, it could be 
Hispanic, could be African American, to be able to have some 
kind of a program. Now, in California, because I am from 
California, the state government has allowed cable to have two 
access lines for every city in California, public access and 
government access. Now every city would be able to run any PSA 
that you have to promote going to the parks but you have to get 
it to them to run.
    Second, if you were going to reach to the local community 
colleges to provide job training, have the community colleges 
in those areas been able to put on classes, if you will, for 
the diverse things that you would handle, including a 
possibility of a future job? They do it for law enforcement, 
they do it for firemen, why not for the Park Service? And 
especially those of us who in hearing your response to the 
dejected workforce, salary, the budget, I know the budget has 
been very minimal in the past decade, am I correct? So, are you 
getting--not sufficient--it can never be sufficient--but 
additional funding to be able to carry out all the things that 
we talk about and to be able to better the Park Service 
delivery to the residents? I am sorry, that is a mouthful.
    Mr. Jarvis. That is OK, those are all good points. Let me 
give you a couple of examples of where we are doing exactly 
what you suggest. In California in particular, at the 
University of California Merced campus, the newest of the ten 
campuses of the University of California and the most diverse 
of all the UC system, we have a specific program in terms of 
outreach to the community. UC Merced is focused predominantly 
in the central valley, and we actually have uniformed National 
Park Service employees that are college students on the campus 
working in the student center that not only plan trips into 
Yosemite or Sequoia, King's Canyon or other parks, but also 
recruit for seasonal positions in the parks.
    Mrs. Napolitano. May I interrupt you, sir, because my time 
is limited?
    Mr. Jarvis. Yes.
    Mrs. Napolitano. Would you kindly maybe take that as a 
program to be able to transfer to LA? LA County is 12 million 
people, and while we may not have many mountains we do have 
Santa Monica close by and we also have San Gabriel Mountains. 
Merced is a beautiful area, but I do not know how many people 
they have. My county, like I said, has 12 million people. The 
city is 4 million. So, we need to be able to do maybe a little 
more in the areas where you have more density to be able to 
attract the children who then will take their families to the 
parks. I know mine did.
    Mr. Jarvis. One of my goals is to take these programs that 
I know are successful and replicate them in places like Los 
Angeles, so yes, absolutely.
    Mrs. Napolitano. Well, I would love to be able to be some 
kind of resource to you, because I know that we have done a lot 
through the San Gabriel Mountain Conservancy. And I was 
interested in Mr. Kind's mention to maybe find out how to get 
the Peace Corps working with you again. Would it take 
legislation, is it something that you can do without 
legislation?
    Mr. Jarvis. We can do it without legislation. As a matter 
of fact, I have a briefing statement on the renewal of that MOU 
with me in my briefcase.
    Mrs. Napolitano. And then my last comment is--Mr. Chair, I 
will have more questions for the record--the U.S. is working 
with Mexico for sister parks on the border. There is going to 
be an inter-parliamentary meeting in Campeche, I believe, in 
July. It would be nice to have information so that we can then 
begin talking to the Senators and the members of their state 
legislatures and Congress. I know the President is very 
interested in some of those things, President Felipe Calderon, 
is very interested in the water aspect. We can maybe dovetail 
some of those efforts into parks, and any information that you 
may have would be ideal for us to be able to--at least if we 
cannot cover it during this session--at least provide them with 
information for them to follow up. Thank you, Mr. Chair.
    Mr. Grijalva. Mr. Bishop?
    Mr. Bishop. Thank you. Mr. Jarvis, and once again I do not 
want to sound totally negative, I will, that is my job. There 
are some things that you are doing of which I am very proud, 
especially in the area of historic preservation. However, in 
the document that has been presented to us, and that is why I 
ask who wrote it because there are so many red flags that it is 
hard to actually fight your way through it as far as cue words 
that are in there. For example, and I just want you quickly to 
respond to the one, ``Today many of our most serious threats to 
our parks come from beyond their borders. We know that we can 
no longer draw a line on a map and declare a place protected.'' 
Are you seriously recommending buffer zones around all national 
parks?
    Mr. Jarvis. No, sir, we are not recommending buffer zones.
    Mr. Bishop. Which is one of the reasons why I asked who 
wrote the language, the prose in here has problematic concepts 
here that I wish had been much more specifically directed. And 
especially when you go on to the next column and they do an 
actual attack on agriculture. Those are some problems just in 
the prose that you have given to us. Let me ask you another 
one, the so called park scorecard appears to be the successor 
of the Core Ops that I mentioned earlier. On February 29th of 
last year did you attend a meeting with the Park Service and 
the NPCA management partnership where you discussed the 
scorecard for budgeting?
    Mr. Jarvis. I may have, I cannot remember, and I honestly 
cannot remember what I did last February, but a scorecard is an 
important tool and we are using it.
    Mr. Bishop. So, is it appropriate to develop budgeting at a 
high level in private meetings like that one on the 24th with 
agendas that are driven by interest groups with the National 
Park Service?
    Mr. Jarvis. What the Center for Park Management is offering 
is consulting services to do analysis, not recommendations. But 
they provide consulting services for us to do like analysis on 
scorecard metrics.
    Mr. Bishop. And you find that appropriate then? Obviously, 
you just said you did. Would you go back and check your records 
on February 24th? Last time I had the chance of sitting next to 
you with Congressman Hastings and a couple of Senators and the 
Secretary who were in the room, you had a different answer to 
that, which I think there was an effort to try and fix the 
record on that particular answer. So, I would appreciate it if 
you check that again and then get back to me and to Congressman 
Hastings as was originally implied. Let me ask you also one 
other thing about the Treasured Landscapes Initiatives. There 
are emails that said that you were involved in the Treasured 
Landscape Initiative and developed certain Park Service 
proposals. Were the projects of those proposals your own 
initiative or did they come from the Secretary or did they come 
from the President's Office?
    Mr. Jarvis. The Secretary of the Interior asked the 
National Park Service to propose to him how he would approach 
his Treasured Landscapes agenda. So, we provided, we have had a 
number of meetings with the Secretary at his request to----
    Mr. Bishop. So, the proposals that you came up with, were 
they from your office or were they from the Secretary or were 
they from the White House?
    Mr. Jarvis. I have no knowledge of anything from the White 
House, but they were proposals from the Secretary and from the 
National Park Service.
    Mr. Bishop. It is an interesting concept. What projects did 
you actually submit then from the Treasured Landscapes 
Initiative?
    Mr. Jarvis. Well, as I have testified here today, one is 
the authority to redo the National Park System plan where we 
would look at broad themes in this country, American history 
themes, and where potentially new areas could be established to 
tell those stories.
    Mr. Bishop. And those were the initiatives that came from 
your office, were there others?
    Mr. Jarvis. No those are the kinds of initiatives that we 
requested.
    Mr. Bishop. Do you have a list of the ones that you 
proposed that came from your office and will you provide that 
to us?
    Mr. Jarvis. All requests for that kind of information have 
to go through our Solicitor's Office in terms of their 
determination of whether or not they are internal and 
deliberative that I am not in the position to provide that 
unless approved through the Solicitor's Office.
    Mr. Bishop. If the Solicitor approves that, are you willing 
to provide that information?
    Mr. Jarvis. If the Solicitor approves it, yes.
    Mr. Bishop. Were any of those areas in areas that were 
developed where there could have been resources that could be 
developed that would make us less dependent on foreign sources 
of energy?
    Mr. Jarvis. I do not have any information on that, I have 
no idea.
    Mr. Bishop. So, let me get this straight. The Treasured 
Landscape Initiative, which the Solicitor General at one time 
said was a process that should be involved in that, the 
proposals for those initiatives did not come from the White 
House--they actually came from the Department of the Interior--
and your office presented some of those initiatives that were 
there?
    Mr. Jarvis. That would be correct.
    Mr. Bishop. And you do or do not think it would be 
appropriate for Congress then to see what those listed 
initiatives are?
    Mr. Jarvis. I am not in the position to make that judgment, 
that judgment is made by our Solicitor's Office.
    Mr. Bishop. If you were in a position to make that 
judgment, do you think it would be appropriate for Congress to 
know what you have proposed in those areas?
    Mr. Jarvis. I know my position and that is the Director of 
the National Park Service and I am going to stay in that 
position and not speculate on anything beyond my position.
    Mr. Bishop. Well, that is good, maybe you should go through 
what the Solicitor General a decade ago said with the process 
to realize that when you are dealing with those types of 
situations they are supposed to come from the President first, 
not necessarily coming from your office, and if they are, then 
Congress should be a player in that particular area. Mr. 
Chairman, I have a whole bunch of other questions. I will try 
and, you know, you have people here that have other questions, 
I do not want to belabor this point.
    Sir, I will be coming back with other questions that I do 
have on the scorecard concept. As I said, there is some 
verbiage in here that I have some specific issues. I would love 
to be able to say what is the priority of the Park Service, you 
have a line in there that said at one time in 1960 the idea was 
for entertainment, now you have everything from saving the 
planet, which is actually a phrase that is in there, and 
educating children, and kids who go to parks actually are 
smarter than kids who do not go to parks.
    In your testimony, you gave us four priorities which, to be 
honest, I cannot identify outside of bureaucratese what those 
initiatives are. I would love to be able, at some time, just to 
say, I have read your documents and I can say this is the 
priority of what the Park Service is about and what they intend 
to do and have those specific and direct. I have some problems, 
some significant problems with the verbiage in this document. 
As I said, there are cue words that throw all sorts of verbal 
documents from the buffer zone question to the fact you 
actually did attack agricultural interests in the United States 
in this particular document should not be there, that is not 
appropriate.
    I have questions on the funding sources. I have questions 
on why you have received $750 million in the stimulus act but 
you have only spent $92. I have some significant questions of 
heritage areas, especially when the Chairman of the full 
Committee is so wont to say that the entire State of Tennessee 
is a heritage area, which has a hard part of presenting how we 
are going to do initiatives with local government. We have to 
come up with some precise areas of how we move into heritage 
areas in the future, because those areas are significantly 
different than when Congress actually initiated that process.
    We have to come to those kinds of conclusions, and what I 
would like to do, Mr. Chairman, just so other people can still 
have a chance of talking to you before Mr. Jarvis has to go, is 
to submit those to the record. If I can get a response back on 
the questions I submit to the record? Not that I have had 
problems with the Park Service before in getting stuff back 
from you. If I could do that, I would be more than happy to do 
that to try and move this process along. I do want to say there 
are areas in which I am pleased in what you have done, but 
there are a whole lot of areas in which I have some significant 
concerns, especially if this document is going to be the one 
that guides us into the future, and I think it would be good to 
try and talk at some other place and time.
    Mr. Jarvis. I would be glad to come by.
    Mr. Bishop. Thank you, sir.
    Mr. Grijalva. Mr. Inslee?
    Mr. Inslee. Thank you. I just want to deliver some good 
news. I was at Timpanogos National Monument in Utah a couple 
weekends ago and saw a young man painting a sign with nice 
brown paint, and he was doing a great job on behalf of the 
National Park System. I am an old painter so I appreciate good 
painting, he was really making it look really good. Second good 
news is I was impressed with the little brochure that they hand 
out there, it had a section on what Americans could do to deal 
with climate change, what you could do to reduce carbon 
emissions, and I thought that was really a good thing for the 
Park Service to help Americans have that information, and I 
appreciate your sharing that information with Americans at your 
service, so hats off to your work you are doing there.
    But it isn't fully working because we are losing a lot of 
the ecosystems that the Park is responsible for because of 
climate change. So here is one question. The Glacier National 
Park is predicted not to have glaciers, I am told, within the 
next century because of climate change, and the National 
Science Foundation and a whole host of Federal agencies believe 
that is primarily caused by human activities, the release of 
carbon dioxide and methane. So, the question is, when all of 
the glaciers are gone in Glacier National Park because we did 
not deal with our energy crisis, what are we going to call 
Glacier National Park?
    Mr. Jarvis. Well, I hope it will still be Glacier National 
Park, because it was, the landscape there was carved by 
glaciers. You know, we may have to call it the park formerly 
known as Glacier. But nevertheless it is going to change, 
Glacier, in a variety of ways, and there are cascading effects 
that come from the loss of the glaciers, water temperature in 
the streams, change in vegetation, that will result in a 
warming climate. And Glacier is not alone in those changes that 
we are seeing. I think as I have stated in previous testimony 
before the Chairman that climate change is going to be one of 
the greatest challenges the National Park System faces in this 
next century.
    Mr. Inslee. Well, I am afraid that is the case, and the 
glaciers are not just the ice, they are the keystone of the 
whole ecosystem there, and my parents used to work with the 
Student Conservation Association up on Mount Rainier 
revegetating some of those alpine meadows that, if there is a 
heaven on earth, I think that is where it is, and they are fed 
by the glaciers essentially, that is what keeps those whole 
alpine meadows healthy. And so seeing the loss of those is very 
devastating to a lot of us and my constituents who love those 
places.
    Let me suggest there is something we can do about that, 
which is to pass a clean energy bill this year to try to keep 
the places pristine and healthy that you have jurisdiction 
over, and I empathize with your position because you are 
responsible for these treasured landscapes but it is really the 
Energy Department and maybe the Interior Department that really 
are responsible, that we need to give them the tools so they 
can come up with clean energy so we can keep the national parks 
healthy, and I hope that that will happen.
    I wanted to ask you about the National Park Service's 
threats from the oil spill, and I know there are quite a number 
of areas, the Big Cypress National Preserve, Biscayne National 
Park, DeSoto National Memorial, even Dry Tortugas if it gets 
into the Loop Current Everglades. Could you describe what your 
situation is with the Park Service on protecting those areas 
right now? Do you have any sort of emergency budget that you 
can draw on to deal with those challenges with your parks right 
now, or do you have an unlimited well to draw from from British 
Petroleum? How is this working for you?
    Mr. Jarvis. As I mentioned earlier, I am serving as an 
Incident Commander down there right now. And so there are seven 
units of the National Park System that are interior to the 
Gulf, and then Biscayne we are counting as the eighth just 
being around the turn. There are also 33 national wildlife 
refuges also potentially threatened by the oil spill. Our first 
step has been to deploy boom material. Gulf Islands National 
Seashore is the one that is closest to the oil spill, in many 
cases only less than ten miles from the slick, and so we have 
been deploying boom.
    We are at 100 percent of our planning level in terms of 
protection of Gulf Islands National Seashore to protect 
predominantly the wetlands and estuaries and sea grass beds 
that are on the back sides of the islands, and we have done 
that. We are also out with teams of biologists and 
archaeologists to document the preexisting conditions in all of 
the national parks in the gulf. Frankly we think that for the 
south Florida parks, Dry Tortugas, Big Cypress, Everglades, and 
Biscayne, it is predominantly going to be a tar ball event 
because and oil is weathering.
    We have been working very actively with the BP chemists and 
our own scientists to better understand what is changing in the 
oil as it moves through the Gulf and potentially into the Loop 
Current. It is in the Loop Current, but it weathers actively. 
This particular oil is a low sulfur, high volatile, sort of 
what they call a sweet crude. It does weather in the water 
column and on the surface and results in tar balls. Tar balls 
are problematic but they are not particularly toxic.
    And so we have teams in place to gather tar balls as they 
appear anywhere within the National Park System, they go to the 
lab to determine their source, we can fingerprint them fairly 
closely to Deepwater Horizon 252 to determine if their source 
is coming from that. So, I think at least from the National 
Park System we are pretty well prepared. We are doing this 
under the unified command, which is being paid for by BP, for 
our response at this point, and all of that is, we do very 
extensive cost accounting in this process and that is all being 
paid for by the responsible party at this time.
    Mr. Inslee. Thank you.
    Mr. Grijalva. Mr. Inslee. And in deference to the travel 
and the responsibility that you have now, if there are no other 
follow-up questions, let me thank you, Mr. Director. Ms. 
Napolitano?
    Mrs. Napolitano. Very quickly. There was an indication of 
invasive species, whether it is the pine beetle in the forests 
in the parks, whether it is the tamarack being eradicated by 
Japanese beetles, which are now infecting or moving out in Utah 
at Mojave, what are you doing on those areas? Because that also 
is a drain on your budget I am sure.
    Mr. Jarvis. The advance of exotic species is a major 
concern for the National Park Service, and a lot of it is 
driven by climate change, buffelgrass in the Southwest would be 
another example. We have exotic plant management teams deployed 
across the system that are actively attacking the spread of 
these species, and obviously working very cooperatively with 
state agencies that control, weed control districts, and other 
agencies as well on this. So, it is a huge challenge but we are 
not taking it laying down.
    Mrs. Napolitano. OK. In Colorado they are using some of the 
pine beetle killed to take the oil out of the pine and then 
mulch it to give to cattle, which I thought was great. Also, if 
you could implement photovoltaic or geomass or wind power in 
many of your sites, how much money do you think you could save?
    Mr. Jarvis. That is a question I would have to get back to 
you on and calculate. I think there are places like the Mojave 
Desert, Joshua Tree and others, where we can deploy these 
resources. There are other places that we cannot, just because 
it is a historic facility--though we are finding unique ways to 
do it. We have a project on Alcatraz Island where we are going 
to lay solar panels on the central cell block where they would 
not be seen by the public. So, we are looking at all kinds of 
innovative ways to do this, but ultimately we probably could 
never deploy enough solar, wind, or alternative energy within 
the national parks to cover all of our energy demands. We are 
going to have to do that in partnership with others.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Grijalva. Ms. Lummis?
    Ms. Lummis. Thank you, Mr. Chairman. Just one follow-up on 
Mrs. Napolitano's earlier discussion with you when you were 
talking about the students at Merced and what a neat program 
that is. I would encourage you to incorporate Native Americans 
also into the discussion of opportunities for young people. As 
I look at the Wind River Indian Reservation in Wyoming, its 
proximity to Grand Teton and Yellowstone National Parks, and 
how we might incorporate young people on the reservation into 
interactions with tourists on the park, it provides some 
opportunities for Native Americans. There is a Park Service 
director at Devils Tower who is a Native American from the 
Rosebud Reservation, she has been a great addition. And I think 
that those are great programs so I want to applaud you for it 
and ask you to consider Native Americans in those types of 
programs. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. If there are no further questions, 
Mr. Director, thank you, thank you for the job you are doing 
right now and the job that you are doing as Director. I think 
the Commission's blueprint and recommendations are important, 
and I want to extend my appreciation for you working with them 
and as we approach that centennial down the road, looking at an 
implementation schedule that both involves resources, funding, 
and priorities, and I think that is where we will be going as a 
consequence of the hearing today and as a consequence of the 
very important report that is before us. So, thank you for 
being here today, I appreciate it a lot.
    Mr. Jarvis. Thank you, Mr. Chairman.
    Mr. Grijalva. And let me invite the next panel up. Let me 
welcome and thank our panelists for your valuable time and for 
the time that you are giving this hearing, we appreciate it 
very much. Let me begin with Dr. Steve Lockhart, Chairman of 
the Board, NatureBridge, San Francisco. Welcome, sir, and thank 
you for being here.

      STATEMENT OF STEVE LOCKHART, CHAIRMAN OF THE BOARD, 
            NATUREBRIDGE, SAN FRANCISCO, CALIFORNIA

    Dr. Lockhart. Thank you very much, Mr. Chairman, Members, 
and thank you for the opportunity to present testimony before 
this distinguished Subcommittee. It is an honor and a 
privilege. In 2016, as you are aware, the National Park Service 
will celebrate its centennial, and in 2008 the Second Century 
Commission was convened, an independent body charged with 
developing a vision that expanses the national park idea for 
the next 100 years. We are a group of distinguished private 
citizens including scientists, educators, conservationists, 
business people, and leaders in state and national government.
    We met at several national parks around the country and 
engaged in dialogue with citizens and experts. We are grateful 
for the leadership provided by our Co-Chairs, former Senators 
Bennett Johnston and Howard Baker. As the Co-Chair of the 
Commission's Education and Learning Subcommittee, I will be 
most expansive on this topic. However, our report and 
recommendation is reflected in all the testimony you will hear 
today and I ask that my remarks be considered within that 
context.
    One of our first experiences as a Commission involved a 
visit to the Santa Monica Mountains National Recreation Area. 
There we joined a group of 5th graders involved in a program in 
which students adopt a designated plot of land and remove non-
native plants and restore native species. They learn about the 
water cycle, soil, insects, and other ecological concepts. 
Notably, these were all children from the urban environment of 
Los Angeles, the majority of whom were being introduced for the 
first time to this national park right in their own backyard.
    Whereas park visitors typically do not reflect our nation's 
diversity, these students did reflect the diversity of their 
local communities. Due to this positive and memorable 
experience, many of these children returned to introduce their 
parents and family members to the park. This is a powerful 
example of the ability of education to engage future 
generations and to inspire a personal connection with our 
national parks. Education ranks among our nation's highest 
priorities. As one of the largest providers of both informal 
and formal educational experiences, the national parks offer an 
opportunity to engage in place-based, lifelong learning.
    Just as the Organic Act established a framework needed to 
maintain the parks during the first century, education is core 
to the success of the parks during the next century. The 
Commission recommends that education be at the forefront of the 
National Park Service agenda and that Congress establish a 
clear legislative mandate for education as a fundamental 
purpose of the parks. Education is provided through the visitor 
experience, ranger-led interpretation, formal educational 
programs, and academic research. It is provided by the National 
Park Service, but in equal measure by partners and volunteers.
    Students who participate in park educational programs show 
a measurable improvement in academic performance and achieve 
higher test scores, all of which helps to further the primary 
objective of enhancing the quality of education in America. 
NatureBridge is an example of one of several partner 
organizations for which 40 years has provided week-long 
residential field science programs in national parks and 
currently educates 40,000 middle school and high school 
children per year.
    As Chair of the Board of NatureBridge and as a parent of a 
program alumnus, I can testify to the transformative nature of 
these types of park experiences. Interestingly, four current 
park superintendents are alumni of our programs who acknowledge 
that the seed of interest in a career was planted at that early 
stage. In order to support its human capital needs for the 21st 
Century, the Park Service must develop a pipeline creating a 
ladder of learning, including Service learning, that plants 
these seeds of interest and captures the imagination of young 
people.
    For the vast majority who will not pursue a career with the 
National Park Service, the benefit to society of developing 
leadership, stewardship, and a sense of personal responsibility 
for the environment cannot be overstated. Within the National 
Park Service, nodes of educational excellence exist, but have 
evolved inconsistently due to chronic underfunding and lack of 
institutional commitment to professional development for 
interpretation and education staff. Education is also a 
powerful tool to engage the broader American public, a public 
which is increasingly diverse and has struggled at times to 
find a personal connection with our national parks.
    We should recognize and support the vital role the National 
Park Service Education and Interpretation staff play in 
engaging this diverse public. Historically, important stories 
have been missing from the chronicle embedded in our parks. 
Which of our nation's stories are told, how they are told, and 
by whom, are critical elements in making a visitor experience 
relevant to a diverse multicultural society. The old concept of 
a ranger as an authority who provides education for the public 
must be replaced with the ranger who facilitates with audiences 
and engages communities and partners to provide a relevant 
experience.
    Finally, if we expect to maintain a vibrant system of 
national parks into the second century, it is critical for the 
National Park Service to create and foster a culture conducive 
to achieving workforce diversity reflective of the public it 
serves. We see our national parks as the centerpiece of a 21st 
Century America, which shares our shared national heritage. Our 
recommendations are designed to advance the national park idea, 
making it relevant for all Americans for generations to come. 
Thank you.
    [The prepared statement of Dr. Lockhart follows:]

              Statement of Stephen H. Lockhart, MD, PhD, 
                National Parks Second Century Commission

    Mr. Chairman, thank you for the opportunity to present testimony 
before this distinguished subcommittee. It is an honor, a privilege and 
it is my sincerest hope that our remarks will be enlightening, 
informative and helpful in your consideration of how best to support 
and enhance one of our nation's greatest treasures, our National Parks.
    In 2016, the National Park Service will celebrate its centennial. 
In 2008, the nonprofit National Parks Conservation Association convened 
the Second Century Commission, an independent body charged with 
developing a vision that advances the national park idea for the next 
100 years. We are a group of distinguished private citizens, including 
scientists, educators, conservationists, business people, and leaders 
in state and national government. We met at National Parks around the 
country and engaged in structured dialogue with concerned citizens and 
experts. We are grateful for the wisdom and leadership provided by our 
co-chairs, former Senators Howard Baker and Bennet Johnston. To 
accomplish more in-depth analyses and to develop a deeper appreciation 
for the issues involved, we formed eight committees. As Co-chair of the 
Education and Learning Committee, it is on this topic that I will be 
most expansive in my testimony. However, it should be recognized that 
our report and recommendations are reflected in all of the testimony 
you will hear today as well as in the written materials you have 
received. I ask that my remarks be considered within that larger 
context.
    One of our first experiences as a Commission involved a visit to 
the Santa Monica Mountains National Recreation Area. There we joined a 
group of 5th graders involved in a program called SHRUB (Students 
Restoring Unique Biomes). Two student teams adopt a designated plot of 
land and remove non-native plants and restore native species. They 
learn about the water cycle, soils, insects, plant adaptation and other 
ecologic concepts. Notably, these were all children from the urban 
environment of Los Angeles, the majority being introduced for the first 
time to this national park in their own backyard. Whereas park visitors 
typically do not reflect our nation's diversity, these school aged 
children did reflect the diversity of their local communities. Due to 
this positive and memorable experience, many of these children return 
to introduce their parents and family members to the park. This is a 
powerful example of the power of education to engage future generations 
and to inspire a personal connection with our National Parks.
    Education ranks among the highest of our nation's priorities. As 
one of the largest providers of both informal and formal educational 
experiences, the National Parks offer an opportunity to engage in 
place-based, lifelong learning. This learning promotes a more 
sustainable environment, enhances dialogue about the democratic 
principles at the core of our society, and encourages stewardship.
    Just as the Organic Act established the framework needed to 
maintain the parks during the first century, education is core to the 
success of the parks during the next century. The Commission recommends 
that education be at the forefront of the National Park Service agenda, 
and that Congress establish a clear legislative mandate for education 
as a fundamental purpose of the parks.
    Education is provided through the visitor experience, ranger led 
interpretation, formal educational programs and academic research. It 
is provided by the National Park Service, and in equal measure by 
partner organizations and volunteers.
    Students who participate in park educational programs show 
measurable improvement in academic performance and achieve higher test 
scores. A significant amount of this educational programming in parks 
is provided by partner organizations. NatureBridge is an example of one 
such organization which for 40 years, has provided week long 
residential field science programs in National Parks, and currently 
educates 40,000 middle school and high school children per year. 
Program evaluation demonstrates a high level of student engagement, 
improved academic performance, and gender-neutral participation in 
scientific learning. Our programs also educate teachers on how to 
incorporate this learning into the classroom. In addition, there are 
professional development programs for teachers, all of which helps to 
further the primary objective of enhancing the quality of education in 
America.
    As both Chair of the NatureBridge Board and as a parent of a 
program alumnus, I can testify to the transformative nature of these 
types of experiences. Interestingly, four current park superintendents 
are alumni of our programs who acknowledge that the seed of interest in 
a career was planted at that early stage. In order to support its human 
capital needs for the 21st century, the Park Service must develop a 
pipeline, creating a ``ladder of learning'', including service 
learning, that plants these seeds of interest and captures the 
imagination of young people.
    For the vast majority who will not pursue a career with the 
National Park Service, the benefit to society of developing leadership, 
stewardship, and a sense of personal responsibility for the environment 
cannot be overstated
    Within the National Park Service, nodes of educational excellence 
exist but have evolved inconsistently due to chronic under-funding and 
lack of institutional commitment to professional development. We are 
heartened that, under Director Jarvis' leadership, one of our 
recommendations, to create a senior level management position with sole 
responsibility to oversee educational initiatives has been 
accomplished. There are innovative programs within the Park Service, 
such as the Teacher-Ranger-Teacher program which offers the opportunity 
for teachers from Title 1 school districts to train and work as an 
interpretive ranger during the summer months prior to returning to the 
classroom in the fall. Important programs such as these integrate 
learning in the classroom and park environments, and are deserving of 
increased support.
    Another barrier to maximizing the educational impact of our parks 
is the failure of the Park Service to adapt to technologic change. The 
National Park Service must embrace technology as a means of providing 
place-based and distance learning. During our Commission meeting at 
Gettysburg, we were able to participate in a ranger-led program 
exploring the underwater ecosystems at Cabrillo National Monument. 
Although it was exciting to learn that programs like this are possible, 
it was disappointing to learn that this could only be provided through 
partner organizations because the infrastructure required to offer such 
programs is not available within the National Park Service.
    Education is also a powerful tool to engage the broader American 
public, a public which is increasingly diverse and who struggle at 
times to find a personal connection with the parks. We should recognize 
and support the vital role of the National Park Service education and 
interpretation staff in engaging this diverse public.
    We also acknowledge that, historically, important stories have been 
missing from the chronicle embedded in our parks. Which of our nation's 
stories are told, how they are told and by whom are critical elements 
of making a visitor experience relevant. Establishing parks such as 
Manzanar and the Selma to Montgomery National Historic Trail, dedicated 
to uncovering and facing some of our most difficult stories, expands 
the dialogue. But we have also learned that stories of the Buffalo 
soldiers in Yosemite and the Native American communities around Mt 
Rushmore enrich the cultural and historic significance of our most 
iconic parks. The old concept of the ranger as an authority who 
provides education for the public must be replaced with the ranger who 
facilitates with audiences, and engages communities and partners to 
provide a relevant experience. Finally, if we expect to maintain a 
vibrant system of National Parks into the second century, it is 
critical for the National Park Service to create and foster a culture 
conducive to achieving workforce diversity reflective of the public it 
serves.
    We see our national parks as the centerpiece of a 21st century 
America, enriched by its cultural and ethnic diversity, committed to 
education and public service, and celebrating our shared national 
heritage. Our recommendations are designed to advance the national park 
idea, making it relevant to all Americans for generations to come.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me turn to our next 
panelist, Ms. Gretchen Long for your comments. Thank you.

          STATEMENT OF GRETCHEN LONG, WILSON, WYOMING

    Ms. Long. Mr. Chairman, thank you for inviting us to speak. 
My name is Gretchen Long from Wilson, Wyoming, next door to 
Grand Teton National Park and Yellowstone. I have been a 
volunteer conservationist for the past 30 years. As such, I 
realize I do not have a title as the rest of my colleagues do, 
but in that rich experience I have been Chairman of the Cary 
Institute of Ecosystem Studies, I have been Chairman of the 
National Outdoor Leadership School, NOLS, and many other 
wonderful organizations, and I did have the privilege of 
serving on the Second Century Commission as a volunteer 
conservationist, and it was an extraordinary experience of 
working with 28 other commissioners from around the country, 
many of whom did not have at the beginning of this experience 
vast knowledge of the National Park Service.
    But we came together to assess national parks today and 
what the future holds, and we concluded over a year-long 
deliberation with an exceptional unity of outlook, that was I 
think part of the amazing transformation that took place among 
the commissioners, and we felt as a whole, as a body, that not 
only are our national parks America's best idea as Wallace 
Stegner has said, but they are positioned to be a leading force 
in meeting the 21st Century challenges of accelerated loss of 
nature, public disengagement, and youthful disconnect.
    The committee that I am particularly representing was the 
Science and Natural Resources Committee. I served under the 
able leadership of Dr. Rita Caldwell, who was the Chair and the 
former Director of the National Science Foundation and current 
Distinguished Professor of the University of Maryland. The 
Committee noted that our national parks, Acadia, Grand Canyon, 
Yosemite, Yellowstone, are among America's favorite icons, and 
as such have the support of most of the people in the country.
    They are the translators of America's great outdoors, they 
are the remaining bastions of biodiversity. But, in the 21st 
Century, it is clear that the national parks alone cannot 
sustain our nation's ecological heritage. National parks are 
neither fully representative of our national natural systems, 
nor are national parks isolated islands able to accomplish 
their mission of keeping resources unimpaired for future 
generations up against the modern pressures that abound today.
    The Park Service will need to grow in a manner in which 
they operate and work within a broader context. Therefore, the 
Science and Natural Resources Committee recommends, one, that 
the President of the United States should establish a task 
force including the National Park Service and other Federal 
agencies involved in conservation, along with their state, 
local, and nonprofit partners, to [a] map a national strategy 
for protecting America's natural heritage, and [b] to identify 
protection of the nation's natural assets as a common goal of 
all agencies while pursuing their respective agency agendas.
    Two, national parks impacted by their surroundings cannot 
endure alone. The Park Service has a long history of reaching 
out to communities and establishing partnerships as well as 
engaging the visitor, often being the environmental translator. 
It sets a high standard in the way it manages its resources. 
Thus, it is uniquely qualified to offer technical assistance 
and counsel to a larger public. The Committee recommends the 
creation of new legislation modeled after the National Historic 
Preservation Act of 1966 to enhance protection of national 
heritage values on non-Federal lands.
    Such legislation would provide leadership opportunities for 
the Park Service to provide technical assistance and counsel 
and to encourage incentives for private land conservation. It 
is not intended to convey any new management or regulatory 
authority. And finally, three, in recent decades, the science 
arm of the National Park Service has been weakened. To realize 
its promise, the Park Service must be a trusted scientific 
authority. The Committee advises that science must be 
strengthened within the Service to support a science-based 
foundation for building a 21st Century system.
    The Park Service needs to build an internally directed 
research program which takes advantage of the data in its 
venue, and which also makes ecosystem and species restoration a 
hallmark of its applied science capability. To conclude, our 
nation's natural assets will only be secure if there is a 
coordinated, comprehensive, scientifically based approach to 
ensuring our natural heritage. And the Park Service with its 
outstanding system of parks is eminently qualified to take a 
leadership role in this critical endeavor. Thank you for your 
time.
    [The prepared statement of Ms. Long follows:]

  Statement of Gretchen Long, National Parks Second Century Commission

    Mr. Chairman, Thank you for inviting us to speak. My name is 
Gretchen Long, from Wilson, Wyoming, next door to Grand Teton National 
Park and Yellowstone. As a volunteer conservationist for the past 
thirty years, I had the privilege of serving on the Second Century 
Commission which Steve Lockhart just described. It was an extraordinary 
experience of 28 commissioners from around the country, many experts in 
their own field but with limited knowledge of our national parks, who 
came together to assess national parks today, and what the future 
holds.
    We concluded our year long deliberation with an exceptional unity 
of outlook: Not only are national parks ``America's Best Idea'' as 
Wallace Stegner said, but the parks are positioned to be a leading 
force in meeting the 21st century challenges of accelerated loss of 
nature, public disengagement, and youthful disconnect.
    The role for national parks to meet society's needs and to be a 
leader in broad scale ecosystem protection was especially evident in 
the discussions of the Science and Natural Resources Committee, on 
which I served under the able leadership of Dr. Rita Colwell, former 
Director of the National Science Foundation and current Distinguished 
Professor at the University of Maryland.
    The committee noted that our national parks--Acadia, Grand Canyon, 
Yosemite, Yellowstone--are America's favorite icons, and as such have 
the support of most people in the country. As the best preserved public 
lands of our nation, they are beacons of stewardship. Traditionally the 
parks have been our translators of America's great outdoors and the 
wonders of nature. They are much of our remaining bastions of 
biodiversity. The committee views national parks as our nation's 
national heritage, an invaluable, irreplaceable part of our nation's 
patrimony.
    But in the 21st century it is clear that the parks alone cannot 
sustain our nation's ecological heritage. National parks are neither 
fully representational of our national natural systems (which Deny 
Galvin will speak to following), nor are national parks, isolated 
islands, able to accomplish their mission of keeping resources 
unimpaired for future generations up against the modern pressures that 
abound.
    The park service will need to grow in the manner in which they 
operate and work within a broader context. As one of the country's 
favored agencies, respected by our people for maintaining our precious 
landscape, the National Park System is well positioned to make these 
changes. Accordingly, the committee stated:
    1. National parks are frequently in the fabric of multiple public 
lands managed by a number of different federal, and sometime state, 
lands. To combat the effects of habitat fragmentation, federal agencies 
need to work in a fashion geared to compatibility with the nation's 
long-term protection of our natural heritage. The park service will 
play a major role in leading this comprehensive strategy and engage 
partners across agency lines.
    The Committee recommends the President of the United States should 
establish a task force, including the National Park Service and other 
federal agencies involved in conservation, along with their state, 
local and non profit partners, to map a national strategy for 
protecting America's natural heritage and to identify protection of the 
nation's natural assets as a common goal for all agencies, while 
pursuing their respective agency agendas.
    2. National parks, impacted by their surroundings, cannot endure 
alone. Ecosystem services, water air, wildlife, are dynamic. Parks are 
cornerstones of a larger system.
    The park service has a long history in reaching out to communities 
and establishing partnerships, as well as engaging the visitor, often 
being the environmental translator. It sets a high standard in the way 
it manages its resources. Thus it is uniquely qualified to offer 
technical assistance and counsel to a larger public.
    The committee recommends the creation of new legislation, modeled 
after the National Historic Preservation Act of 1966, to enhance 
protection of natural heritage values on non federal lands. Such 
legislation would provide leadership opportunities for the National 
Park Service to provide technical assistance and counsel, encourage 
incentives for private land conservation, etc. It is not intended to 
convey any new management or regulatory authority.
    3. In recent decades the science arm of the National Park Service 
has been weakened. To realize its promise, Dr, Cowell states, ``The 
National Park Service must be a trusted scientific authority.''
    The committee advises science must be strengthened within the 
service, to support a science based foundation for building a 21st 
century system. The park service needs to build an internally directed 
research program which takes advantage of the data in its venue, and 
which also makes ecosystem and species restoration a hallmark of its 
applied science capability.
    To conclude, our nation's natural assets will only be secure if 
there is a coordinated, comprehensive, scientifically based approach to 
ensuring our natural heritage. The National Park Service, with its 
outstanding system of parks, is eminently qualified to take a 
leadership role in this critical endeavor.
    Thank you for your time
                                 ______
                                 
    Mr. Grijalva. Let me introduce The Honorable Vic Fazio for 
his comments, and thank you for being here, sir.

  STATEMENT OF THE HONORABLE VIC FAZIO, SENIOR ADVISOR, AKIN, 
       GUMP, STRAUSS, HAUER & FELD, LLP, WASHINGTON, D.C.

    Mr. Fazio. Thank you, Chairman Grijalva and Ranking Member 
Bishop and Members of the Committee, for putting the time in to 
hear the recommendations of this National Parks Second Century 
Commission. I want to begin by telling you what an incredibly 
capable, diverse, and talented group of people I had the 
privilege of serving with on this Commission. You get a slice 
of that in the testimony of this panel and later on from 
additional testimony from a gentleman who sits behind us, Mr. 
Jerry Rogers.
    But it really was an incredibly capable and involved group 
of people who came from a variety of different perspectives and 
found that they had a common interest in the national parks and 
its further development. Of course, much of our recommendation 
took the long view. We were not focused just on the next couple 
of fiscal years. We did look down the road and determined that 
for the National Park Service to be able to meet the mission 
that it was envisioned to have by this Commission, a good deal 
more funding would be required.
    And as a former appropriator here in the Congress, I sat on 
the committee chaired by Linda Bilmes, who is the Professor of 
Public Policy at the Kennedy School at Harvard and an 
experienced budgeteer. And our task was to look at what kind of 
infusion of new financial resources might be possible given the 
very obvious restraints of our current budget environment 
ongoing in this country for I am sure at least a decade more if 
not longer. Our commitment was first and foremost to increasing 
operational funding.
    It is absolutely critical to implementing any number of 
significant recommendations of this panel that we have the 
adequate operational funding to have the resources, the 
personnel, and the organizational capacity to meet the Park 
Service's mission, to serve the public, to diversify the 
workforce as we have heard comment today, to conduct scientific 
research that is so needed in so many areas of the country, and 
to protect the park resources which we know are in many places 
under stress.
    The National Park Service budget of $2.7 billion is less 
than one tenth of one percent of the Federal budget. As you 
have already heard discussed, we have a $600 million shortfall 
in operating funding. Our backlog for maintenance is $9 
billion, and there is nowhere near an amount adequate to deal 
with the potential acquisition of in-holdings from willing 
sellers. The Commission came to appreciate the role that 
Congress has played in recent years. Two Presidents as well 
have shown a willingness to attack the operational shortfall of 
the park system.
    But we believe the Congress must continue that effort and 
increase funding for the National Park Service by at least $100 
million over the next six years beyond the fixed cost of 
inflation. That would allows us to work down this shortfall in 
a relatively short period of time. Second, we think the Land 
and Water Conservation Fund has to be more adequately spent on 
issues related to the Park Service. As you know, less than half 
that money is now provided to the Service.
    In addition, I think it is most important that we look down 
the road confronting these fiscal challenges to the creation of 
an endowment and a national campaign leading up to the 
centennial in 2016. As Linda Bilmes, our Chairman, said, if we 
intend to protect the national parks in perpetuity, basic 
finance tells us we must fund them in perpetuity as well. And 
so we have talked about an endowment that could provide a 
perpetual revenue stream, an opportunity to enable donors to 
give or bequeath funds to provide for a range of purposes, 
including science and scholarship, education, specific Park 
Service projects, public-private initiatives outside park 
boundaries that serve the broader mission, and other 
philanthropic activity that we believe should supplement, not 
replace, appropriations.
    Last, we think, following along an initiative of former 
Secretary Kempthorne, that we need to build a national campaign 
for this next centennial of the Park Service. We have talked 
about engaging philanthropists, corporations, citizens from all 
walks of life, but we like to get the average citizen involved 
directly through maybe the purchase of coins or stamps or other 
things that would give average people an opportunity to help 
just as much as those who have the resources in our society. 
So, we are privileged to present these suggestions to you, 
knowing full well the difficulty of finding adequate funding 
going forward. Thank you very much.
    [The prepared statement of Mr. Fazio follows:]

          Statement of The Honorable Vic Fazio, Commissioner, 
                National Parks Second Century Commission

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the recommendations of the National Parks Second 
Century Commission. It was a privilege to serve as part of such a 
talented, diverse, committed group of notable Americans, and we greatly 
appreciate your interest in our work and findings.
    The commission made many recommendations, and took the long view. 
We realize that not every recommendation can be implemented 
immediately. Some will take years. But many, whether near- or long-
term, will require a National Park System that is better funded to meet 
its mission. I served on the committee on funding and budget, which was 
ably chaired by Linda Bilmes, Professor of Public Policy at Harvard's 
Kennedy School of Government. We examined a series of funding-related 
issues and opportunities, and I will highlight a few of those in my 
remarks.
    First and foremost, the commission found that current funding is 
fundamentally inadequate to the tasks the National Park Service has 
before it, and to those it must engage in the future. Our national 
financial commitment to the parks matches neither their importance to 
society nor the enormous franchise they have with the American people.
    At the top of the list is operational funding, which is absolutely 
critical to implementing a significant number of the commission's 
recommendations. Operational funding is essential to ensure the Park 
Service has the resources, personnel, and organizational capacity to 
meet its mission, serve the public, diversify its workforce, conduct 
needed scientific research, and protect park resources. Annual Park 
Service appropriations last year were approximately $2.7 billion--less 
than one-tenth of one percent of the federal budget. The commission 
came to understand that such an amount cannot possibly stretch across 
the distance of public expectations and Park Service needs. As you 
know, the annual operating shortfall, while down from its peak a few 
years ago, still approaches $600 million, the maintenance backlog 
exceeds $9 billion, and funding to acquire inholdings from willing 
sellers in national parks is nowhere close to adequate.
    The commission came to very much appreciate the bipartisan 
commitment Congress and two presidents have shown the last three years 
to attack the operations funding shortfall of the National Park System, 
and believes adequate operations funding to be fundamental to the Park 
Service's success in the future. The commission recommended that 
Congress continue that effort and ``increase funding for the National 
Park Service by at least $100 million over fixed-cost inflation each 
year until 2016, to eliminate the current operations shortfall.''
    Second, the commission believes that the Land and Water 
Conservation Fund has a critical role to play in the future of our 
parks--those that already exist and future additions. The National Park 
Service has not been funded adequately to purchase from willing sellers 
the remaining private lands that are within authorized park boundaries. 
On average, only half the money placed in the LWCF trust fund has 
actually been appropriated for its intended use. We would hope that 
Congress will restore the original intent that LWCF be a mandatory 
program, and fund it to fully meet its intended purposes.
    Third, Congress and the administration should focus more on the 
tremendous leveraging power of the Park Service's underfunded community 
assistance programs. Communities across the country and the citizens 
they serve already have experienced the value of those programs for 
conservation, preservation, and recreation. Since our fellow 
commissioner Jerry Rogers will focus on the various historic 
preservation programs, I will confine my focus to the Rivers and Trails 
Conservation Assistance Program. RTCA provides invaluable technical 
assistance to local communities, whether they are near national parks 
or not, to improve quality of life, provide recreational opportunities, 
and conserve important community resources. RTCA is helping the 
community of Caldwell, Idaho, restore a nearly half-mile-long section 
of Indian Creek, which had been buried since the 1930s. By resurrecting 
the stream, the project has improved resource protection and 
recreation, assisting in a multi-million-dollar revitalization of 
downtown Caldwell. This is a low-cost, high value program that merits 
more attention and funding than it now receives.
    The commission was very aware of the fiscal challenges that 
confront our nation. As such, we also focused on the need to identify 
new sources of revenue to make the parks everything they should be in 
the next century. I will focus on two: an endowment and a national 
campaign leading up to the 2016 centennial.
    As our commission colleague, Linda Bilmes, said, ``If we intend to 
protect the national parks in perpetuity, basic finance tells us that 
we must fund them in perpetuity.'' In fact, the commission believes 
that national park system financing structures should be adjusted to 
genuinely reflect the understanding these places are meant to be 
preserved forever. At present, short-term appropriations and 
supplementary donations are typically related chiefly to immediate 
needs. Given the volatility of this type of funding, and the ``hand-to-
mouth'' nature of the annual appropriations cycle, we recommend the 
creation of a tax-exempt endowment.
    An endowment would provide a perpetual revenue stream for an 
institution with a mission in perpetuity, enabling donors to give or 
bequeath funds to provide for a range of purposes, including science 
and scholarship, education, specific Park Service projects, and public-
private initiatives outside park boundaries that serve the broader 
mission. Philanthropic support is attracted to innovative ventures and 
long-term goals, so the endowment would supplement annual 
appropriations, which should continue to pay for core operating and 
infrastructure needs. The commission report goes into greater detail 
about how an endowment might be structured.
    In addition, the commission has called for a significant campaign 
for Americans to contribute to and engage with our national parks 
leading up to, and beyond, the National Park Service centennial in 
2016. Such a campaign should engage philanthropists, corporations and 
citizens from all walks of life. It should also engage a new generation 
in full stewardship of lively, sustainable national parks and the 
ideals on which they're built. The campaign can also give a powerful 
impetus to the long process of seeding the national parks endowment. 
That's a durable accomplishment that would truly foster national pride 
in a job well done.
    Our commission colleague, Justice Sandra Day O'Connor, observed, 
``There's no better route to civic understanding than visiting our 
national parks. They're who we are and where we've been.'' The 
commission believes the parks should be funded in a manner that befits 
this status, so our children, grandchildren, and society in general, 
reap the full benefit the parks are intended to provide.
    We are privileged to be here today on behalf of the tremendous 
group of commissioners with whom we have been privileged to serve. On 
behalf of our colleagues, thank you for your commitment to our national 
parks, and to future generations. We offer our services to you as you 
continue to grapple with how best to carry out the federal government's 
stewardship of this unique, treasured American institution.
                                 ______
                                 
    Mr. Grijalva. Thank you. Mr. Denis Galvin, former Deputy 
Director, National Park Service. Thank you, sir.

  STATEMENT OF DENIS GALVIN, FORMER DEPUTY DIRECTOR, NATIONAL 
                 PARK SERVICE, McLEAN, VIRGINIA

    Mr. Galvin. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before this Committee on the second 
century of national parks. As it happens, I have testified 
before this Committee for 25 years, going back to when Chairman 
Udall was here and all his successors, and I appreciate the 
vital support that this Committee gives to national parks, both 
in developing the growth of the system and in giving us policy 
direction for the parks' management. We have built the best 
park system in the world.
    Each of us played many roles on the Commission. My focus 
here today is to report our findings on the future shape of the 
National Park System. In passing the Organic Act of August 
25th, 1916, the Congress directed the National Park Service to 
adhere to the higher standard of preservation in our system of 
public institutions to preserve ``unimpaired for future 
generations.''
    Our examination of the current system was characterized by 
the words ``cornerstone'' and ``keystone.'' National parks are 
part of larger systems that exert critical influences on the 
unimpairment mandate. To make the current and future systems 
work, they need to be embedded in a national conservation 
strategy. We recommended this and were heartened at the recent 
White House Conference on America's Outdoors. Several 
commissioners were among the invitees. We look forward to the 
conferees' continuing work.
    And there is an urgency to this task. More than 1 million 
acres of open space are developed each year in this country. 
Based on that rate, we are erasing a Yellowstone every two 
years. By contrast, the National Park System has grown by less 
than 100,000 acres in the last decade. We believe there is room 
for robust growth. National parks comprise less than 4 percent 
of the U.S., less than 2 percent of the lower 48. In our 
Commission meetings we heard support for growth.
    Future growth needs to be guided by a plan. The current 
system has many gaps. It tends toward high elevation and thin 
soils. It is not the system one would design to preserve 
biodiversity. Existing parks can be expanded. Freshwater and 
marine areas and grasslands are poorly represented. Cultural 
additions should fill out the nation's story with attention to 
gender, race, and diversity.
    However, even a strategically growing park system must be 
considered part of the larger landscape. We endorse heritage 
areas and cooperative approaches. Citizens ask for help in 
restoring degraded areas. We propose ecological restoration 
areas. We envision an NPS that is more than a land manager, it 
is a convener and catalyst, a growing, learning organization. 
Our larger vision is a system that works for all, past, 
present, and future. A system that supports ``a citizenry using 
its heritage to build a better nation.'' Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Galvin follows:]

         Statement of Denis P. Galvin, Former Deputy Director, 
                         National Park Service

    Mr. Chairman it is a pleasure to testify before this distinguished 
Subcommittee once again. As a former Deputy Director of the National 
Park Service I appeared here many times before your predecessors, 
including Mr. Udall, Seiberling, Vento, Hansen and Pierce. I feel 
privileged to have played a small part in their deliberations. The 
decisions arising out of this Subcommittee have built the world's 
finest park system.
    As members of the Second Century Commission each of us served on 
multiple committees. One of my assignments was to chair the ``Future 
Shape of the National Park System'' Committee. It is the 
recommendations from that effort that I will concentrate on in this 
testimony.
    Early in our deliberations we realized that one cannot envision a 
future National Park System without placing the parks in the larger 
contexts that comprise the surrounding lands, the regions, and indeed, 
the nation and the world. We asked ourselves, in that broader picture, 
what role the National Parks, present and future should play. The words 
that kept recurring were `cornerstone' and `keystone'.
    The congressional mandates that define the mission of the National 
Park Service direct it to preserve everything, ``. . . the scenery and 
the natural and historic objects and the wild life''. Those words 
define the highest standard of preservation in our system of public 
institutions. Paradoxically we found that this mission cannot be 
accomplished within the boundaries of our present system or of any 
imagined future system. In our committee report we noted, ``. . . the 
forces affecting this network have grown in complexity and scope. They 
are the same forces that affect the places we live. They are regional, 
national, and global in their reach. The National Park Service alone 
cannot contain or limit their impact.''
    A viable system must deal with this reality. So there are two 
actions that form our primary recommendation: that the future growth of 
the system is guided by a strategic vision or plan, and that plan 
should be part of a national conservation strategy. With respect to the 
latter idea we are encouraged by the recent White House conference on 
America's Outdoors. Members of the Second Century Commission, including 
some testifying here today, were among the invitees. We look forward to 
the subsequent actions, led by Interior Secretary Salazar, Agriculture 
Secretary Vilsak, and Council on Environmental Quality Chair Sutley to 
create a grass roots approach to developing this national strategy.
    Before I turn to specific national park system recommendations I 
would like to share with the Subcommittee some of the facts that 
underline the urgency of this task. Our report noted that in the United 
States over 1,000,000 acres of open space are being developed each 
year. The President's Conference put the figure at 2,000,000 acres per 
year. To put that area in perspective we are erasing a Yellowstone 
every year or two. By contrast the National Park System grew by less 
than 100,000 acres in the last decade. We found that 30% of the 
counties surrounding national parks are developed to the extent that 
they struggle to support biodiversity. On the cultural side examples 
abound of external development threatening some of our most treasured 
national heritage. The controversy over proposed new development at the 
Wilderness battlefield near Fredericksburg, Virginia provides a close 
to home example of a problem that is all too pervasive.
    .The Commission Report addresses the role of National Parks and the 
National Park Service as part of this vision. It is to achieve a system 
that works for all. Our ``Future Shape'' committee report describes 
that as a system that, ``. . . commemorates a past we revere and from 
which we learn to build a better future . . . (a) present defined by 
all who are served by the parks and those who should but are not . . . 
The future is those to whom we pass the legacy `unimpaired'. It is a 
duty of the present to those yet to come, who now have no voice.''
    We believe there is ample room for robust growth. The current 
system is 3.7% of the area of the United States. Excluding Alaska that 
figure drops to only 1.6%. In 35 states national park areas comprise 
less that 1% of the land and water. There are few areas devoted to 
preserving freshwater and marine environments. Grasslands and some 
areas of eastern and midwestern forests are not well represented. In 
general the current system is high, western, characterized by thin 
soils, snow and ice. It is not the system one would build if protecting 
biodiversity were a national goal. On the cultural side we noted the 
importance of stronger representation of race, ethnicity and gender in 
building a system that, ``. . . represents all of our people''.
    There is grassroots support for additional growth. During its 
deliberations the Commission heard from supporters of an enhanced 
National Park Service presence at Fort Monroe, Virginia, on the 
Chesapeake Bay, and in the Maine Woods.
    Current boundaries of existing park units should be adjusted to 
improve their capability to achieve the National Park Service mission.
    If one could build such a system there is still a need for 
cooperative approaches to caring for the large landscapes surrounding 
the parks. Heritages Areas have been an important Congressional 
initiative in this regard. There is a need for consistent actions by 
other agencies to ensure that the parks are preserved. The private 
sector has an important role to play. The vigorous growth of land 
trusts in the past two decades is illustrative of the power of private 
initiatives. Additional incentives to support private conservation 
should be considered.
    We propose a new program that would use the National Park Service 
restoration expertise within park boundaries to benefit local 
communities. Most of these Ecological Restoration Areas would be 
returned to local jurisdictions upon completion. Some might become 
units of the national park system.
    Managing parks in this complex mix of land practices will demand 
much of the National Park Service. Our Committee noted, ``An 
organization designed around management of lands in dispersed locations 
must be re-shaped to reflect new roles as a catalyst, a convener, and 
cooperator with a suite of tools that extend far beyond park 
operations.''
    We need to recognize though, that achieving the vision of 
protecting our natural and cultural heritage cannot be solved in 
national parks alone. Other public land agencies, state and local 
government, and the private sector must act in a coordinated and 
consistent way to achieve a landscape that achieves preservation while 
providing productive, healthful, and beautiful places to live.
    Mr. Chairman, the Second Century Commission has defined a future 
for parks that is challenging, but filled with opportunities. Achieving 
this vision will not only build a better park system, it also has the 
potential to support a citizenry using its heritage to build a better 
nation.
                                 ______
                                 
    Mr. Grijalva. Thank you. And thank you all for your 
comments. Dr. Lockhart, in your testimony you indicated that 
Congress and NPS need to do more to establish education as a 
fundamental purpose of our park system.
    Dr. Lockhart. Yes.
    Mr. Grijalva. Talk a little bit about that, and why is it 
clear now that we should be doing that?
    Dr. Lockhart. Well, I think the thing that we wanted to 
emphasize is that we feel that it is a core element going 
forward to both educate for the sake of education and enhancing 
our nation's education agenda, but also as a way to engage 
young people in diverse communities. I think we heard in 
Director Jarvis' testimony and the subsequent questions that 
there is a need to establish a pipeline that will help engage 
diverse communities, that will help invite them to participate 
in the workforce and diversifying the workforce of the National 
Park Service.
    And to explicitly state that education is a part of this 
strategic objective for the next 100 years we feel is 
important, because at least in our opinion it has not always 
been something that the Park Service has placed at the highest 
of its priorities, and there are times at which education has 
been something that has, shall we say, been less than the top 
of the list of things to either achieve or to fund.
    Mr. Grijalva. Ms. Long, your testimony suggested that a 
potential new program modeled after the Historic Preservation 
Act to allow the National Park Service to work on natural 
resource protection on non-Federal lands. If you could expand 
on the idea and the corresponding pitfalls that will occur and 
the reaction you will get?
    Ms. Long. Yes, thank you. We were much impressed by the 
Commission and the success thus far of the National Historic 
Preservation Act of 1966 in that it is a mechanism by which the 
Park Service can reach out to communities and offer advice, 
counsel, knowledge, a leadership role in engaging the public 
outside of park boundaries in accomplishing historic 
preservation goals. It also involves incentives, such as in the 
case of natural heritage, private land conservation incentives. 
And we felt it was a model that could be applied effectively 
and well for the natural ecological goals as it has for the 
cultural and historic goals. So, we feel it is something that 
can be developed far further in enriching the Park Service's 
leadership and collaborative role with communities.
    Mr. Grijalva. Thank you. Congressman, how would the private 
endowment work? You will get the reaction that it is 
privatizing our national parks. How would that solve the 
persistent problems in the appropriations process that, you 
know that the big parks get the big bucks?
    Mr. Fazio. We believe there are an awful lot of Americans 
of all income levels who support the parks and want to see them 
enhanced and better utilized. It seems to us that if the 
President were to appoint a commission to look at how an 
endowment could be formed, could be created, that would be a 
good first step. And we would like to tie it into this 
reemphasis of the parks. You know, this is the period of stay-
cations.
    People are not traveling as much as they might in the past, 
parks are getting good deal more utilization in the areas in 
which they are located. I think there are opportunities to 
reawaken the public to the parks' needs, and we think there 
will be ways through an endowment to not only enhance the 
educational programs, the scientific programs we have just 
discussed, but frankly to look in terms of funding for 
enhancements to existing parks, or in some cases where there is 
local support, increasing the utilization of parks and 
developing new ones.
    So often the money has been provided for these kinds of 
single-purpose local purposes, but we think there are some 
additional agenda items that really transcend any one 
individual park that other elements of the community would like 
to contribute to through an endowment as well. It is not the 
sole answer, we continue to see appropriations as vital, as I 
said, but we also know that given the limits that we are going 
to be living under, we do have to tap the private sector and we 
think there are resources there to be tapped.
    Mr. Grijalva. Yes, I agree, I think that supplemental 
support is important, it cannot supplant what we should be 
doing regardless.
    Mr. Fazio. We do not want a zero-sum game, Mr. Chairman.
    Mr. Grijalva. Yes. And how would, I guess that would be 
part of the commission directive as well, how do you ensure 
that NPS is making the decisions regarding how to utilize 
endowment funds as opposed to the donor?
    Mr. Fazio. I think that is a very pertinent question that 
would need to be addressed by this commission, just what the 
role of the Park Service is, including the Department of the 
Interior in general, and the effort that would be put forth to 
bring in the resources. Some of them would be very targeted and 
some of them would be for general purposes I am sure, but all 
of them need to be coordinated with the Park Service.
    Mr. Grijalva. I am going to go, I have gone over my time, 
but I am going to ask Mr. Galvin a question so I do not have to 
come back through and extend that courtesy to my colleagues as 
well. Mr. Galvin, you have given decades of service, as you 
mentioned, to the national parks, you have seen all these 
transitions that we have gone through as a system. If you had 
to pick, what would you identify as the three, four, five most 
important things Congress could do to further the goals that 
are part of this report?
    Mr. Galvin. Well, I guess my response would be to say that 
we are all in this together, that parks have become islands in 
a much larger sea of influence, so to speak. Director Jarvis 
mentioned the potential for this oil spill that occurs really 
quite far out in the Gulf of Mexico to affect a dozen national 
parks, and I think that is a metaphor for our current 
situation. So what we need to do, what we as a people and we as 
a Congress need to do, is to figure out what it is we want to 
save, not necessarily what we want to put in national parks. 
Some of it should go in national parks, but there are places, 
heritage areas being an example, where locals can identify 
things that we want to save, and then manage that toward the 
future.
    Consistency is one of the words. It is not anti-
development, it is smart development, it is smart growth. I 
remember a former superintendent of Yellowstone years ago 
standing up in a management meeting and saying, you know, when 
we started our career--and he was a little bit before my 
generation--he said, we thought Yellowstone was big enough. He 
said, now we know no park is big enough. And it seems to me 
solving that problem collectively, all of us, is the biggest 
problem facing the National Park System. And if we solve it, I 
think we strengthen the country, not just strengthen the 
National Park System but strengthen the country.
    Mr. Grijalva. Thank you. Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman. And I appreciate the 
guests here. I am going to ask each of you just to fill in the 
sentence, and it comes part because I think that some of the 
goals were convoluted. The most important purpose of a national 
park is. You get to use one dependent phrase, no clauses, and 
it cannot be a compound sentence. So, while you are thinking of 
that one, I do appreciate your testimony. You have given some 
very cogent remarks, and none of the platitudes that I saw in 
the actual report. That is very good. Ms. Long, next time, you 
write the report. And Congressman Fazio, as a former 
appropriator, so you are responsible. All right, let me go 
down, let us start with, is it Dr. Lockhart?
    Dr. Lockhart. Dr. Lockhart, yes.
    Mr. Bishop. OK, fill in the sentence.
    Dr. Lockhart. Would you mind repeating the first part 
please so I can make it a complete sentence?
    Mr. Bishop. Feel like I am on the match game again. All 
right, the most important purpose of a national park is.
    Dr. Lockhart. To educate and engage citizens in order to 
further understand our cultural, historic, and shared national 
heritage.
    Mr. Bishop. OK, you got the one phrase in there, and that 
is nice. All right, Ms. Long?
    Ms. Long. To conserve our nation's heritage in perpetuity.
    Mr. Bishop. Congressman?
    Mr. Fazio. To preserve the nation's natural resources and 
historic sites for the benefit of future generations.
    Mr. Bishop. OK. Sir?
    Mr. Galvin. To preserve the resources therein unimpaired 
for our future.
    Ms. Long. Has a certain ring to it.
    Mr. Fazio. No plagiarism.
    Mr. Bishop. I appreciate that. As we look at this entire 
process, one of the things that was interesting that was not 
part of any of the sentences was about the use of it and the 
purpose of individuals using the process. But that is something 
we can talk about in the future, and I think those are actually 
very good sentences, I appreciate you helping out with that. 
Thank you so much. I yield back.
    Mr. Grijalva. Thank you. Dr. Christensen?
    Ms. Christensen. Thank you, Mr. Chairman. And thank all of 
our witnesses for being here today. Dr. Lockhart, would you 
expand on the connection between summer jobs on public lands 
and the pursuit of careers in resource management? Your 
testimony proposes a pipeline or ladder of learning. Can you 
expand on those ideas and perhaps explain what barriers may 
exist to establishing such a system? And as a physician I am 
sure you are very acutely aware of the same pipeline problems 
we have in developing our diverse healthcare workforce.
    Dr. Lockhart. Correct. Thank you very much for the question 
actually, it is obviously something I am very passionate about 
on a number of levels. I think that the real barriers start 
from the fact that one needs, as I was mentioning the example 
of the park superintendents, it is really about engaging people 
when they are in their formative years. It is when you are 
figuring out what do I want to be, what do I want to do, and 
then who do I see who looks like me, who do I see, you know, 
why is this something that I should aspire to when I am not 
getting the feedback that this is something that is common in 
my community?
    And I will say from personal experience, I can say that 
going through a number of national parks there are not a lot of 
people like me that you see there, or maybe Latinos or Asians 
or other members of our diverse communities. So, I think that 
what we were intending to imply with these ladders of 
opportunity is that there are many, many different programs and 
many, many different ways, but we need to start with children 
when they are young.
    I personally believe that using the school system and using 
the educational system as a way to engage these children, for 
example the children we talked about in Santa Monica were 
primarily Latino children who had not been to the ocean and not 
seen the ocean and not seen Santa Monica Mountains, they went 
and then they started to bring their families. And then when 
there are service opportunities they can come when they are 
young teens and work in the parks and do trail restoration and 
other things and come to learn to love these places.
    And then there is the opportunity at that point to interact 
with other rangers and other staff and say, you know, maybe 
this is something I would like to do. And there are actually 
programs that can be replicated throughout the national parks 
to engage folks like this, and I think that that is really the 
model, and that is why partnerships are also so important for 
the National Park Service, because this is not something that 
the Park Service can do alone, it is really a community 
obligation.
    Ms. Christensen. Thank you. And we do have a summer program 
for not the younger kids but for high school kids at home in 
St. Croix, and it is amazing the difference it has made when 
the young people come in and do not know anything about the 
parks, do not want to do this or do some of the tasks but at 
the end they really love it.
    Dr. Lockhart. If I might add just one other footnote just 
briefly, there is also an inspirational ranger, a woman named 
Betty Reid Soskin whom, I do not know if you are aware, she is 
an 87-year-old African American ranger at Rosie the Riveter 
National Monument and she was a Rosie herself. And so she has 
actually created YouTube videos, we talked about technology, 
about this, about her experiences and about what it was like to 
be a black woman in that environment where, you know, it was 
obviously very different than what we think of as the typically 
Caucasian Rosie the Riveter image. And at any rate, the point 
is that is a use of the technology to kind of educate and 
engage so when those children come out they see and hear those 
stories, which then engage them and want them to move forward.
    Ms. Christensen. Thank you. Congressman Fazio, we have a 
National Park Foundation. Did the Commission discuss the 
Foundation and can that serve in the capacity of doing what the 
endowment would do or do you see it as being different?
    Mr. Fazio. I think we have to be very careful that we do 
not interfere with the ongoing purpose of that organization, 
that commission. But I do think that is again the sort of thing 
that can be looked at by this Presidential commission that will 
try to integrate, or separate if that is required, the roles 
that each would have going forward. We do need to bring a lot 
more resources to the table. We have a broader concept of where 
those resources could be spent, and it is not all site 
specific, although that is important and will be ongoing. So, I 
think this needs to be looked at very carefully as we try to 
proceed to a national campaign and the endowment.
    Ms. Christensen. Thank you. And, Mr. Galvin, you talk in 
your testimony, primary recommendation that the future growth 
of the system be guided by a strategic vision or plan. And 
there have been, since 1980 there have been many, many major 
studies on where the Park is, where it should be going, major 
conferences. Is there not that kind of a plan in place already 
or are you recommending that we update it?
    Mr. Galvin. A little of both. We looked, in fact read the 
previous National Park System plans, and they come to some 
conclusions that frankly we endorse. I mean if you look at the 
previous natural history plan it indicates that there is not 
much in the way of conservation lands in the middle part of the 
country, the Mississippi Valley et cetera, and I think we came 
to the same conclusion. I think I would go back to the remarks 
that were made by the Congresswoman from Wyoming in that any 
strategic vision or plan has to be vetted in the grass roots.
    This is not entirely a scientific or technical task, it is 
identifying gaps, it is saying, for instance, nobody is 
protecting short grass prairie or inadequate protection of long 
grass prairie. It is not identifying a place on the map. After 
that, it is trying to find out if there is public support for 
such protection and whether or not that support indicates it 
ought to be a national park versus a national wildlife refuge 
or something like that. It is a comprehensive system based on a 
national conservation strategy that suggests future growth for 
the National Park System without being prescriptive.
    And obviously those remarks apply on the cultural resources 
side. I mean many of the parks that have been created recently 
under Chairman Grijalva are parks that we would not have 
imagined creating 20 years ago, some commemorating events that, 
and Heart Mountain was mentioned, that the country would never 
have considered adding to the National Park System. So, we see 
a need for a strategic direction but we also see a need for 
grass roots support in developing this vision.
    Mr. Grijalva. Mr. Lujan?
    Mr. Lujan. Thank you very much, Mr. Chairman. A question to 
everyone here today. As the Commission was deliberating, taking 
into consideration that each park across the country is unique, 
that we all have special places that we want to make sure that 
we are providing protection to, access to, but the importance 
of taking into consideration specifically with this question 
Native American and Hispanic communities, what are your 
thoughts of preserving access for traditional uses to our 
beautiful lands, sustaining heritage, and protecting cultural 
practices? I respect very much the response to our Ranking 
Member and the inclusion of the recommendations with cultural 
connectivity, lifelong learning, history, community assistance. 
And any thoughts in that area?
    Dr. Lockhart. I might make a comment briefly about just an 
observation of an example in which the National Park Service 
can play a real role in engaging with cultural restoration in a 
Native American community. For example, up in Olympic National 
Park with the Elwha River dam removal project, which is an 
example of where it is a combination of working closely with 
the local Lower Elwha Klallam Tribe there and obviously 
restores the natural resources, the natural flow of the Elwha 
River, it also restores the salmon that the Elwha Klallam Tribe 
has historically had and considers their birthplace.
    And it creates an opportunity for not just that tribe but 
also for that community to learn more, be educated more about 
the culture and to understand and preserve that culture. So, it 
is actually bringing back the culture, it is educating the 
community, and it is establishing a link between the Park 
Service, it is preserving for future generations, and it is 
achieving all those things by really honoring and respecting 
the native practices that once existed and bringing them back. 
So, it is an opportunity to achieve all of those things and I 
think it is a wonderful example of how the Park Service as an 
institution can play a role in making that happen in 
communities.
    Mr. Lujan. Anyone else?
    Ms. Long. I would only offer to look to Alaska and the way 
in which the Park Service works cooperatively with indigenous 
populations and the preserving of traditional usage is an 
example of approaches that might be appropriately used more 
broadly. Alaska has been quite successful in that regard.
    Mr. Lujan. I have another question I'd like to get some 
response to. We have places in New Mexico, like the Valles 
Caldera, which have fallen into different situations as we have 
tried to preserve that area. What are your thoughts along that 
line as well with maybe the inclusion of the Valles Caldera 
into the park system while at the same time recognizing that 
when the Valles was turned over into the preserve that we have 
today that there was grazing that was taking place, it was said 
to be turned over in pristine condition, where there was 
working with the community, access to hunting and fishing, wood 
gathering to help with keeping this beautiful place healthy as 
well. Denis, any thoughts along those lines?
    Mr. Galvin. Yes, Mr. Lujan, I had the great pleasure of 
living in New Mexico in the late 1960s and know both Bandelier 
and Valles Caldera very well. I would go back to answer your 
earlier question in this context, and that is, as Congress has 
created new units of the National Park System it has usually 
responded with recognition of local conditions. A good example 
in the context of your earlier question is Canyon de Chelly, 
which became a national park unit in the 1930s, in which the 
Park Service owns no land, the Navajo Tribe owns the land and 
the National Park Service was given the mission of interpreting 
and running educational programs at the sufferance of the 
Navajo Tribe, I might say.
    So, with respect to bringing Valle Grande into the National 
Park System, which personally since I am not speaking as an 
Administration witness I think it is a great idea, but I think 
the legislation needs to be crafted to recognize the kind of 
local values that you are talking about, and I think it would 
be a great addition to the National Park System and I think 
that can be done using input from the local people.
    Mr. Lujan. Thank you very much. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Let me thank this panel. Your 
testimony has been excellent, and I appreciate it very much. 
I'd like to invite the next panel up, and thank you again. 
Thank you very much. And let me thank the panel for your time 
and your patience, and we are looking forward to your comments. 
First, let me ask my good friend, the gentleman from New 
Mexico, Mr. Lujan, to introduce our first panelist. Sir?
    Mr. Lujan. Mr. Chairman, thank you very much. And today I 
have the great pleasure of introducing two of my constituents. 
Jerry Rogers formerly of the National Park Service, and Armand 
Ortega of Ortega Enterprises. Mr. Rogers has been a vital 
coordinator of the National Park System community for over four 
decades, serving in an official capacity as Associate Director 
for Culture Resources and Keeper of the National Register of 
Historic Places. Mr. Rogers played a crucial role in the 
shaping of the National Park Service, he was appointed 
Conference Chair of Discovery 2000, the National Park Service 
General Conference, in which he worked to envision and lay the 
foundation for the future of the national parks in our nation.
    In addition to his capacity as a leader with the NPS, after 
retirement he continued to serve New Mexico's national parks as 
a board member and President of the New Mexico Heritage 
Preservation Alliance. His work preserving our cultural assets 
while making the natural beauty of New Mexico more accessible 
for our community displays his deep understanding of both the 
national and local importance of our national parks. His unique 
national local background makes his contribution to this 
hearing invaluable.
    Alternatively, Mr. Armand Ortega has been a concessions 
vendor at the national parks since the early 1990s. As an eco-
friendly vendor, Mr. Ortega has seen his business grow 
exponentially as he serves four national parks that include 
Bandelier Trading Company, Carlsbad Caverns Trading Company, 
White Sands Trading Company in New Mexico, and Muir Woods 
Trading Company in Northern California. Serving visitors to 
large parks and small monuments, Mr. Ortega's small business 
has grown into an expansive company that employs and serves 
thousands every year. As the national parks enter their second 
century, small businesses will play a critical role in the 
experience of future visitors. Mr. Chairman, it is an honor to 
welcome Mr. Rogers and Mr. Ortega, two outstanding New 
Mexicans, and I look forward to their testimony.
    Mr. Grijalva. Thank you. Let me begin with our first 
witness, Mr. Ortega, Ortega Family Enterprises, and by the way 
thank you, thank you for your hospitality at Muir when we were 
there to visit, very much appreciate it, and it was a very good 
trip for us and we appreciate and in no small part due to your 
hospitality we appreciate it. Your comments, Mr. Ortega?

 STATEMENT OF ARMAND ORTEGA, ORTEGA FAMILY ENTERPRISES, SANTA 
                         FE, NEW MEXICO

    Mr. Ortega. Thank you, Mr. Chairman. And thank you, Mr. 
Lujan, for that wonderful introduction, I could not have said 
it better. I want to talk about three specific things that we 
have done. I understand we need to do a lot in this next 
century, but we came in as small concessionaires and we bid 
against very, very large multi-billion-dollar concessionaires. 
We have managed to increase the attendance at all our parks. 
Moreover, we have managed to increase the revenues; number two, 
the revenues at all the parks; and, three, we have done that by 
maintaining very good relations with the NPS.
    Now, in spite of that, I want to point out, as wonderful as 
the Second Century report was, I think I am the only 
representative up here of the concessions and, if you look at 
the report, I found the word ``concessions'' one time. Now I 
understand they had bigger fish to fry, but let me just give 
you one statistic. There are 21,000 employees of the national 
parks working in the national parks. There are 26,000 employees 
from the concessions. Almost all 26,000 of those interface with 
all of the visitors every day and almost all of the park 
employees.
    I'll tell you a little bit about the stores that we do 
have. We have Bandelier. Probably the reason we won Bandelier 
was because we showed the national parks how we could take the 
sale of Indian arts and crafts, Native American wares, from 10 
percent to 60 percent. In White Sands, the reason we won was 
because we also showed them how they could raise Indian arts 
and crafts but also we offered to renovate a historically 
valuable building. The parks did not have the money, so we 
donated the money.
    Now that was not necessarily out of the goodness of my 
heart or the corporation. We understood that over the period of 
time we could make that money back, and we have. We remodeled 
the whole thing, took down the vegas, the mantias, redid it, 
did the old style Spanish floor. It was a lot of fun, a lot of 
work, but it is pretty nice. At Carlsbad, we showed the parks 
how we could save the ecosystem downstairs. Fortunately, I have 
a daughter-in-law who did her graduate work in science, 
chemistry, at Stanford and she knew a lot about that.
    Oh by the way, we bid at a kitchen table, and we were 
bidding against companies that have rows and rows of writers, 
but we are very, very motivated. Anyway, to Muir Woods very 
quickly--oh, by the way at all these parks we brought in, we 
have managed to bring in an increase not just in attendance and 
not just the revenues where we are paying literally 250 to 300 
percent more than the previous concessioner, but we have 
managed to bring in minorities and younger people.
    And they are very, very simple ways. I know there are other 
esoteric ways and I read about them and I respect those in the 
report, but there are very simple ways to bring in minorities, 
very simple ways to bring in people, and I would like to talk 
about that, I do not think I am going to have quite the time. 
The other thing we are really happy with, with Muir Woods, is 
that we created a totally or almost totally food sustainable 
restaurant operation. Almost all of our food is sourced within 
a 30 to 35, about 90 percent, is sourced within a 30 to 35-mile 
radius. Almost everything is recyclable, it is all natural, 
hormone free, all of that stuff.
    And we have won, and I apologize I do not know the names of 
all the considerable environmental and green awards we have 
won, but my son who is really heading them up has told me about 
them, and trust me there are a bunch. We are going to be on the 
Food Channel next month. I do not watch the Food Channel much, 
I just eat food, but we are going to be on it on a show called 
The Best Thing I Ever Ate. The Los Angeles Times has covered 
us, the New York Times, the Wall Street Journal, and the San 
Francisco Chronicle and other papers. So, we are getting a lot 
of publicity, and that is free to the parks.
    The last thing I would like to say is in reading the Second 
Commission report, I would like to gently suggest there is one 
other area where maybe people should think about a little bit. 
Everything they said, or a lot of things they said, I do not 
agree with everything, is really good, but there is already a 
prototype, and I mentioned it. There was a guy named Brian 
O'Neal in San Francisco, brilliant guy, he just passed away, I, 
fortunately, got to meet him about a year ago, and he created 
the Golden Gate Conservancy.
    The great thing about Brian was he did not think just in 
terms, I hate to use the term, but he thought out of the box. 
He thought about how best to serve the parks. So, if he could 
work with an entrepreneur, he would do that. If he could do a 
traditional national park contract, he would do that. They were 
doing a $150 million hotel. You cannot do it on a 10 or 20-year 
term like the national parks do. You cannot advertise that 
generally, and certainly in this case, over that short period 
of time. So, he found a way to do a conventional commercial 
lease.
    He worked with nonprofits, he set up a park investment 
fund. By the way, these park investment funds might be really 
useful, especially for the smaller entrepreneurs such as 
myself. I do not mean to brag, but I think we are one of the 
best operations in the parks. If I could get the money that 
some of these largers had, I could compete with them and 
perhaps give them a run for their money and raise the bar for 
everybody. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ortega follows:]

    Statement of Armand Ortega, President, Ortega Family Enterprises

    Mr. Chairman and Members of the Subcommittee, my name is Armand 
Ortega and I am President of Ortega Family Enterprises based in Santa 
Fe, New Mexico. I also appear as a representative of the National Park 
Hospitality Association (NPHA). I am honored to be asked to appear 
before you today to discuss the future of the National Park System and, 
in particular, the role of concessioners working in partnership with 
the National Park Service (NPS) to promote park visitation and provide 
outstanding services and experiences for the millions of people who 
visit units of the National Park System each year.
    Ortega Family Enterprises is an established company operating in 
New Mexico, Arizona, and California. We operate 12 businesses, four of 
which are NPS concession contracts. We got started in the NPS 
concessions business 15 years ago when we were fortunate enough to be 
awarded the concession contract at the small but wonderful Bandelier 
National Monument near Santa Fe, New Mexico.
    We focus on finding small to medium size park operations where we 
can make a real difference. We take great pride in taking on under-
performing park concessions, turning them around, and bringing them up 
to and beyond the expectations of the NPS and its visitors. Our success 
is in large part due to the fact that we do not consider the National 
Parks just another business. We consider it a privilege to work as 
junior partners with the NPS to keep the Parks ``America's Best Idea''.
    In 2005 we took over the White Sands National Monument concession 
operation. Years of neglect had taken a toll on the historic building 
housing the concession, the operation was not well run, and the visitor 
experience was poor. Upon assuming the concession operation we 
undertook a comprehensive restoration of the entire concession space 
and gifted the improvements to White Sands National Monument. We 
dramatically improved the quality of the thematic merchandising and 
service levels and created a concession worthy of the beautiful White 
Sands National Monument. The results have not only been good for 
visitors but also the NPS and us. Revenues have doubled since we took 
over and the franchise fee being returned to the NPS has increased by 
250%!
    In 2008 we were awarded the Carlsbad Caverns National Park 
concession contract and worked side-by-side with the NPS to initiate 
major capital improvements to transform the outdated restaurant and 
retail operations. Based on the results we achieved at Bandelier and 
White Sands, the NPS understood that we could deliver a new vision, 
capital investment, and operational experience to transform the 
concession operation. In addition to the capital improvements, we 
changed the food service type from a full-service restaurant to a 
healthy quick-service concept to better serve today's visitors and 
their needs.
    Newest in our portfolio is the NPS' showcase sustainable foods 
operation at Muir Woods National Monument. We were awarded the 
concession contract in early 2009 and worked hand-in-hand with the NPS 
to remodel the interior of the historic building to provide a fresh 
updated look and feel. Our tables, chairs, and retail displays were 
custom-made from reclaimed docks and we re-purposed 80-year-old redwood 
tables that we owned as part of our Carlsbad Caverns concession 
operation for the floor restoration at Muir Woods. The tables were 
damaging to the cave ecosystem and needed to be removed and we were 
happy to gift them to the NPS for reuse at Muir Woods. Finally, we 
designed the cafe layout and procedures to eliminate cooking and 
baking, which could damage the historic building and introduce 
unnatural smells to the Muir Wood environment. We are currently seeking 
Leadership in Energy and Environmental Design (LEED<SUP>'</SUP>) 
Existing Building (EB) certification.
    We are also excited about Muir Woods because the operation 
represents the showcase sustainable food and beverage operation within 
the NPS. Eighty-five percent of our produce is sourced within 30 miles 
of the operation and 90% of our menu items achieve a high level of 
sustainability and/or are organic and healthy. We have achieved an 85% 
solid waste diversion rate by using recycled and compostable materials 
and returning our compost to the farms where we buy our ingredients. 
The food service is a National Green Certified Restaurant, a Marin 
County Green Certified Business, and recently won an ``Exceptional 
Sustainable Green Business Award'' from the Marin Conservation League. 
It will also be featured on the Food Network show ``The Best Thing I 
Ever Ate'' set to air mid-2010.
    We are proud of the important role we play in helping people enjoy 
these parks. Visitors come to the national parks to be inspired by the 
intrinsic beauty of the parks while relaxing, recreating, learning, and 
having a good time--often with family and friends. What we do as 
concessioners has a great deal to do with the overall experience that 
the family has when they visit the park. In this regard, we're an 
integral part of the national park experience and an important element 
in helping the NPS meet its mission.
    To my mind, parks are all about people and connecting them to 
nature, history, culture, recreation, and their heritage. In fact, I 
found it interesting that in a recent hearing on the national parks, 
Ken Burns, who produced the ``America's Best Idea'' film about the 
history of the national parks, praised the first National Park Service 
Director Stephen Mather as a premier promoter, working actively with 
railroads and others to build roads to and through parks and to build 
visitors facilities ranging from lodges to restaurants in the expanding 
national park system. Mather's motive was clear from his oft-quoted 
statement: ``Scenery is a hollow enjoyment to the tourist who sets out 
in the morning after an indigestible breakfast and a fitful night's 
sleep on an impossible bed.'' And Ken Burns concluded his testimony 
with an interesting comment, saying, ``If you think you have a good 
park but no one knows about it, you don't have a good park.''
    I recognize that this hearing is focused on the outstanding work of 
the Second Century Commission as it looked forward to future uses and 
management of the national parks. It is an honor to be part of a 
hearing with many of the distinguished commissioners who contributed to 
the production of their report. I have to say, though, that one glaring 
omission in the Commission's report was the lack of reference to the 
important partnership that exists between concessioners and national 
park managers--a relationship that is already more than 125 years old--
and neglects to describe the opportunities to build upon this proven 
relationship in the future.
    Concessioners have served park visitors since the 1870's and today 
serve some 100 million park visitors annually in approximately 160 park 
units. NPHA members have a combined workforce of nearly 25,000 
persons--mostly front-line, visitor contact jobs--and provide in excess 
of $1 billion in goods and services to visitors annually. Franchise fee 
payments to NPS generated from the approximately 600 concessions 
contracts are some $70 million annually, or about the total sum raised 
annually by the National Park Foundation and all members of the Friends 
Alliance combined. Concessioner marketing and park promotion efforts 
exceed $10 million, and are coordinated with the marketing and 
promotion efforts of state and gateway communities that equal that 
amount. Concessioners are leading efforts to find ways to focus 
promotion on the national park system and those Americans unaware of 
the great benefits available through time in our parks rather than on 
specific parks and services and traditional park visitors. Most 
importantly, concessioners are committed to contribute to meeting 
America's needs--needs for healthier lifestyles, for better and 
lifelong educational opportunities, for strong local and regional 
economies that can sustain and protect our parks and for connecting all 
Americans across differences in regions, ages, income and ethnicity.
    As many of you know, park visitation by Americans has been 
declining for several decades and, while visitation to the showcase 
parks remains high, many smaller units of the national park system 
(including some of the parks where I operate) offer wonderful 
experiences but are highly underutilized. This is one area, in 
particular, where I believe that promotion efforts led by park 
concessioners can be helpful--in promoting increased visitation and use 
of the many under-visited and underutilized units of the part system.
    Promoting national park visitation is important for many reasons. 
Not only is it good for businesses like mine that depend on visitors 
for jobs and income, but also it is a way to reconnect people to 
nature, to provide them with an opportunity to recreate and get 
exercise, to learn, and to share quality time as a family. Today we 
live in a world that is filled with distractions--a world where we can 
connect with information and communicate with people almost 
instantaneously. Unfortunately, these alternatives seem to increase the 
extent to which people become disconnected from nature and focused on 
virtual connections to places and to people. A recent study by the 
Kaiser Family Foundation indicated that, on average, America's youth 
spend 7.5 hours a day focused on a screen or monitor of some sort. No 
wonder that the nation's youth are increasingly obese and at risk of 
Type II diabetes due to poor nutrition and a lack of exercise.
    Connecting Americans to their parks is an important goal with 
numerous benefits--including improved health, a more widespread public 
appreciation for the environment, and economic stability for many 
gateway communities and a better understanding of our nation's history. 
To achieve this connection, the National Park Service and its 
partners--including concessioners--need to undertake new outreach and 
marketing efforts. The efforts would not be based on advertising--as if 
we were selling a car or a theme park. But the efforts should include 
outreach to schools and to families with children and greatly improved 
information on the internet. In fact, Secretary Salazar undertook a 
major outreach and marketing effort last year--which he is repeating 
again this year--creating fee-free periods at national parks.
    Many creative strategies have been devised to promote park 
visitation in recent years. For example, the New England Mountain Bike 
Association has developed a family bike ride along the route of Paul 
Revere's historic journey in conjunction with the Minuteman National 
Historic Park in Boston. The ride permits parents and children to 
travel the route from Lexington to Concord, learning a bit of history 
and getting some exercise in the process. In California, the Yosemite 
Fund cooperated with the state of California to create a specialty 
license plate touting Yosemite National Park. The program--now 15 years 
old--generates nearly $1 million annually for park projects and reminds 
countless drivers of Yosemite's attractions. In Virginia, the 
Shenandoah National Park Trust has successfully applied for a similar 
license plate that will return $15 to the Trust for every plate sold. 
And similar programs exist in several additional states. I am 
submitting to the Subcommittee the results of an inventory conducted 
recently in cooperation with the National Park Service Tourism Office 
of innovative marketing and promotion efforts by state and national 
park units.
    The newly established National Parks Promotion Council (NPPC) will 
help reconnect Americans to their national parks by helping the 
National Park Service address downward trends in park visitation that 
threaten future support for the parks and the organizations, 
communities, states and economies which are dependent upon visitors. 
The NPPC is a non-profit membership organization with a board of 
directors comprised of representatives of national park cooperative and 
friends associations, the National Park Foundation, tourism/hospitality 
entities, state tourism offices, gateway communities, the National Park 
Service (in an ex-officio capacity), park advocacy organizations and 
others interested in national parks. The NPPC has already established 
research and marketing committees comprised of nationally respected 
persons, unifying many efforts now underway locally and nationally. The 
NPPC will build awareness of the entire National Park System, including 
all natural, historical and cultural places within it--not just those 
park units with concessions. The NPPC will develop promotional funding 
strategies, create partnerships, and craft campaigns that stimulate 
visitor appreciation and appropriate use of the treasured landscapes 
and educational resources of the National Park System.
    Mr. Chairman, we urge the Congress to act on several important 
opportunities to assure that the parks are able to remain relevant and 
loved over the next hundred years. First, to promote expanded 
visitation to the Parks and encourage more outdoor recreation and 
learning associated with visits to NPS units, we suggest two 
alternatives to fund parks outreach and marketing initiatives. Second, 
to help the National Park Service address its facilities and 
infrastructure needs, we encourage partnership-based construction of 
beautiful, state of the art, and enduring visitor facilities for the 
next century of park operations. And third, we urge you to consider 
whether the next century of the parks would be well served by a new 
institution that enables creative investments in needed 
infrastructure--a quasi-public agency that could build upon the lessons 
of the Presidio and more.

Funding Sustainable Outreach and Promotion Efforts
    The NPHA believes that the National Park Service should undertake 
expanded outreach and marketing efforts--especially directed to urban 
Americans, Americans of color, new Americans and other portions of the 
American public with limited traditions of park visitation. To 
facilitate this, we offer the following alternatives.
    One option would be to provide the agency with authority to utilize 
franchise fees paid by national park concessioners annually to support 
NPS outreach and marketing efforts. Concessioners pay some $70 million 
in franchise fees. The NPHA urges you to consider committing 10% of the 
total franchise feeds paid or nearly $7 million annually, to a new 
National Park Outreach and Promotion Fund. Had such authority existed 
in the current fiscal year, it could have been utilized to offset the 
significant loss of entrance fee collections at specific national park 
units from the fee-free weekends--in some cases exacerbated by higher 
visitor numbers and a resulting increase in operational costs to the 
park.
    Alternatively, 10% of the receipts from annual sales of the America 
the Beautiful Pass could be dedicated to a matching fund to support 
park promotion efforts. Purchase of the annual pass--permitting access 
to virtually all federal recreation sites for 12 months--should be a 
major component of park promotion efforts. Holders of passes can be 
reached to communicate opportunities in parks--and because they can 
enter any park without paying an entrance fee they are likely to be 
interested in learning more about when and where they can add to their 
park experiences.
    Current annual park pass sales are very limited, but a new 
promotion coalition can boost sales significantly, adding substantially 
to the current $175 million in park fees collected annually. If these 
funds could be used on a 50-50 matching basis with resources from 
private sources such as non-profit and philanthropic organizations, 
concessioners and other private interests, then the NPS could double 
its money and greatly expand outreach to minorities and other 
underserved communities, young adults, families with children, and the 
ever expanding number of older Americans with grandchildren. This 
effort would be good for gateway communities, generating jobs and added 
income, and could help to expand interest and awareness among an entire 
generation of Americans who, without this promotion, are likely to 
remain unaware of this wonderful legacy of National Parks. If 
successful, this effort could reverse recent trends in park visitation, 
and help generate additional income to support the parks and improve 
facilities and visitor services.

New, Enduring Visitor Infrastructure
    In addition, we urge you to consider a new idea for creating new 
park facilities in the tradition of the grand, enduring structures, 
many predating the creation of the National Park Service in 1916 that 
are synonymous with the National Park system. Unique architecture and 
quality construction mark structures like the Ahwahnee and El Tovar 
Hotels, lodges in Glacier and Yellowstone and many more historic 
structures that help make 21st Century park visits lifelong memories.
    Yet not all visitor structures in our parks are grand, or even 
park-appropriate. Many of those constructed mid-20th century are quite 
unremarkable, are costly to operate and produce inferior visitor 
experiences. These structures fail to meet expectations of the 
Congress, the agency, concessioners and the public that our parks 
should serve as outstanding examples of design in harmony with nature.
    We believe that one of the greatest opportunities associated with 
the upcoming 100th anniversary of the National Park Service can and 
should be a limited number of new structures that, even in 2116, will 
still demonstrate national park-appropriate design and operations. This 
would mean quality design and materials that meet LEED and ADA design 
requirements. The resulting structures would minimize barriers to 
serving all Americans well while also achieving agency-espoused goals 
in energy efficiency, reducing water use, and other environmental 
objectives.
    The National Park Service has undertaken some important planning in 
this area, although much of the planning has focused on buildings, 
which would be constructed with appropriated funds and used for visitor 
centers, offices and more. This base of knowledge, though, could be 
united with the knowledge of concessioners operating in the park and 
other companies to achieve truly outstanding results.
    One example of recent innovative thinking and action which will 
serve visitors well for generations is found in Golden Gate National 
Recreation Area: the restoration of historic buildings at Fort Baker 
and addition of complementary structures to create the Lodge at the 
Golden Gate. Although not operated as a concession--primarily because 
the needed private investment far exceeded that which could be 
justified under the maximum concession contract of 20 years--the Lodge 
offers an example of an NPS/private partner venture that serves public 
purposes extremely well.

A New Park Visitor Facility Investment Trust
    An alternative approach might involve the establishment of a new 
Park Visitor Facility Investment Trust which is empowered to issue 
bonds and generate funds to be borrowed by concessioners to reinvest in 
existing but deteriorated infrastructure and add new, appropriate 
facilities at underutilized units at parks like Voyageurs, perhaps, or 
even new park units created from repurposed former military bases. As a 
further incentive to build infrastructure in new or underutilized park 
units, the rate of interest charged to concessioners for funds borrowed 
from this Trust for investments in underutilized parks could be 
discounted further or the terms of repayment extended to permit more 
time to recapture the return on investment associated with ``growing'' 
visitation in underutilized units that will come with the establishment 
of new facilities and visitor services.

Summary
    Mr. Chairman, I know you would agree that we need to get Americans 
back in touch with nature, engaged in physical activities and outdoor 
recreation, and connected to the magnificent culture, heritage and 
landscapes that are celebrated by our National Park System. We need to 
reach out to youth to encourage them to share in the wonder and 
enjoyment of our National Parks and discourage the increasingly 
sedentary lifestyles that are contributing to our health care crisis. 
We need to expand Park visitation to encourage minorities, 
disadvantaged communities, new Americans and urban residents to see 
their National Parks for themselves and to build a broader constituency 
for America's great outdoors. And, we need to find new and innovative 
ways to reinvest in the maintenance, restoration, and expansion of 
critical park infrastructure--much of which was built either by private 
investment when the National Parks were first created, or in 
conjunction with the work of the Civilian Conservation Corps more than 
half a century ago.
    The National Park Hospitality Association and the National Park 
concessioners want to help you, the National Park Service, and all 
Americans in achieving these objectives. As the 100th Anniversary of 
the National Park Service shines a light on America's Best Idea, we 
hope you will help us build on our longstanding partnership with the 
NPS to find new and innovative ways to improve the parks and create a 
new generation of Americans who share in the wonder of this amazing 
legacy.
    We thank you for considering these requests. We would be delighted 
to provide additional information and respond to any questions you 
might have.
                                 ______
                                 
    Mr. Grijalva. Ruth Pierpont, President, National Conference 
of State Historic Preservation Officers. Welcome, and thank 
you.

 STATEMENT OF RUTH L. PIERPONT, PRESIDENT, NATIONAL CONFERENCE 
  OF STATE HISTORIC PRESERVATION OFFICERS, WATERFORD, NEW YORK

    Ms. Pierpont. Thank you, Chairman Grijalva and Ranking 
Member Bishop, for the opportunity to testify before you today. 
I am President of the National Conference of State Historic 
Preservation Officers and also the Director of the Division for 
Historic Preservation of the New York State Office of Parks, 
Recreation, and Historic Preservation. State historic 
preservation officers and countless historic preservation 
advocates are elated to see this report contain such a strong 
historic preservation component. As the report states, ``Our 
nation is best armed to address the future with a public 
knowledgeable about its history, the resources, and the 
responsibilities of citizenship.''
    The conservation of our nation's historic and natural 
resources occurs along a continuum. At one end, conservation 
occurs through the National Park Service's ownership of our 
national parks. At the other end, the NPS accomplishes 
conservation of non-Federally owned historic sites through the 
State and Tribal Historic Preservation Offices, hereinafter 
referred to as SHPOs and THPOs. The nation's historic resources 
are best served when the Federal Government supports all 
components of the continuum.
    No nation has the resources to buy and maintain property in 
perpetuity and maintain in perpetuity every historic place. 
However, America's conservation continuum allows us to preserve 
or consider preservation of every historic place. The Second 
Century report recommends, and SHPOs wholeheartedly agree, that 
the Historic Preservation Fund must have permanent and 
guaranteed funding at its authorized level of $150 million for 
the program to flourish and be executed as the original writers 
intended nearly a half century ago.
    Like the LWCF, HPF income derives from off-shore oil lease 
revenues, effectively using one nonrenewable resource to 
preserve others, our nation's natural and historic resources 
which benefit all Americans enriching parks, open space, and 
our human habitat, those neighborhoods and main streets where 
we live, work, and play. A fully funded HPF would impact 
numerous report recommendations, but I would like to take just 
a few moments to highlight three.
    First, regarding the recommendation for increased access to 
historic preservation assistance tools and incentives by 
residents of high poverty areas across the country. All 
American experiences are far from the same, but they are all 
significant and necessary to tell America's complete story. 
When provided the means, SHPOs have the infrastructure in place 
to assist all communities and ensure that America's complete 
story can be told forever.
    I ask you, how disappointing and misleading would it be if 
future archaeologists came to study 20th Century America and 
found evidence of only large civic structures and commercial 
buildings and residences from a few elite communities? By not 
fully funding the HPF we are condemning future generations to 
American history memory loss. Second, regarding the 
recommendation to enhance funding for and make full use of 
community assistance programs. The Federal state partnership 
created through the Historic Preservation Program was designed 
to engage communities, and that engagement is formalized in 
over 1,700 municipalities through the certified local 
government program.
    Fully funding the HPF will allow SHPOs to meet the 
preservation needs of communities everywhere by providing 
financial and technical assistance for main street 
rehabilitation programs which support local economic 
development, neighborhood rehabilitation, historic home energy 
conservation assistance, educational programs for communities 
and homeowners, and recognition of local historic places 
through National Register nominations and publications 
supporting cultural tourism. Other NPS external programs that 
work with communities such as American Battlefields Protection, 
Save America's Treasures, Preserve America, and Teaching with 
Historic Places, also complement this effort.
    And finally, regarding the recommendation to identify bold 
and achievable goals for preserving our nation's historic 
resources, Mr. Chairman, I challenge you and the NPS to think 
outside the box and to support the entire conservation 
continuum by fully funding the HPF. In doing so you will affirm 
the original intent of the National Historic Preservation Act 
and will also recognize that historic preservation can and 
should be a goal of our nation's sustainability, livability, 
and great outdoors agendas.
    Historic preservation is one of the best tools to preserve 
a neighborhood's livability and sustainability by using 
existing infrastructure that provides a sense of place, and by 
leveraging that authenticity for new investment, tourism, and 
smart growth. By setting bold new goals for preserving our 
nation's historic resources, we will invest in the health, 
knowledge, and quality of our nation's future.
    In conclusion, as the NPS enters its second century, please 
remember that for nearly half a century SHPOs and THPOs have 
been saving America's history and producing results that 
benefit all America's citizens and communities. The combination 
of Federal leadership and state execution works. Today, with 
America's natural and built environment being threatened, it is 
time for Congress to reaffirm this partnership that has worked 
so well. It is time to give the states and tribes the funding 
and tools to do the job that the National Historic Preservation 
Act's visionary framers intended. Thank you.
    [The prepared statement of Ms. Pierpont follows:]

  Statement of Ruth Pierpont, President, National Conference of State 
  Historic Preservation Officers and Director, Division for Historic 
 Preservation, New York State Office of Parks Recreation and Historic 
                              Preservation

    Thank you Chairman Grijalva, Ranking Member Bishop, and members of 
the House Subcommittee on National Parks, Forests, and Public Lands for 
the opportunity to provide testimony. The National Conference of State 
Historic Preservation Officers, and State Historic Preservation 
Officers around this nation were gratified that the National Parks 
Second Century Report contains a strong historic preservation 
component, including recommending full funding from the Historic 
Preservation Fund. As the report states, ``Our nation is best armed to 
address the future with a public knowledgeable about its history, its 
resources and the responsibilities of citizenship.''
    We encourage the Committee to enact the recommendations, 
particularly authorizing full, permanent, and guaranteed funding for 
the Historic Preservation Fund.

Conservation continuum
    The conservation of our Nation's historic and natural resources 
occurs along a continuum. At one end, the conservation occurs though 
the National Park Service (NPS) ownership of our national parks. At the 
other end, the NPS accomplishes conservation by assisting others in 
preservation. The NPS achieves preservation under the National Historic 
Preservation Act (NHPA) through the State Historic Preservation Offices 
(SHPOs). The Nation's historic resources are best served when the 
federal government supports all components of the continuum. Fulfilling 
the promise of fully funding the Historic Preservation Fund will 
balance the continuum at the assistance end.
    No Nation has the resources to buy and maintain in perpetuity every 
historic place. However, America's conservation continuum does allow 
this Nation to preserve, or consider preservation, of every historic 
place.

Conservation continuum includes economic development
    I am grateful for this chance to discuss a NPS program that is not 
always thought of when national parks are mentioned, but is one of our 
countries most successful conservation efforts as well as a prolific 
economic and job creation tool--the historic preservation program 
created by the 1966 National Historic Preservation Act. Through 
identification and designation mechanism millions of historic buildings 
and sites are preserved by their owners at no cost to the federal 
government. On the economic development side, this program has 
stimulated over $85 BILLION in private historic rehabilitation 
investment, created 1.8 million jobs (average around 60,000 a year), 
<SUP>i</SUP> and created over 187,088 units of low and moderate income 
housing.

SHPOs proven ability
    We are pleased to see that the Second Century commissioners agreed 
with the 2007 National Academy of Public Administration's (NAPA) report 
that our nation's historic preservation program is a success. The 2007 
NAPA report stated that the ``National Historic Preservation Program 
stands a successful example of effective federal-state partnership and 
is working to realize Congress original vision to a great extent.'' 
<SUP>ii</SUP> The Second Century commissioners believe that the 
preservation model should also be brought to the natural resource 
community for its effectiveness in program and assistance delivery. 
<SUP>iii</SUP>
    Several additional studies support NAPA and the Second Century 
Report recommendations. In 2003, the Office of Management and Budget's 
Program Assessment Rating Tool (PART) gave management of our nation's 
historic preservation programs a score of 89%, indicating exemplary 
performance of mandated activities. The 2006 Preserve America Summit's 
Improving the Historic Preservation Infrastructure Committee report 
identified a severe need for full and permanent funding for the 
Historic Preservation Fund and for a comprehensive national inventory 
of historic properties.

NCSHPO Comments on Six Report Recommendations:
1.  The Congress of the United States--should fully fund the historic 
        preservation fund to allow the Park Service to provide 
        financial and technical assistance to state, tribal, and local 
        governments and others to ensure that America's prehistoric and 
        historic resources are preserved.

WHY FULL FUNDING?
    In 1976 the National Historic Preservation Act was amended to 
create a funding stream, called the Historic Preservation Fund (HPF), 
to implement the national historic preservation program on behalf of 
the Department of Interior. Currently, $150 million is deposited 
annually into HPF; however, the actual appropriated amount is less than 
half the annual deposit, theoretically leaving an unappropriated 
balance of $2.7 billion in the HPF.
    Like the Land and Water Conservation Fund, HPF income derives from 
off shore oil lease revenues. A portion of these Outer Continental 
Shelf (OCS) revenues, from the depletion of non-renewable resources, 
should result in the creation of a permanent legacy that benefits all 
Americans, in EVERY zip code, in terms of enriched parks, recreation, 
open space, and human habitat--the historic neighborhoods and Main 
Streets where people live and work.
    The Second Century Report recommends permanent and consistent 
appropriations from the HPF. America's historic places are threatened. 
The stewards of our entire patrimony, SHPOs are starved--after decades 
of continual increased workloads and responsibility. Limited HPF 
withdrawals have forced SHPOs to meet federal regulatory demands, 
rather than proactively addressing historic resource needs. SHPO 
funding has yet to reach the heyday of funding when they received $137 
million (inflation adjusted 2009 dollars) in 1979.
    The NHPA created a comprehensive, rational approach to historic 
preservation based on historic values and public input. States identify 
the historic places within their boundaries and, with the involvement 
of the public, produce a historic preservation plan to set priorities. 
Fully funding the HPF will allow SHPOs to raise matching funds and meet 
historic preservation needs in cooperation with local governments, 
nonprofit organizations, and property owners. In establishing the 
program, Congress understood that states are in the best position to 
have knowledge about the full range of historic properties and to make 
decisions in accordance with local needs and conditions. The mechanism 
is in place, but America is still waiting for the funding to make the 
mechanism work.
    What would a fully funded program look like? <SUP>iv</SUP>
        <bullet>  Finish the identification of America's historic 
        resources. All of America's historic resources would be 
        identified, surveyed and records digitized. Not only would this 
        speed up the federal review process but also help communities 
        properly plan for their revitalization and economic development 
        projects.
        <bullet>  Double National Register nominations. More historic 
        sites in economically disadvantaged areas would be added to the 
        National Register, bringing the Department of Interior's 
        community assistance program into every American neighborhood. 
        SHPOs would have the staff and time needed to assist people in 
        these communities with National Register nominations.
        <bullet>  Save more commercial buildings as SHPOs have the 
        ability to educate property owners in difficult to develop 
        areas on the advantages (economic and ``green'') of 
        rehabilitation. More support would be provided to the Federal 
        Rehabilitation Tax credit program, creating quicker project 
        reviews and supplying much needed technical assistance. In 
        2009, the tax credit program created over 70,000 jobs and 
        leveraged $4.7 billion in private investment.<SUP>v</SUP>
        <bullet>  Federal agencies would include historic preservation 
        values in project planning from their desk tops with digitized 
        historic data, speeding up the federal historic reviews and 
        National Register nomination process.
        <bullet>  At risk historic places would receive matching grants 
        for restoration in every State in the Union. Bricks and mortar 
        grants would be available and restoration funding would be 
        distributed equitably and according to State priorities.
        <bullet>  Assistance to local governments would increase 
        tenfold from their current $4 M set-aside. Certified Local 
        Government (CLG) historic preservation commissions would 
        receive funding increases, enabling CLGs to expand the program 
        nationwide as well as create and expand upon their local 
        preservation programs and protection of local resources. 
        Project examples include a CLG Michigan job training program on 
        restoring windows and a Maryland Historical Trust's historic 
        home audit energy efficiency initiative being conducted with 
        four Maryland CLG's communities.
        <bullet>  Historic places would be prepared for disasters. A 
        historic preservation disaster fund could be created 
        eliminating the need for additional funding for preservation 
        when natural disasters strike. Current climate change 
        legislation creates a natural resources adaptation fund, a 
        similar fund is needed for historic and cultural resources.
    In 1976 Congress made a promise to the American people that 
preserving our nation's historic heritage was a priority and that they 
would provide the tools and resources to enable Americans citizens to 
preserve their history. In the 34 years since, Congress has not once 
fulfilled that promise. Now is the time to honor that national 
commitment and fully fund the Historic Preservation Fund.

2.  The Congress of the United States should promote access to historic 
        preservation technical assistance, grants, and tax incentives 
        by residents of high-poverty areas across the country.

Everyone's Heritage is Important
    Historic places tell of our diverse roots and our common adventure. 
They impart an indelible sense of the profound truth of the American 
motto: ``out of many, one''. As NPS's publication--African American 
Historic Place <SUP>vi</SUP> states--
        ``Equally important is the history of ordinary people as 
        recorded in churches, social institutions, schools, banks, 
        businesses, houses, neighborhoods, and archeological sites. 
        (National Register) Listing honors the property by recognizing 
        its importance to a community, a state, or the nation. About 76 
        percent of listed properties are privately owned and usually 
        not open to the public, but many are within historic districts 
        that can be visited; others are publically owned and open to 
        the public. A visit to any of these historic places can 
        illuminate the lives of countless ordinary people. Most 
        historic places in the National Register are recognized for 
        their local significance and are especially suited for telling 
        the grassroots story. Many minority historic sites bear witness 
        to the strength and endurance of ordinary people and to their 
        relevance for our understanding of the complex American 
        experiences. An appreciation of our multifaceted history 
        provides a usable, more recognizable past that holds relevance 
        for the masses of Americans who presently do not consider 
        themselves a part of American history. Historic districts and 
        properties provide a foundation for ordinary people to 
        rediscover portions of the American past missing from much of 
        the history taught in our educational institutions.''
    Of the nation's over 12,000 historic districts, comprising over a 
million contributing structures, 60 percent overlap census tracts in 
which the poverty rate is 20 percent or greater. Currently, very 
limited or no assistance is available to most of these communities to 
manage their historic resources. SHPOs have the expertise but not the 
funding to provide the on the ground assistance needed to help preserve 
these important places.
    Oftentimes, the majority of historic structures in these historic 
districts are listed on the Register at the state or local levels of 
significance, making them ineligible for Save America's Treasures 
restoration funding. Until SHPO funding is restored to a level that 
would allow for restoration grants, historic structures in high-poverty 
areas will continue to deteriorate and may be lost forever.
    Given adequate resources, SHPOs have the skills and ability to 
provide technical assistance, advice, and educational programs to 
municipalities and preservation organizations to develop preservation 
plans, establish local historic district ordinances, investigate 
alternatives for preserving key buildings, and explore strategies for 
promoting heritage tourism and commercial and neighborhood 
revitalization. However, these services are being scaled back every 
year as State budgets are being slashed and federal regulatory review 
requirements are continually increasing, leaving SHPOs unable to 
consistently provide preservation services and incentives to 
underserved communities.
    Historic rehabilitation tax credits are great but only as far as 
they go. The credits help only depreciable structures located in areas 
that already have a strong real estate development potential. The 
rehabilitation credits provide no help to archeological sites, 
churches, vessels, historic landscapes, house museums, not for profit 
owned buildings, historic residential homes etc. What would happen if 
future archeologists came back to study twentieth century America and 
found only commercial buildings from ``elite'' communities?
    Our American experiences are not all the same, but they are all 
significant and necessary to America's complete story. When provided 
the means, SHPOs have the infrastructure in place to ensure America's 
complete story can be told forever.

3.  The National Park Service should enhance funding for, and make full 
        use of, its extensive portfolio of community assistance 
        programs to better support state and local governments, tribal 
        and private-sector conservation and preservation efforts.

Fully Engage All Communities in Their Heritage
    Citizens recognize that the historic places close to home are also 
part of the heritage of the nation as a whole. At a time when mass 
media, mass production and mass marketing push our communities toward 
faceless homogeneity, historic places remain the signposts that 
distinguish one place from another. Not only are historic places a 
source of pride for community residents, they are a more fundamental 
mooring that allows us to know that where we live is not just a dot on 
a map, but a place with its own past, present, and future of which we 
are a part.
    The Federal-State partnership created through the historic 
preservation program was designed to engage communities in 
preservation. In 1980 Congress amended the National Historic 
Preservation Act requiring that each state pass through 10 percent of 
its annual grant to local governments certified as having outstanding 
local historic preservation programs. Since 1980, over 1,700 local 
governments have chosen to participate, more for the recognition than 
for the money (CLG grants average around $8,000). Each Certified Local 
Government (CLG) establishes its own volunteer commission and enacts a 
preservation ordinance that defines that localities preservation 
program. CLGs exert control over the local National Register 
nominations and, at times, the federal preservation review process 
within their jurisdictions.
    In Michigan, a SHPO grant to a Certified Local Government (CLG) 
created a historic wood windows restoration workshop. The workshop 
provided specialized training to the unemployed and in the process 
educated individuals about the energy efficiency benefits of 
rehabilitating rather than replacing historic wood windows. This 
workshop, free of charge to participants, resulted in four of the 
fourteen students starting their own window repair small businesses, 
and the program was such a success that more workshops are being 
offered in 2010.
    The federal government does not, nor should it, own all the places 
connected to our history. Mount Vernon in Virginia and the Garden 
District in New Orleans are as much a part of our heritage as 
Independence Hall or the Grand Canyon. The federal interest in heritage 
conservation is one of assistance, not one of acquisition. As a team 
effort, historic preservation reaches conservation goals with the 
private sector and state and local governments. Federal ownership, or 
acquisition, does not play a role in the national program. Historic 
preservation is based on the premise of offering an alternative which 
people may or may not choose.

4.  The National Park Service should develop a Cultural Resources 
        Initiative that includes a multi-year strategic effort to 
        prepare the Park Service's heritage preservation and cultural 
        programs to meet the challenges of the new century--both in the 
        parks and in communities nationwide.

Heritage conservation and change
    Historic preservation is not mere reverence for the past; it is a 
tool for managing change. Historic preservation means making a 
thoughtful effort to meet today's needs in ways that also retain and 
use our important historic resources. SHPOs play a leading role in the 
National Park Service's cultural programs. Any new strategic effort 
should include fully funding the HPF as well as a clear goal for 
historic site survey and records digitization to identify and record 
America's significant historic properties.

5.  The Congress of the United States should reauthorize the national 
        park system advisory board.

Advisory Board
    The NCSHPO was pleased to see that Secretary Salazar has appointed 
a new 12 member National Park System advisory board to help lead NPS 
preparations for the challenges that lie ahead and that eight of the 
new members served as commissioners on the Second Century Commission 
Report. The NCSHPO is also pleased that the advisory board includes Ron 
James, Nevada SHPO.

6.  The President of the United States should identify bold and 
        achievable goals for preserving the nation's heritage 
        resources.

Historic Preservation = Sustainability
    America has many stories to tell--stories about wars, inventions, 
disasters, expansion, politics and most importantly--stories about the 
American people. Some of these stories make us feel good; others make 
us want to hang our head in shame. Destroying the places of these 
stories, or ``human habitat'' ensures that future generations will be 
condemned to American history memory loss. Human beings are a part of 
the environment and created much of our nation's history. Wilderness 
and park land recreation sites cannot exist unless people have places 
to live and work. Having a robust and growing national historic 
preservation program will ensure the preservation of our built and 
natural environments.
    Historic preservation should also be a goal of our Nation's 
sustainability and livability agendas.
    Sustainability--the conservation and improvement of our built 
resources, including the reuse and greening of existing building stock, 
and reinvestment in existing communities is crucial in mitigating 
climate change.
        <bullet>  In terms of waste, construction of an average 2,000-
        square-foot home generates 3,000 pounds of wood, 2,000 pounds 
        of drywall and 600 pounds of cardboard.
        <bullet>  Moreover, the construction of an average single-
        family home generates four pounds of waste per square foot. On 
        average, only about 20%-30% of that waste is recycled or 
        reused.
        <bullet>  Additionally, it takes a lot of energy to construct a 
        building--for example, building a 50,000 square foot commercial 
        building requires the same amount of energy needed to drive a 
        car 20,000 miles a year for 730 years. Construction debris 
        accounts for 25% of the waste in the municipal waste stream 
        each year.
        <bullet>  Demolishing 82 billion square feet of space will 
        create enough debris to fill 2,500 NFL stadiums. <SUP>vii</SUP>
    Livability--historic preservation is also proven to be one of the 
best tools to preserve a neighborhood's livability by providing a sense 
of place and then to leverage that authenticity for new investment, 
tourism and smart growth. Historic preservation takes advantage of 
streets, services, infrastructure and buildings, helping to curb sprawl 
and promote sustainability. Many historic neighborhoods were designed 
to provide multiple transportations for its residents such as walking, 
biking, and using public transit.
    By setting bold new goals for preserving our nation's historic 
resources, the President will be investing in the health, knowledge and 
history of our nation's future.

Conclusion: Equal Support for all parts of the conservation continuum
    SHPOs and the HPF support the nation's historic preservation 
infrastructure; knowing the location and records of historic resources; 
an evaluation process to determine relative significance; a formal 
liaison and partnership relationship with local governments in 
preservation; advice and oversight on rehabilitations encouraged 
through federal income tax incentives; educational programs on 
preservation, such as on the protection of archeological sites; and 
assistance to the private sector on preservation techniques. This 
infrastructure is maintained for the national government by the State 

Historic Preservation Officers.
    America's patrimony is not owned by the National Park Service or 
the National Trust for Historic Preservation. Only the State Historic 
Preservation Officers have the entire nation's patrimony under their 
purview and responsibility. As the NPS enters its second century, we 
should remember that for nearly half a century the SHPOs have been 
saving America's treasures and producing results that benefit ALL of 
America's citizens, communities, and States. The combination of federal 
leadership and State execution has worked well. Today, with America's 
natural and built environment being threatened, it is time for Congress 
to reaffirm the partnership that has worked so well. It is time to give 
the States the tools to do the job the National Historic Preservation 
Act's visionary framers intended.

_______________________________________________________________________

<SUP>i</SUP> First Annual Report on the Economic Impact of the Federal 
        Historic Tax Credit. Rutgers University Edward J. Bloustein 
        School of Planning and Public Policy. March 2010.
<SUP>ii</SUP> National Academy of Public Administration ``Back to the 
        Future: A Review of the National Historic Preservation 
        Program'' Findings and Recommendations. pp 1.
<SUP>iii</SUP> National Parks Second Century Commission ``Advancing the 
        National Park Idea '' pp. 29.
<SUP>iv</SUP> A fully funded HPF, would also provide the growing number 
        of Tribal Historic Preservation Officers with adequate funds 
        for staffing and programs.
<SUP>v</SUP> 2009 National Park Service Federal Rehabilitation Tax 
        Credit annual report.
<SUP>vi</SUP> African American Historic Places. Introduction by Carol 
        Shull. National Park Service 1994.
<SUP>vii</SUP> National Trust for Historic Preservation.

[GRAPHIC] [TIFF OMITTED] T6648.001

                                 
    Mr. Grijalva. Thank you very much, Ms. Rife, Association of 
National Park Rangers. Thank you for being here. I look forward 
to your comments.

STATEMENT OF HOLLY RIFE, ASSOCIATION OF NATIONAL PARK RANGERS, 
                    SABILLASVILLE, MARYLAND

    Ms. Rife. Chairman Grijalva and Members of the 
Subcommittee, I am Holly Rife, a National Park Service employee 
for 17 years and currently the Chief Ranger at Catoctin 
Mountain Park in Maryland. Today, though, I am appearing on my 
own time and expense in my capacity as a member of the 
Association of National Park Rangers, and I am pleased to 
present this testimony on behalf of ANPR.
    I thank you for holding this hearing on the future of the 
National Park Service and the National Park System. The 
Association of National Park Rangers is a nonprofit 
organization founded in 1977 and today has about 1,200 members 
that include current, former, and aspiring employees of the 
National Park Service. We advocate for all employees of the 
National Park Service, regardless of their job title, and for 
the overall health of the National Park Service and the system.
    Last year in Knoxville, Tennessee, NPS Director John Jarvis 
spoke about the National Parks Second Century Commission 
report, comparing it to other well written NPS reports in 
recent decades. Director Jarvis elaborated this thought by 
explaining, we do not necessarily need another report, we need 
to take action. We agree. Subcommittee Members may be asking 
themselves, how does the NPS move from just another report to 
desired results and outcomes? If your choice is legislation, we 
recommend legislation that contains accountability measures 
that attach to appropriations at park level and individual 
employees annual performance appraisals.
    With regard to NPS workforce recruitment, we recommend 
greater emphasis in these areas. Simplify the application and 
hiring processes and utilize hiring authorities that move the 
best college students in the proper fields of study into the 
NPS workforce. Establish close relationships with universities 
and colleges with weekly communications to recruit for NPS 
career opportunities. With regards to NPS workforce recruitment 
and diversity, we believe that ANPR could be of assistance to 
the NPS under a cooperative agreement with the right set of 
conditions.
    This would be through ANPR's College Chapter Program. We 
think targeting minority university and colleges with a 
sustained NPS or affiliated presence is the way to go here. We 
believe that for a better NPS future, time and energy must be 
invested into building the careers of students and seasonal 
employees who are the workforce of tomorrow. We cannot 
emphasize enough that getting hired into an NPS job often 
requires more than education and technical skills. It also 
requires an understanding of NPS application procedures and 
preparation techniques, and an understanding of how to navigate 
the NPS agency culture to include competitiveness and 
opportunities for networking within the culture.
    In the area of training, ANPR supports the current 
superintendent's academy with modification and the NPS 
Fundamentals training program to help new employees understand 
the agency's culture. We agree that NPS should invest 4 percent 
of its personnel budget to employ professional development. 
This amount should be fairly divided among each park's 
employees based on ability and desire and each park's travel 
ceiling should be adjusted so as not to exclude this amount.
    We believe we can be of the most assistance to Congress and 
the NPS in increasing the diversity of applicants for NPS 
positions through our College Chapters Program and by surveying 
NPS employees to ascertain what types of NPS-provided training 
and professional development opportunities they view as 
lacking. Our members represent over 10,000 years of experience 
in operating and managing units of the National Park System.
    For many of us the national park idea is the central theme, 
not only in our professional lives, but in many cases our 
families' lives and values, our sense of patriotism, and our 
very definition of what being an American is. We pledge to 
assist this Subcommittee and the National Park Service in 
whatever ways we can to assure that the national park idea 
remains relevant and accessible to our citizens today, and for 
the many more yet to be born. On behalf of the Association of 
National Park Rangers, I thank you for this opportunity to 
present this testimony, and I will be happy to answer any 
questions you may have.
    [The prepared statement of Ms. Rife follows:]

               Statement of Holly Rife on behalf of the 
                  Association of National Park Rangers

    Chairman Grijalva and Members of the Subcommittee:
    I am Holly Rife, a National Park Service employee for 17 years and 
currently the Chief Ranger at Catoctin Mountain Park in Maryland. I am 
appearing today on my own time and expense in my capacity as a member 
of the Association of National Park Rangers (ANPR). I am pleased to 
present this testimony on behalf of ANPR.
    Thank you for holding this hearing on the future of the National 
Park Service and the National Park System.
    The Association of National Park Rangers is a non-profit 
organization founded in 1977 and today comprises approximately 1,200 
members that include current, former, and aspiring employees of the 
National Park Service. Our organizational purposes are to communicate 
for, about, and with National Park Service employees of all 
disciplines; to promote and enhance the professions of National Park 
Service employees and their spirit; to support management and the 
perpetuation of the National Park Service and the National Park System; 
and to provide a forum for social enrichment. ANPR provides education 
and other training to develop and/or improve knowledge and skills of 
National Park Service employees of all disciplines and those interested 
in these professions. ANPR provides a forum for discussion of common 
concerns of National Park Service employees and provides information to 
the public.
    As an organization that strongly supports the fundamental purpose 
of the National Park Service (NPS) defined in statutory law, we believe 
that the boots-on-the-ground experience in operating national parks 
represented by our members is worthy of your consideration. If you put 
together legislation for the agency's future, please consider these 
thoughts:

Just Another Report?
    Our experience with results from management and operations reports 
in the NPS is varied, but I think most of us have at one time or 
another in our careers encountered a situation where someone above us 
in the NPS hierarchy mandated that a plan be completed, only to have 
that completed plan sit on a shelf and never be used. Then five years 
later comes down the edict that the plan must be updated and revised by 
a specific date, even though the plan has not been touched in those 
intervening years. It is very frustrating to work on assignments that 
appear not to have any likely need or use, especially when your work 
plate is already full with what you perceive to be real, substantive 
issues and assignments. ANPR does not particularly want to be involved 
with ``just another report'' if it is likely that the National Parks 
Second Century Commission Report is just one of those documents that 
sit on the shelf.
    Last year in Knoxville, Tennessee NPS Director Jon Jarvis spoke 
about the National Parks Second Century Commission Report comparing it 
to other well-written NPS reports in recent decades. He cited such 
reports as the The Vail Agenda Report and Recommendations to the 
Director (1992), the National Park Service Strategic Plan (1997), and 
the 2001 Rethinking the National Parks for the 21st Century Report. 
There were also others like the 12-Point Plan -- the challenge Report 
(1985) and the NPS Business Plan Initiative in the early years of the 
last decade. Director Jarvis elaborated this thought by explaining that 
good reports containing good recommendations that can be used as park 
management and operational planning tools alone are not enough. He said 
that the NPS does not need more reports, and now is the time to get 
some of these things accomplished! We agree.
    If one reads these various reports from the last three decades one 
finds very similar, recurring language and recommendations. So, the 
real questions seem to be how can we move recommendations to actions 
and outcomes and what motivation might Congress apply to garner the 
results it desires? Would legislation codifying some of the 
recommendations in the National Parks Second Century Commission Report 
have the desired effect? Maybe, but we think any such legislation would 
need to include some accountability measures to be effective. These 
accountability measures, in our opinion, would need to be directed at 
the two areas that most quickly gain individual NPS employees' 
attention, those being operations' appropriations at the park level and 
the employee's annual performance appraisal. We are not saying that we 
think NPS employees are inept or unskilled or that they are willfully 
non-responsive to the prerogatives of Congress. We are saying that 
sometimes NPS employees have difficulty prioritizing their work when 
often the quantity of that work requested by the Executive Branch, 
Congress, and the visiting public is greater than the number of work 
hours available to accomplish it. But available funding at the park 
level and our individual annual performance appraisal, the latter of 
which is tied to our in-agency reputation and self-esteem, gets our 
attention quickly.
    The following is an example of an instance where Congress passed 
legislation directing the NPS to accomplish something, but did not 
include enough accountability measures in the legislation. In 1976 
Congress passed legislation that mandated General Management Plans for 
each unit of the National Park System be prepared and revised with an 
annual deadline of January 1 for the NPS Director to report back to 
Congress on the status of these plans [codified at Title 16 USC 
Sec. 1a-7(b)]. However, since there was neither ``a carrot nor a 
stick'' included in the legislation, work on these plans has languished 
for decades for some park units, and even some parks that have 
finalized them do not routinely use them for management decision making 
and/or revise them in a timely fashion. Had greater accountability 
measures/incentives, both positive and negative, been included in the 
legislation in 1976 perhaps Congress may have received the full results 
that it desired and been able to more adequately provide targeted 
legislative oversight in the following decades.

Workforce Recruitment and Diversity
    Almost every uniformed NPS employee has at one time or another been 
asked by someone in the visiting public, ``How do I get a job like 
yours?'' And, quite frankly the path to such a job is sometimes almost 
unexplainable. There are certainly a myriad of improvements we think 
the NPS could make in its recruitment and hiring procedures.
    How does the NPS recruit a workforce of the best and brightest that 
is reflective of the America's diversity? Step one might be working 
with the Office of Personnel Management (OPM) to better define what 
academic requirements are necessary for specific NPS jobs. A high 
percentage of the jobs in the NPS have a strong natural and/or cultural 
resource management component, yet very few of those jobs require a 4-
year degree in a natural or cultural science or resource management. It 
seems like a mistake in recruitment not to focus on those individuals 
that have shown an academic interest and academic success at the 
knowledge underpinning the work. In particular those positions titled 
``Park Ranger,'' the iconic position of the NPS workforce, should be 
included in this degree-holding group targeted for recruitment. The NPS 
can do that by working with OPM to specify the degree programs that 
would qualify.
    The National Parks Second Century Commission Report recommends:
        ``Build a robust internal research and scholarship capacity in 
        the sciences and humanities to guide management and protection 
        of our nation's natural, historic, and cultural heritage.''
Our perception is that this robust capacity in the sciences and 
humanities would also be well-served with employees robustly educated 
and interested in those same subjects.
    A second thought is for the NPS to lobby OPM to reverse its ban on 
allowing selecting officials to utilize the Outstanding Scholar hiring 
authority. It allows non-competitive hiring of college graduates that 
have proven to be academically skilled (must have a 3.5 GPA or higher) 
in fields of study directly applicable to the work they would perform 
as NPS employees. Our recollection is that this authority was 
discontinued by OPM to prevent agencies from getting around 
consideration of applicants with veteran's preference. While the 
federal hiring process can be cumbersome, confusing, and frustrating 
for applicants and selecting officials, this hiring authority is easy 
to understand and apply for everyone involved. It can also be helpful 
to veterans that have college diplomas. Another hiring authority that 
can be highly useful for workforce recruitment is the Student Career 
Employment Program (SCEP). But this takes active recruitment efforts at 
universities and colleges to identify students in the proper fields of 
study and the proper temperament, skills, interests, and knowledge to 
work for the NPS. Further, there is a lack of effort to retain NPS 
employees after they graduate and lose Student Temporary Employment 
Program (STEP) status. These employees create an opportunity to hire a 
permanent employee that has experience and training in the position and 
with the NPS. Hiring officials and supervisors should actively work to 
provide SCEP opportunities to STEP employees who have career interests 
within the NPS.
    Here is just one example of a college graduate (Stanford 
University) that has now given up on working for the NPS:
        ``After a backcountry internship at Yellowstone in 2005 and 
        some seasonal jobs with the Forest Service, I reluctantly got 
        out of field work for land management agencies and took a 
        permanent job at Stanford where I've been working . . . 3+ 
        years. Eventually, I would like to go back to work for the park 
        service, forest service, or BLM in resource management and/or 
        planning . . . I mentioned that I think one of biggest barriers 
        for would-be applicants is that the application procedure is so 
        confusing. As an example, it took a law professor I work with 
        at Stanford several days to decipher the application 
        requirements for a GS-05 seasonal ranger job and then to enter 
        and upload all the pieces.''
    Finally in regards to recruitment, we believe that the NPS could 
and should form close relationships with universities, community 
colleges, and other schools specifically to advance and recruit for NPS 
career opportunities. This should be a primary job responsibility for 
an employee or employees in each park unit and not just a collateral 
assignment that someone gets around to once every few years. These 
relationships require nurturing and active communications to make them 
pay sustaining dividends in terms of interested, well-educated 
applicants. As we will describe in the paragraphs below ANPR has 
already taken the lead to form some university partnerships. All that 
is required of NPS is for the agency to join productively with us in 
this endeavor. The NPS does not need to spend a lot of money here or 
invent a new bureaucratic wheel!
    Employee diversity, especially racial diversity seems to be a goal 
that continues to elude the NPS. In our perception, the key is to 
create a racially diverse applicant pool for selecting officials to 
hire employees from because diversity of the NPS workforce will never 
increase if there are not diverse applicants on the list of selectees. 
We have watched the NPS try many different techniques over the years 
without achieving the desired results. Could it be several factors that 
seem to preclude a diverse applicant pool including confusing 
application processes, lack of successful agency recruitment methods, 
and failure by recruiters to explain what the internal culture of the 
NPS is about and how to navigate within it?
    Here is an area where we think ANPR could help the NPS under a 
cooperative agreement. In recent years ANPR has started an ANPR College 
Chapters program where students at a university or college that aspire 
to one day work for the NPS can form a chapter and begin to understand 
the NPS culture and ways in which they might make themselves more 
competitive for NPS jobs. We currently have five student chapters, but 
we have not yet been able to start up any chapters at schools with a 
high percentage of minorities. The main stumbling block seems to be, as 
described to us by some of the responding professors, that their 
students have limited incomes and have pretty-well stretched their 
financial abilities already just to be enrolled in college. They do not 
have the $45 necessary to join ANPR, and they certainly do not have the 
financial resources required to travel to ANPR's annual professional 
conference to learn more about the NPS culture and to network with 
potential selecting officials. And, a small non-profit such as ANPR 
that operates only on the membership dues it collects cannot afford to 
spend more than it takes in on servicing members or for travel expenses 
for members.
    We cannot emphasize enough that getting hired into a NPS job often 
requires more than an education and technical skills. It also requires 
an understanding of NPS application procedures and best application 
preparation techniques, as well as an understanding of how to navigate 
the NPS agency culture to increase competitiveness and opportunities 
for networking within that culture. The NPS does not appear to have the 
human resources to do much sustained mentoring, coaching, and 
networking with groups of minority students. ANPR does have that 
ability if some source of funding, such as a National Park Foundation 
grant, could be secured.
    The National Parks Second Century Commission Report recommends:
        ``The National Park Service should form partnerships with 
        academic institutions to provide rigorous staff training and 
        continuing education programs.'' and ``use. . .other means to 
        actively recruit a new generation of National Park Service 
        leaders that reflects the diversity of the nation.''
    We say do not limit these partnerships to just training and 
continuing education. Use these partnerships to recruit a diverse 
workforce and from this diverse workforce a diverse group of new 
leaders will emerge as their careers progress.

Development and Training
    In the biannual Federal Employee Satisfaction Survey in 2009 NPS 
employees ranked their agency at a score that put it 206 out of the 216 
agencies surveyed with regards to their satisfaction with the training 
and development opportunities available to them. This low score is 
statistically unchanged for the last four of these surveys. In a less 
comprehensive 2007 survey of NPS employees, ANPR found that almost half 
of the respondents indicated that they would look to organizations such 
as ANPR to offer professional development and training opportunities. 
Our assumption was that these responses further indicated that these 
employees were not getting everything they wanted in terms of 
professional development and training.
    However, one answer neither of these surveys ascertains is ``What 
specific training courses and/or professional development opportunities 
or categories of the same do you believe the agency should be providing 
to you?'' Here is another area where ANPR could help the NPS. We have 
funding from a Turner Foundation grant that would allow us to survey 
NPS employees via email to determine what they think the NPS is missing 
with regard to training and professional development opportunities. 
However, our last attempt to survey NPS employees via email was halted 
by the agency when questions surfaced concerning the source and 
validity of the email. Should the NPS choose to partner with us to 
obtain such information we would need some advance notice to regional 
and park-level Information Technology Specialists to avoid a similar 
shut down. Perhaps the NPS could accomplish this survey on their own 
with existing funding, but potential respondents may more freely give 
this information to sources outside the agency such as ANPR. ANPR also 
offers professional development training courses to its members at our 
annual conference and such information would help us choose the best 
offerings.
    We certainly believe there are current NPS training courses that 
should be supported and enhanced where appropriations allow. One such 
training is the recently established Superintendent's Academy. The 
duration of this academy may not be long enough to sufficiently 
investigate the lengthy list of responsibilities assigned to park 
superintendents. The greater flaw is that the academy is only offered 
to those that have already been selected as Superintendents. It would 
make more sense to us to make selections for this training from persons 
at the next lower level who are interesting in becoming a 
Superintendent. Field training and evaluation should be included. Those 
who do well would qualify for more challenging positions, those who do 
not would go to less complex parks or none at all. The NPS should be 
training professionals to perform the Superintendent assignment 
beforehand, not just selecting someone into it and hoping they will 
perform satisfactorily.
    Seasonal, temporary employees, the workers who most often work face 
to face with the general public, particularly suffer from a lack of 
development and training. In addition, they lack employer-provided 
health insurance; they do not accrue retirement benefits; they lack 
recognition for longevity (``step increases''); and they are typically 
laid off from government service for all but three to four months of 
the year. The agency has begun to suffer the effects of employee 
dissatisfaction, as seen in the migration of talent from NPS to other 
agencies such as the Bureau of Land Management, US Army Corps of 
Engineers, Forest Service, State Parks, and private industry. If we 
want to remain the premier park agency of the world, we need to provide 
our employees with more opportunities for career growth and 
satisfaction, or else they will work for someone else. It would be a 
shame to reach the 100th anniversary of the National Park Service in 
six years while declining in our talent and effectiveness as an agency 
due to poor investment in the futures and cares of seasonal and full-
time employees. The inevitable result will be a decrease in the quality 
of the individuals protecting and managing our national treasures. As 
we discussed earlier in the workforce recruitment and diversity section 
of these remarks, it can be difficult to thrive in any work situation 
without a full understanding of the workplace's history and culture. 
Many of our longer serving members remember days in the NPS when some 
employees were fortunate enough to attend lengthy agency orientation 
courses (some as long as 12 weeks). Such training laid an excellent 
career foundation and immersed the employee (and sometimes their 
family, too) in the agency's history and culture. While courses of this 
duration may no longer be feasible for every permanent employee of the 
NPS to attend, the current NPS Fundamentals Training Program offers a 
portion of those same benefits. The NPS has budgeted for the costs of 
this training at the national level, so it is not necessary to take 
money from parks' individual budgets for their employees to attend. We 
believe this program should be expanded and made mandatory for 
permanent employees, especially those that wish to enter supervisory 
and management positions later in their careers.
    One last piece of the training and professional development puzzle 
that needs a fix is the individual park's travel expenditures ceiling. 
Our recollection is that these ceilings were established at the 
insistence of Congress to curb what they considered to be ``boondoggle-
type'' travel that was wasteful. However, if the ceilings are set too 
low then all allowable travel dollars at the park level can be eaten up 
by certain trainings and/or meetings that are mandated by law, and/or 
regulation, and/or NPS policy. In these situations employees may 
receive no access to professional development opportunities or training 
courses for years at a time and this can lead to frustration, 
resentment, and a workforce that is not prepared to step up to the next 
level of work through reason of natural attrition or emergency 
circumstances. We concur with the National Parks Second Century 
Commission Report recommendation that:
        ``The National Park Service should follow private sector 
        practices by investing an amount equal to 4% of its annual 
        personnel budget each year in professional development.''
    This amount should be fairly divided among that park's employees 
based on ability and desire, and any portion of it spent on travel 
should not be counted against the park's travel ceiling.

Conclusion
    ANPR wants to join Congress and the NPS in taking actions and 
producing outcomes that mirror recommendations found in the National 
Parks Second Century Commission Report. We do not want this to be 
``just another report'' that looks nice on the shelf but produces no 
substantive improvements or results. We believe we can be of the most 
assistance to Congress and the NPS in increasing the diversity of 
applicants for NPS positions through our College Chapters Program, and 
by surveying NPS employees to ascertain what types of NPS-provided 
training and professional development opportunities they view as 
lacking.
    Our members represent over 10,000 years of experience in operating 
and managing units of the National Park System. For many of us the 
National Park idea, its fundamental purpose as described in the act of 
August 25, 1916 as amended, is the central theme not only in our 
professional lives, but in many cases our families' lives and values, 
our sense of patriotism, and our very definition of what being an 
American is. In ANPR's 2007 survey of NPS employees 60% responded that 
they viewed their connection to the NPS as a way of life, not just a 
job. We pledge to assist this subcommittee and the National Park 
Service in whatever ways we can to assure that the National Park idea 
remains relevant and accessible to our citizens today and for the many, 
many more yet to be born.
    On behalf of the Association of National Park Rangers, I thank you 
for the opportunity to present this testimony. I will be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you. Jerry Rogers, Former Associate 
Director for Cultural Resources, the National Park Service, 
welcome, sir.

   STATEMENT OF JERRY ROGERS, FORMER ASSOCIATE DIRECTOR FOR 
CULTURAL RESOURCES, NATIONAL PARK SERVICE, SANTA FE, NEW MEXICO

    Mr. Rogers. Mr. Chairman and Ranking Member Bishop, I am 
very, very grateful for the opportunity to appear today as 
Chair of the Cultural Resource and Historic Preservation 
Committee of the National Parks Second Century Commission, and 
also as a representative of the Coalition of National Park 
Service Retirees. Working among the diverse and creative minds 
of the Commission members was a wonderful capstone to a career. 
Working as one of 800 members of the Coalition, the voices of 
experience who speak from unique perspectives on behalf of the 
parks and the Service, reinforces the fact that it was more a 
calling than a career.
    Experience teaches one to think strategically, to draw upon 
history, to analyze the present, and to look as far as possible 
into the future. That is why the Coalition members were among 
the first to advocate using the National Park Service 
centennial for a long and thoughtful look into the second 
century of this special calling. That is why the Coalition 
supports everything in the Commission report, advancing the 
national park idea, and in the reports of the Commission's 
eight committees.
    My formal statement submitted for the record touches upon 
only a few of the recommendations, dealing with demographic 
change, education, employee development, and international 
activities, but we endorse them all. At the core of the 
Commission's work are three fundamentals. One, the national 
parks and the historic and natural places preserved by others 
using National Park Service programs are America, the core of 
how Americans know ourselves as a people.
    Two, the national parks cannot be preserved by acting only 
inside the parks. And three, the grass roots approaches of the 
Service's cultural resource and historic preservation programs 
provide guidance for how the parks can be preserved. Historic 
preservation is more nearly a citizen movement than a 
government program. It begins with owners of historic places 
who feel the privilege of stewardship and with neighbors who 
live near the places and love them.
    Seeking advice and help, and sometimes strength and 
support, these good citizens make use of nonprofit 
organizations and of their local governments. Countless 
nonprofits and more than 1,700 certified local governments are 
part of the movement. For further help, they then turn to state 
historic preservation officers who are appointed by their 
Governors and who run programs tailored to the histories and 
realities of their individual states. Most of the 80,000 
listings in the National Register of Historic Places got there 
through nominations initiated by local people and formalized by 
state historic preservation officers.
    Almost 90 American Indian tribes and virtually all land 
managing Federal agencies are part of this bottom-up process 
that works on behalf of the national park idea inside parks and 
beyond park boundaries. The National Park Service is directed 
by law to provide leadership to this network. A good way to do 
that would be to fund the full $150 million per annum from the 
Historic Preservation Fund to enable and to support this 
network that in turn supports the parks.
    The Service of the future can better protect the natural 
and other aspects of its parks by developing the natural 
resource-oriented programs' counterpart to the historic 
preservation programs, perhaps assisted with stateside land and 
water conservation fund support. There is, unfortunately, an 
urgent problem in the cultural resource and historic 
preservation programs that requires remediation before those 
programs can return to their visionary potential. They have 
suffered in recent years from repression rather than 
inspiration, they have undergone budget and staff reductions of 
25 percent or more, and at present they are without a senior 
executive level head.
    Recruitment of an Associate Director for Cultural Resources 
needs to be completed as quickly as possible, and the Service 
needs to support that action with a cultural resource challenge 
budget and a professional staffing initiative counterpart to 
the successful natural resource challenge of recent years. Only 
then can the Service return to its tradition of leadership in 
the cultural resource and historic preservation fields.
    We thank the Subcommittee for holding this hearing, and we 
hope this hearing will only be the beginning of a national 
conversation in the Congress and throughout the country on the 
value of parks and Park Service programs and on how to carry 
out a century of success into a second century. Whatever else 
we do, let us create and maintain a focus on vision. Thank you.
    [The prepared statement of Mr. Rogers follows:]

   Statement of Jerry L. Rogers, Chair, Cultural Resource & Historic 
   Preservation Committee, National Parks Second Century Commission; 
          Member, Coalition of National Park Service Retirees

    Mr. Chairman and members of the Subcommittee, my name is Jerry L. 
Rogers and I am honored to be invited to present testimony today about 
the National Park Service in its Second Century. Speaking not only as a 
member of the National Parks Second Century Commission, but also on 
behalf of the Coalition of National Park Service Retirees, I convey 
thanks and congratulations of other retirees to the Subcommittee for 
looking into this topic. It is vital to the future of our nation. We 
earnestly hope that other committees and members of both the House and 
the Senate will follow your lead. We also hope this will be the first 
of a continuing series of hearings, in the 111th Congress and in future 
Congresses on the National Park Service in its second century; in fact 
we believe that valuable hearings could be held on subjects revolving 
around each of the eight committees of the Commission.
    The Coalition of National Park Service Retirees is a spontaneously-
generated organization of men and women who have devoted their lives 
and careers to the National Park Service, who know the Service in ways 
few others know it, who love what the Service does, who share pride in 
what the Service has been, and who hold a grand vision of what the 
Service should be and do in the future. Our Coalition began when three 
retired National Park Superintendents held a press conference in May, 
2003 to emphasize concern about budgetary and policy threats to the 
Service. That event was followed by a letter to then President George 
W. Bush. As word about the letter went around the nation via the 
internet, other NPS retirees asked to be allowed to sign, and 
eventually 20 did so. The internet conversation continued, and this 
interaction eventually developed into a formal organization chartered 
as a non-profit corporation in June, 2006. Rapid growth ensued, and 
without any formal recruitment effort we have now come to number about 
800 members. Our membership includes three former Directors or Deputy 
Directors of the National Park Service, twenty-three former Regional 
Directors or Deputy Regional Directors, twenty-eight former Associate 
or Assistant Directors at the national or regional office level, 
seventy-four former Division Chiefs at the national or regional office 
level, and over one hundred and seventy-five former Park 
Superintendents or Assistant Superintendents.
    Individuals who became the initial leaders in the Coalition had as 
early as 2002 advocated a 2016 National Park Service Centennial that 
would be more than a celebration. Tempting though it is to have a 
birthday cake, some speeches, and to cut ribbons on a few new park 
facilities, it was clear to these ``voices of experience'' that a one-
hundredth anniversary was the time for a reflective examination of how 
far we have come and by what routes, and for a strategic look far as 
possible into the second century. The Coalition made its call for such 
a Commission official when its Executive Council released its ``Call to 
Action'' report on September 21, 2004. Retired Alaska Regional Director 
Rob Arnberger in particular advocated development of a Blue Ribbon 
Commission of distinguished Americans to undertake this examination, as 
evidenced by his testimony before the Senate Subcommittee on Public 
Lands & Forests in May, 2005. We were, therefore, thrilled when in 
August of 2008 the National Parks Conservation Association convened the 
National Parks Second Century Commission. I was profoundly honored when 
invited to serve as a member of the Commission, and as Chair of the 
Commission's Cultural Resource and Historic Preservation Committee. 
Other Coalition members participated in all five of the Commission's 
meetings. We are delighted with the Commission's report, and we 
presented the Coalition's highest honor--the George B. Hartzog Award--
for 2009 to the Commission's Executive Director Loran B. Fraser for his 
extraordinary leadership in bringing the work to a successful 
conclusion.
    The Commission's recommendations, we are happy to see, track well 
with the vision statement the Coalition has had posted on its website 
since early in 2006. The Coalition envisions a National Park Service in 
its second century that does the following things.
        <bullet>  Preserves and enables visitors to enjoy the truly 
        special places of our common heritage--the inalienable 
        heritage--of our nation, without confusion about its mission.
        <bullet>  Is deeply involved with the American people in what 
        it means to be American and with the people of the world about 
        what it means to be human.
        <bullet>  Is viewed by the public and government officials not 
        as a ``land management agency'' but as the steward of the 
        primary ideas and ideals held in trust as the nation's 
        heritage.
        <bullet>  Educates visitors through deeply personal experiences 
        of profoundly important places.
        <bullet>  Leads, encourages, and assists all others in our 
        country who pursue similar goals; and on behalf of the United 
        States assists all others in the world who pursue similar 
        goals.
        <bullet>  Is free of burdens that impede accomplishment of its 
        mission, and has leadership that is free of inappropriate 
        constraints and conflicting goals.
        <bullet>  Is well-funded, well-staffed, sophisticated, 
        professional, value-driven, motivated, innovative, daring, and 
        excellent, within a context of long-term continuity.
        <bullet>  Provides education, training, and career 
        opportunities that maximize fulfillment of the professional 
        potential of each employee.
        <bullet>  Is driven by a current and constantly-renewed vision, 
        nationally and in each individual park.
        <bullet>  Is managed as a coherent system rather than as 
        independent areas and programs.
    Mr. Chairman, during my time as a National Park Service Senior 
Executive the United States Government closed down, twice briefly and 
twice for longer periods, due to the lack of appropriations for its 
operation. During each of those times, network television news asked 
four questions:
        <bullet>  will the country be defended,
        <bullet>  will the mail be delivered,
        <bullet>  will the Social Security checks be on time, and
        <bullet>  will the National Parks be open?
    These four questions are powerful evidence of what the National 
Parks and the vastly larger array of places preserved by others under 
National Park Service programs actually mean to Americans. They are 
national icons almost equal to the flag itself. They have evolved from 
units of a respected national system into the combined expression of 
our most valuable and inalienable national heritage. They are the 
unchanging measure of a rapidly changing world, repositories of 
information against which human progress or its opposite can be gauged, 
touchstones of who we are as a people and even as members of the human 
species, the best hope for preserving the cultural record that defines 
American civilization and the global biological diversity upon which 
life itself depends.
    Those four questions show, appropriately, I think, that the 
National Parks have become fundamental elements of our national 
identification--they are the hard and tangible manifestation of the 
experiences, beliefs, and values that bond almost 300 million people of 
various national and cultural origins into a single viable and coherent 
nation. Without them we might never have become, and certainly could 
not long remain, the ``Americans'' that we understand ourselves to be. 
The National Parks, in a very real way, are America. And we Americans 
are not the only ones who see them as such--they are as valuable to the 
world as they are to us here at home.
    Mr. Chairman, the Coalition of National Park Service Retirees 
strongly supports all of the recommendations of the National Parks 
Second Century Commission. Using what I have just said as background, 
however, I wish to focus on only a few of the most fundamental points 
made by the Commission.
    First, although the problems faced by the Service today must be 
addressed, and although the centennial provides an ideal target date 
for doing so, we urge the Subcommittee to keep constantly in mind what 
the nation and the world need after--long after--2016. Let's hold fast 
to the long-term perspective and not allow urgent problems to drive out 
vision.
    Second, the America that the National Parks represent is changing 
rapidly. Demographic changes, but also changes in the ways people 
learn, communicate, use their time, assemble their enterprises, and 
conduct commerce create constant change in the very definition of 
America. The parks and the National Park Service must keep pace with 
that change or lose that iconic status. As just one example of what 
keeping pace means, the National Park Service must more frequently 
review and modify its criteria and the thematic categories within which 
it determines national significance--the benchmarks by which places are 
judged to be appropriate for addition to the system or designation as 
National Historic and Natural Landmarks.
    Third, parks are a special type of national university. One thing 
we know far more about now than was known in 1916 is that different 
cultures and different individuals learn in different ways. Whether one 
is devoted to books and classrooms or to any of the new educational 
methods that daily amaze us, we must not overlook the fact that visits 
to National Parks provide almost 300 million individual non-traditional 
educational opportunities each year. It seems obvious that we must make 
the most of these opportunities, but the experience of recent decades 
makes it clear that the educational mission of the parks and the 
Service needs to be established in law with absolute clarity. 
Education, in this case, includes but is greater than, park 
interpretation. Parks are and must always be vigorous centers of 
education, but it is not enough to wait for the world to come to the 
parks in order to learn. Education must be taken by the Service to the 
world.
    Fourth, the parks are threatened by myriad forces from outside 
their boundaries and they cannot be defended against these threats by 
actions taken only inside park boundaries. Not even the largest natural 
park can contain within itself everything its ecosystems require. No 
historic park can contain more than a select part of the historic 
places that embody the larger and more complete story. These outside 
threats will not be overcome by exertion of authority over people and 
practices outside the boundaries. They may be overcome, however, 
through the kind of leadership by the Service that encourages and 
enables others to carry out their own natural and cultural stewardship 
activities that are helpful to the parks.
    To deal with these problems and many others, the Commission's 
Cultural Resource and Historic Preservation Committee envisioned ``a 
century of the environment beginning August 25, 2016 in which history, 
nature, culture, beauty, and recreation are parts of sustainable 
community life and development everywhere and in which the National 
Park Service preserves and interprets selected outstanding places and 
provides leadership to all others engaged in similar work.''
    Fortunately, in the Cultural Resource and Historic Preservation 
programs the Service has abundant experience that should be useful in 
shaping a second century. In this experience, I believe, will be found 
at least some keys to National Park Service success decades into the 
future.
    Beginning as far back as 1933, but especially after enactment of 
the National Historic Preservation Act of 1966 and its various 
amendments, the Service has engaged others, mostly private property 
owners, in voluntary preservation of more than 2,400 places designated 
as National Historic Landmarks and almost 600 places designated as 
National Natural Landmarks. These nationally significant entities are 
equal in significance to the National Parks themselves. At other 
degrees of significance, 80,000 places have been listed on the National 
Register of Historic Places. In many instances the National Register's 
locally significant places fill out the cultural counterpart of the 
ecosystem concept--preserving the details of the story that may not be 
encompassed within the National Park unit or the National Historic 
Landmark. Other means the Service has used with outstanding success 
include the Rivers, Trails, and Conservation Assistance Programs, and 
the development of community-driven interactions known as National 
Heritage Areas.
    More important, and not often spoken about, is the way these 
broadly-based, grass-roots driven programs gauge the national mood and 
tap into a national creative energy with regard to the whole mission of 
the National Park Service. Think for a moment of their inclusiveness. 
They encompass virtually all property-managing Federal agencies. Their 
backbone is a network of State Historic Preservation Officers appointed 
by the Governors of 59 States and similar jurisdictions, each of whom 
runs a program shaped to deal with the realities of their own 
jurisdictions. Almost 90 American Indian Tribes have Tribal Heritage 
Preservation Officers who run programs shaped by each tribe to fit its 
own heritage. More than 1700 Certified Local Governments are parts of 
this network--each designed by and to suit its locality. The private 
sector is fully engaged, not just the great organizations like the 
National Trust for Historic Preservation, The Archaeological 
Conservancy, the National Parks Conservation Association, and thousands 
of smaller non-profits, but an unlimited number of businesspeople and 
private property owners who wish to exercise responsible stewardship 
over their pieces of the national heritage and who often profit by 
doing so. All of these are energetically engaged in carrying out the 
National Park Service mission--devoting their time, treasure, and 
creative imagination to preserving the national heritage. The National 
Register of Historic Places is at the heart of this outpouring of 
grass-roots energy.
    Mr. Chairman, when the National Park Service undertakes the above-
recommended review and update of thematic structures that guide growth 
of the National Park System, it should begin by analyzing the contents 
and the growth trends of the National Register and of the state, local, 
tribal, and agency data bases that are the source of Register 
nominations. Like the solid benchmark a surveyor uses to provide a 
known starting point for a survey, the contents of the National 
Register and related data bases should tell us much about what we as a 
nation believe to be our heritage and want to have preserved. The 
recent growth trends should, like a compass, tell us the direction in 
which we are moving whether or not that direction is yet apparent to 
everyone. More than this will be needed, of course, but this is the 
place to begin.
    One of the greatest concerns addressed by the Commission is the 
need to protect natural systems inside National Park System units by 
engaging managers of public lands and owners of private lands outside 
parks into some sort of positive cooperative interaction with the 
parks. There may be a great many ways in which this might be done, and 
a great many incentives provided to encourage cooperation. When the 
National Park Service undertakes to develop these ways it must first 
consider the ways in which its Cultural Resource and Historic 
Preservation programs; National Heritage Areas; Rivers, Trails, 
Conservation Assistance, and other community outreach programs have 
successfully engaged so many others in accomplishing the National Park 
Service mission. One recommendation particularly relevant to this 
Subcommittee's jurisdiction is to enact a law patterned somewhat after 
the National Historic Preservation Act that would direct the National 
Park Service to provide leadership in preserving nature and other 
resources central to survival of the parks. Such leadership should not 
involve command or control, but rather it involves creating 
circumstances in which others can succeed in doing what needs to be 
done. By appealing to the better nature of Americans, and by 
encouraging, enabling, and assisting them to preserve the natural and 
scenic places they want to preserve, the National Park Service can 
effectively carry out this part of its mission beyond park boundaries.
    New and more comprehensive approaches appropriate to a new century 
of work will require new and more comprehensive concepts of budgeting 
and appropriations. We are all familiar with shortfalls in funding to 
operate the parks, and ways must be found to fill the gaps. This, 
however, puts the spotlight on one of the major ways in which new 
thinking must also result in new priorities. Leadership of the present 
grass-roots network in Cultural Resources and Historic Preservation 
depends in part on appropriations from the Historic Preservation Fund, 
which the Commission recommends be at the full $150 million per annum 
level. Leadership of the proposed grass-roots network dealing with 
natural and other resources vital to success of the parks themselves 
will require not only the recommended ``full funding'' of the Land and 
Water Conservation Fund, but specifically will require support for some 
version of what has been called the ``state side'' of that fund. The 
parks must be funded properly in order to be operated properly, but if 
the parks cannot be saved from inside the parks it makes no sense to go 
on year after year failing to support budget items important to our 
outside partners such as Save America's Treasures--as the 
administration's FY 2011 budget embarrassingly fails to do.
    Mr. Chairman, we applaud--as an immediate measure and as a long-
term strategic necessity--Director Jarvis' approach to decision-making, 
based upon
        <bullet>  impeccable fidelity to law, policy, and the mission 
        of the Service,
        <bullet>  use of the best available sound scientific and other 
        scholarly information, and
        <bullet>  acting in the best interests of the broad national 
        public.
    No matter how spare the budget, how pressing the competing national 
priorities, nor how difficult the political circumstances, to cut any 
of these short is to enter a downward spiral.
    Mr. Chairman, at least one fundamental element of the National Park 
Service--its ability to manage its own cultural resources and to create 
environments in which its Federal, state, tribal, local, and private 
sector partners can succeed in managing theirs--requires virtually 
``emergency room'' level of attention. This whole set of cultural 
resource and historic preservation programs over the past decade has 
suffered serious damage, as reflected in more than 25% reductions in 
staffing and budget and by debilitating and unproductive changes in the 
organizational structure. Even though the Service shows new energy 
under Director Jarvis' leadership, and the Department of the Interior 
is launching exciting initiatives for Outdoor America, these programs 
still languish with no leader or spokesperson at the Senior Executive 
level. The absence of well-informed advocacy at high levels is obvious 
and embarrassing. A permanent Associate Director for Cultural Resources 
is urgently needed now! And when that appointment has been completed it 
must be seen as a mere beginning. A funding and professionalization 
initiative--perhaps a ``Cultural Resource Challenge'' counterpart to 
the outstanding Natural Resource Challenge of recent years--must become 
one of the highest and most immediate priorities of the Service if any 
of the grand vision for the future mentioned before is to be possible.
    Over decades, the National Park Service has from time to time 
confronted, but subsequently has walked away from, the fact that it can 
be no better than the women and men who treasure and cultivate the 
vision and who do the work to carry it out. The need to value, respect, 
and particularly to continually train and educate the workforce, has 
received diminishing priority in recent years. This must be reversed--
through formal education and training and through using methods that 
make work itself a continuous learning experience. We have done this in 
the historic preservation programs in the past and the Service can do 
it in virtually its entire operation.
    In the long journey the National Park Service has traveled in its 
first 94 years, and as it finds its path into a second century, one 
more thing cannot be overlooked. This grand mission is at once 
grassroots, and local, and state, and national, and global. Just as the 
mission cannot be accomplished only within the boundaries of the parks, 
neither can it be accomplished only within the boundaries of the United 
States. Natural ecosystems, tribal homelands, cultural and historical 
traditions, migratory species, moving air and water, immigrants, and 
park visitors all in obvious way overlap our boundaries with Mexico and 
Canada. Interactions with those nations need to be vastly accelerated, 
but the global role of the Service is yet greater. No part of the world 
now is truly isolated from any other part of the world, and if we want 
the rest of the world to behave in ways that will support what we need 
to accomplish here, the United States through its National Park Service 
must be active on a global scale. Not many years ago the United States, 
the first nation to have a national park, was often called upon to 
teach other nations about the concept. We can, and must, still do that; 
but nowadays we see the many ways in which the United States learns as 
much as it teaches. We see this, and we can gain the benefit of it, 
through international activities of the National Park Service. As the 
Subcommittee explores its own vision of a second century of the 
National Park Service, we urge a perspective that ranges from 
grassroots to global. No lesser approach can succeed.
    Thank you again, Mr. Chairman. If I can answer questions or provide 
additional information I will be very happy to do so.
                                 ______
                                 
    Mr. Grijalva. Dr. Raymond Wanner, United Nations 
Foundation, welcome, sir. I look forward to your comments.

 STATEMENT OF RAYMOND WANNER, Ph.D., SENIOR ADVISOR ON UNESCO 
   ISSUES, UNITED NATIONS FOUNDATION, SILVER SPRING, MARYLAND

    Dr. Wanner. Thank you, Mr. Chairman. I am not a specialist 
in the National Park System or in conservation, but over the 
past 30 years I have worked closely with the Park Service in 
its international outreach, first as the State Department 
officer responsible for preparing delegations to meetings of 
the UNESCO World Heritage Committee and, since retirement, on 
behalf of the United Nations Foundation on shared priorities, 
such as biodiversity protection.
    But this morning I speak for myself alone and, on the basis 
of this long experience, I wish to share with you my firm 
conviction that to the degree the international outreach of the 
National Park Service can be strengthened and expanded, to that 
degree the national interest and the global good will be 
served. I say this not only because of the unparalleled 
expertise of the Park Service in conservation, but also because 
of the indispensable credibility it brings to the State 
Department in negotiating politically sensitive issues of 
heritage protection in Jerusalem, Kosovo, and the Thai-
Cambodian border, when they arise at meetings of the World 
Heritage Committee.
    The Park Service has for many years done the heavy lifting 
in preparing and leading our government's participation in the 
World Heritage Convention, which over the years has identified 
nearly 800 sites worldwide deemed to be of outstanding 
universal value. States' parties to the Convention take it 
seriously, as does the international conservation community. A 
measure of this seriousness is that the annual Committee 
meeting of just 21 members usually draws 8 to 900 delegates 
even when in recent years it meets in such distant locations as 
Australia, South Africa, and New Zealand.
    Permit me to observe that while there is usually background 
noise during meetings of this size, a hush falls when the 
National Park Service is at the microphone, because everyone 
knows that the Park Service will speak knowledgeably and 
credibly about the conservation and preservation of these sites 
and how local communities can on the one hand help in their 
conservation and on the other benefit from the economic 
dividends they can provide.
    For many years, the Park Service under both Republican and 
Democratic Administrations has given professional credibility 
to the U.S. delegations at these meetings. There are likely 
many reasons for this international respect for the Park 
Service, and through it for the United States, but in large 
measure it appears to be a return on sound investments made by 
the U.S. Government in international programs such as the Park 
Service-Peace Corps partnership in 1972 that grew into the 
largest volunteer conservation program in the world.
    The Park Service's international seminar on the 
administration of national parks had comparable success and 
continues to bring long-term benefits to the United States of 
good will and enhanced technical expertise. This program had at 
one time trained the majority of national park executives 
worldwide. It put the U.S. and the National Park Service on the 
map as the key conservation player internationally, and very 
importantly served to introduce hundreds of innovative ideas 
and concepts to the National Park Service management.
    It is noteworthy that the current Deputy Director of the 
World Heritage Center is a seminar graduate, and its Director 
is a former Fulbright Fellow. This is one reason the United 
States has significant policy influence at the Center. 
Regrettably, funding for the international seminar eroded, and 
like the National Park Service-Peace Corps agreement it was 
discontinued.
    But, fortunately, good things continue to happen. The 
National Park Service recently initiated the World Heritage 
Fellows Program. It offers training opportunities to qualified 
candidates who wish to learn from the U.S. experience in 
managing and protecting world heritage sites. The fellows work 
alongside National Park Service professionals in a variety of 
areas. Travel expenses are paid by the Park Service's 
international office, while individual parks provide housing.
    Mr. Chairman, as we celebrate the beginning of the park 
system's second century, it is increasingly clear that the 
forces that shape our future are becoming increasingly global 
in nature. I respectfully suggest, consequently, that it is 
time to provide the National Park Service with the means to 
renew and expand its international outreach. In particular, to 
renew its partnership with the Peace Corps and to relaunch the 
international seminar on the administration of national parks, 
as well as assignments of specialists to regional park and 
wildlife training centers in developing nations.
    I recommend also that the Committee consider support for 
emerging new programs such as global parks which, working with 
the Park Service, has the potential to mobilize retired 
conservation specialists for service abroad. These are the 
kinds of things our government does very well, and as the 
record shows they are investments that bring a high return. 
Thank you, Mr. Chairman.
    [The prepared statement of Dr. Wanner follows:]

                Statement of Raymond E. Wanner, Ph.D., 
               Invited to Testify in My Personal Capacity

    Thank you Mr. Chairman and Distinguished Committee members for the 
privilege to testify before you.
    I am not a specialist in the National Park system or in 
Conservation, but over the past thirty years I have worked closely with 
the Park Service' in its international outreach; first, as the State 
Department Officer responsible for preparing US delegations to meetings 
of the UNESCO world Heritage Committee and, since retirement, on behalf 
of the United Nations Foundation on shared priorities such as 
biodiversity protection. But this morning I speak for myself, alone and 
On the basis of this experience
    The Park Service's International Office has for many years done the 
heavy lifting in preparing and leading our government's participation 
in the World Heritage Convention, which over the years has identified 
and inscribed on the World Heritage List 877 sites worldwide deemed to 
be of outstanding universal value. States Parties to the Convention 
take it seriously because of the political and economic value they 
perceive as coming from having sites inscribed on the World Heritage 
List, The Convention is taken seriously also by the international 
conservation community because of the growing awareness that many World 
Heritage sites are not adequately managed and that there needs to be a 
concerted international effort to conserve and protect them. A measure 
of the importance given the Committee by States Parties and 
conservationists is that the annual 21-member committee meeting usually 
draws 800 to 900 delegates even, in recent years, to such distant 
locations such as Cairns, Australia, Durban, South Africa and 
Christchurch New Zealand.
    Permit me to observe that while there is usually background noise 
of scores of whispered conversations during meeting of this size, a 
hush falls, when the U.S. takes the floor and most particularly when 
delegates become aware that a representative of the National Park 
Service at the microphone. Why? Because Everyone knows that the speaker 
will speak knowledgeably and credibly about the recognition, 
conservation, and preservation of these sites of outstanding universal 
value and how local communities can on the one hand help in their 
conservation and, on the other, benefit from the economic dividends 
they have the potential to provide. The Park Service, under both 
Republican and democratic administrations, gives credibility to the 
U.S. Delegation at these meetings. To such a degree, in fact, that 
after representing the U.S. at successiveCommittee meetings in 
Marrakesh and Cairns, Australia without Park Service representation, I 
recommended to the Department of State that it was better for the U.S, 
not to attend such meeting than to attend without the professional 
expertise of the Park Service.
    There are likely many reasons for the international respect for the 
Park Service and through it for the United States. But in large 
measure, it appears to me to be a return on the sound investments over 
the years in international programs such as the National Park Service-
Peace Corps partnership launched in 1961 that grew into the largest 
volunteer conservation program in the world with several thousand 
volunteers working in wildlife and forestry preservation. Beyond its 
primary goal of conservation, this partnership also enhanced staff 
quality at both the NPS and Peace corps as well as contributing to the 
United States government's international heritage protection diplomacy.
    The International Seminar on the Administration of National Parks 
and Equivalent reserves had comparable success and continues to bring 
long-term benefits to the United States. The program, run, at the time 
in partnership with the Park Service Office of International Affairs, 
the Universities of Michigan, Miami and Arizona, Parks Canada and 
sometimes Mexico, had at one time trained the majority of National Park 
Executives, system directors and key managers worldwide. These programs 
created a worldwide conservation community, put the US and the National 
Park Service on the map as the key conservation player internationally 
and, very importantly, served to introduce hundreds of innovative ideas 
and concepts to the National Park Service management. It is noteworthy 
that the current Acting Director of the world Heritage Center, Inshore 
Rao, is a Seminar graduate. This is one reason the United States has 
significant influence at the Center. Regrettably, funding for the 
international seminar eroded and, like the National Park Service-Peace 
Corps Agreement, it was discontinued. But t Fortunately, some good 
things continue to happen! As part of a commitment on the part of the 
United States to help strengthen the conservation of World Heritage 
sites around the World, the National Park Service recently initiated 
the ``U.S. World Heritage Fellows'' program. It offers training 
opportunities to qualified candidates who wish to learn from the U.S. 
experience in managing and protecting World Heritage sites. The Fellows 
work alongside National Park Service professionals in a variety of 
areas including resource management, concessions, education, planning 
and law enforcement. Travel expenses are paid by the Park Services 
International office while individual parks provide housing and, in 
many cases, a modest living stipend.
    In 2012, the World Heritage Convention, which is a projection on 
the international scale of the National Parks concept, will celebrate 
its 40th anniversary. The convention was an American invention and the 
United States, under then President Nixon, was the first country to 
ratify it.
    With the forces that shape our future becoming increasingly global 
in scope, I respectfully suggest to the Committee that it is time to 
provide the National Park Service with the means to renew and expand 
its international outreach. In particular to renew its partnership with 
the Peace Corps and to relaunch the International Seminar on the 
Administration of National Parks. I recommend also that it consider 
support for emerging new programs such as ``Global Parks'' which, 
working with the Park Service, mobilizes retired conservation 
specialists for service abroad. These are the kinds of international 
initiatives that we do very well and, as the record shows, they are 
investments that bring a high return. There are other opportunities, 
many at low cost, such as providing administrative funds to incorporate 
the widely respected ``World Heritage in Young Hands'' program into 
schools and youth groups. If funds were available, the National Park 
Service's International office could also provide valuable training to 
African site managers through the African World Heritage Fund, a newly 
created body to help sub-Saharan African nations to conserve their 
World Heritage sites and to identify and submit others for inscription. 
China, India, the Netherlands and Norway currently provide most of the 
external funding for this fund. It is a serious and well-managed 
program that has requested and badly needs U.S. expertise. In 
conclusion, Mr. Chairman, it is my firm conviction, based on thirty 
years experience of working side by side with the National Park Service 
that to the degree the international outreach of the National Park 
Service can be strengthened and expanded, to that degree the US 
national interest and the global good will be served.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me begin, Mr. Ortega, you 
mentioned in your testimony that when you took over the 
concession at White Sands you made some much needed renovations 
to the concession space and then afterwards you gave those 
improvements to the park.
    Mr. Ortega. Correct.
    Mr. Grijalva. Following up on that, let me just talk a 
little bit about, do you have any thoughts dealing with the 
problem that I perceive in the parks where a lease hold 
surrender interest, basically the existing operator's capital 
investment is almost, it is a prohibition almost, from 
competing concessionaires in the bidding process. And so that 
is really the point, your reaction to that?
    Mr. Ortega. Mr. Chairman, what you say is absolutely true. 
The LSI, and the PI before that, are almost imaginary concepts 
now that do not have anything to do with reality, and there are 
a lot of situations, not so much in my parks except for one but 
particularly with the bigger concessionaires, we have a 
situation at the Grand Canyon where the LSI is now at something 
like, as I understand it and I am not at all an expert in this 
area, something like $250 million, OK? The return, they do 
about $70, $75 million a year there, and they are making 
somewhere between $7 and $8 million as--I am not privy to their 
books but I am just using rule of thumb. There is no way that 
you can get anybody to bid and pay, if I had the $250 million, 
which I do not, I would not bid on the Grand Canyon precisely 
for this reason.
    I do not know, as an aside, where they got these numbers. I 
suspect there was a little pushing by some of the concessions, 
to tell the truth here, long ago when it was PI, to inflate 
those numbers. At any rate, that is, what you say, is 
definitely a problem. And I can put a question back to everyone 
here, what if the concessioner there looks at the numbers and 
realizes, this is not worth $250 million and they leave? Isn't 
the government supposed to pay them that $250 million? I think 
so. Now, as I say this is not in my area, and so I just hear 
around the edges what this is about. My son could probably 
better address this, but he is obviously not here. So that is 
my answer.
    Mr. Grijalva. Thank you. Mr. Rogers, just a general idea, 
if you could, of the types of cultural and historic units that 
are lacking in the current system as you have gone through this 
process?
    Mr. Rogers. Mr. Chairman, the Cultural Resource and 
Historic Preservation Committee gave attention to this during 
the process of the Commission. I would say some of the more 
obvious examples are the ones alluded to by Representative 
Lujan. I would say American Indian history for one example, 
American Indian history that does not have to reach back to 
antiquity into ancient times nor the history that is 
represented by Indian encounter with European civilization. You 
know, there is an American Indian history that is its own 
thing, and that is not very visible in the National Park 
System, it really ought to be there.
    About 20 years ago, this Subcommittee directed the National 
Park Service to study the theme of space exploration, and we 
did, and we listed a number of national historic landmarks 
based upon the trip to the moon and elsewhere, and not many of 
those are yet represented in the National Park System. You 
could probably change every one of the historic themes, improve 
the theme, by giving more attention to the roles of women and 
minorities. There has been relatively little representation of 
the history of labor in America. And most important perhaps, 
the changing definition of what it means to be American, as has 
been said earlier, that is changing before our very eyes and 
very, very rapidly. We need to keep up with that. 20th Century 
history would represent some of that.
    Mr. Grijalva. And you also mentioned, Mr. Rogers, NPS, you 
talk about how NPS is exercising a leadership role in the 
cultural issues among certified local governments and private 
landowners. How does that differ from the command or regulatory 
role that critics of the agency seem to be so afraid of?
    Mr. Rogers. Well, thank you for that question, Mr. 
Chairman, that is one of my favorite subjects. The whole 
historic preservation movement, as I said, is a grass roots 
movement. The energy comes from people who want something, and 
the various levels of government serve that energy. Probably 
25, 30 years ago when I was running these programs insofar as 
you can run them from the National Park Service perspective, 
you know, what I came to realize that I was responsible for 
this wide ranging network of public and private individuals and 
I had zero authority to make anyone do anything.
    So, it caused me to focus on what leadership really is. One 
thing leadership is not is command, and it is not control and 
it is not even supervision. What leadership is, in a case like 
this, is shaping and maintaining a clear vision for the future, 
it is modeling the best in management of selected outstanding 
places, and it is creating environments in which others such as 
our colleagues at this table can succeed in doing the things 
that the National Park Service needs them to do.
    Mr. Grijalva. Thank you. And, Ms. Pierpont, just to thank 
you, I thought your testimony was excellent, and I think the 
point that we need to deal with is the funding point that you 
brought up and that has been brought up before, that continues 
to be in my mind an urgency that we need to deal with. And I 
also want to thank all the panelists today. Ms. Rife, thank you 
very much. I think the issue you brought up, we had talked 
earlier about morale issues as well, and you also brought up 
about the complexity of the culture, about how to end up in 
employment, I think your suggestions of who to link with and 
who to coordinate with are targeted and well represented, and 
thank you for that.
    And, Dr. Wanner, I think you reminded us again about the 
need to fix some permanency to the Peace Corps initiative, and 
also I think your points about diplomacy, the Park Service's 
role in diplomacy and an international play that we need to be 
are well received and I appreciate that. I have no other follow 
up questions. Let me turn to Ranking Member Mr. Bishop for his.
    Mr. Bishop. I also want to thank all five of you for the 
excellent presentation as well as your written comments, which 
we have, and we will continue to go through there. I appreciate 
your time and effort coming here, you have obviously outlived 
the rest of the Committee, so thank you for being here. Mr. 
Rogers, do not worry about the space exploration part, if 
consolation is not refunded there is not going to be a history 
anyway. Mr. Ortega, I do appreciate your reference obviously to 
the concept of concessions, which I think was one of those 
areas that needs to be explored once again.
    For some members of my family a good park is one that has a 
good gift shop, for others it depends on the kinds of bathrooms 
that you have there, and for me, if you are not selling Dr. 
Pepper, there is no reason to go there in the first place. So, 
I want it cold and I want it convenient, OK? But what you are 
talking about, there are legitimate points, I especially 
appreciate your response to the Chairman's questions as to what 
does entice people to stay there. Concessions are indeed one of 
those reasons why people go to parks or why they will return 
again, so thank you very much.
    Mr. Grijalva. Thank you. And before adjourning the meeting, 
somebody handed me a really good quote, a former National Park 
Service Director who got into trouble for trying to stop a dam 
that was going to go into the national--to a protected area, 
and I thought it is a good quote to adjourn the meeting. ``If 
we are going to succeed in preserving the greatness of the 
national parks, they must be held inviolate. They represent the 
last stand of primitive America. If we are going to whittle 
away at them, we should recognize that all such whittlings are 
cumulative, and that the end result will be mediocrity, and the 
greatness will be gone.'' Thank you so much, and I appreciate 
it.
    [Whereupon, at 1:11 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
